<html>
<title> - INTERNATIONAL POLAR YEAR: THE SCIENTIFIC AGENDA AND THE FEDERAL ROLE</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                       INTERNATIONAL POLAR YEAR:
                       THE SCIENTIFIC AGENDA AND
                            THE FEDERAL ROLE

=======================================================================

                                HEARING

                               BEFORE THE

                        SUBCOMMITTEE ON RESEARCH

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 20, 2006

                               __________

                           Serial No. 109-61

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science

                                 ______


                    U.S. GOVERNMENT PRINTING OFFICE
29-850                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              DARLENE HOOLEY, Oregon
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         DANIEL LIPINSKI, Illinois
W. TODD AKIN, Missouri               SHEILA JACKSON LEE, Texas
TIMOTHY V. JOHNSON, Illinois         BRAD SHERMAN, California
J. RANDY FORBES, Virginia            BRIAN BAIRD, Washington
JO BONNER, Alabama                   JIM MATHESON, Utah
TOM FEENEY, Florida                  JIM COSTA, California
RANDY NEUGEBAUER, Texas              AL GREEN, Texas
BOB INGLIS, South Carolina           CHARLIE MELANCON, Louisiana
DAVE G. REICHERT, Washington         DENNIS MOORE, Kansas
MICHAEL E. SODREL, Indiana           DORIS MATSUI, California
JOHN J.H. ``JOE'' SCHWARZ, Michigan
MICHAEL T. MCCAUL, Texas
MARIO DIAZ-BALART, Florida
                                 ------                                

                        Subcommittee on Research

                  BOB INGLIS, South Carolina, Chairman
LAMAR S. SMITH, Texas                DARLENE HOOLEY, Oregon
CURT WELDON, Pennsylvania            DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         BRIAN BAIRD, Washington
GIL GUTKNECHT, Minnesota             CHARLIE MELANCON, Louisiana
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
W. TODD AKIN, Missouri               BRAD MILLER, North Carolina
TIMOTHY V. JOHNSON, Illinois         DENNIS MOORE, Kansas
DAVE G. REICHERT, Washington         DORIS MATSUI, California
MICHAEL E. SODREL, Indiana           VACANCY
MICHAEL T. MCCAUL, Texas             VACANCY
VACANCY                              BART GORDON, Tennessee
SHERWOOD L. BOEHLERT, New York
             ELIZABETH GROSSMAN Subcommittee Staff Director
            JIM WILSON Democratic Professional Staff Member
      MELE WILLIAMS Professional Staff Member/Chairman's Designee
            RACHEL JAGODA BRUNETTE Professional Staff Member
          AVITAL ``TALI'' BAR-SHALOM Professional Staff Member
                   MEGHAN HOUSEWRIGHT Staff Assistant


                            C O N T E N T S

                           September 20, 2006

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Bob Inglis, Chairman, Subcommittee on 
  Research, Committee on Science, U.S. House of Representatives..     8
    Written Statement............................................     9

Statement by Representative Darlene Hooley, Ranking Minority 
  Member, Subcommittee on Research, Committee on Science, U.S. 
  House of Representatives.......................................     9
    Written Statement............................................    11

                               Witnesses:

Dr. Arden L. Bement, Jr., Director, National Science Foundation
    Oral Statement...............................................    12
    Written Statement............................................    14
    Biography....................................................    38

Dr. Robin Elizabeth Bell, Doherty Senior Research Scientist, 
  Lamont-Doherty Earth Observatory, Columbia University
    Oral Statement...............................................    38
    Written Statement............................................    41
    Biography....................................................    56
    Financial Disclosure.........................................    58

Dr. Donal T. Manahan, Professor of Biology, University of 
  Southern California
    Oral Statement...............................................    59
    Written Statement............................................    61
    Biography....................................................    63
    Financial Disclosure.........................................    67

Mr. Mark S. McCaffrey, Associate Scientist and Science 
  Communications Expert, Cooperative Institute for Research in 
  Environmental Sciences, University of Colorado, Boulder
    Oral Statement...............................................    68
    Written Statement............................................    70
    Biography....................................................    77
    Financial Disclosure.........................................    79

Dr. Kelly Kenison Falkner, Professor of Chemical Oceanography, 
  Oregon State University
    Oral Statement...............................................    80
    Written Statement............................................    81
    Biography....................................................    86
    Financial Disclosure.........................................    88

Discussion.......................................................    89

              Appendix: Answers to Post-Hearing Questions

Dr. Arden L. Bement, Jr., Director, National Science Foundation..   106


  INTERNATIONAL POLAR YEAR: THE SCIENTIFIC AGENDA AND THE FEDERAL ROLE

                              ----------                              


                     WEDNESDAY, SEPTEMBER 20, 2006

                  House of Representatives,
                          Subcommittee on Research,
                                      Committee on Science,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Bob Inglis 
[Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                        SUBCOMMITTEE ON RESEARCH

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                       International Polar Year:

                       The Scientific Agenda and

                            the Federal Role

                     wednesday, september 20, 2006
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On Wednesday, September 20, 2006, the Research Subcommittee of the 
Committee on Science of the House of Representatives will hold a 
hearing to examine the research planned for the upcoming International 
Polar Year (IPY) and the U.S. role in the IPY.

2. Witnesses

Dr. Arden Bement is the Director of the National Science Foundation 
(NSF).

Dr. Robin Bell is a Doherty Senior Research Scientist at the Lamont-
Doherty Earth Observatory of Columbia University. She chairs both the 
Polar Research Board of the National Academy of Sciences and the U.S. 
Committee to the IPY and serves as Vice-Chair of the International 
Council for Science (ICSU, based on the French acronym) Planning Group 
for the IPY.

Dr. Kelly K. Falkner is a Professor of Chemical Oceanography at Oregon 
State University and is a member of the Advisory Committee to the NSF 
Office of Polar Programs.

Dr. Donal T. Manahan is a Professor of Biology at the University of 
Southern California and runs an NSF-funded program to provide graduate 
students with research experience in Antarctica.

Mr. Mark S. McCaffrey is an associate scientist and science 
communications specialist at the Cooperative Institute for Research in 
Environmental Sciences (CIRES) at University of Colorado, Boulder. He 
is a member of the ICSU IPY Education, Outreach, and Communications 
Subcommittee.

3. Overarching Questions

        <bullet>  What are the most critical unanswered questions that 
        we hope to resolve with the research conducted during this IPY? 
        What are the societal benefits of this research? What has been 
        learned from polar research and IPYs in the past?

        <bullet>  What role will each of the federal agencies play in 
        the IPY? What is the U.S. role in the IPY, and how does the 
        U.S. collaborate with international participants?

4. Brief Overview

        <bullet>  The IPY will consist of an intense, internationally 
        coordinated effort of polar observations, research and analysis 
        in many scientific fields, including study of how the Earth's 
        remote polar regions influence global climate systems. The IPY 
        also hopes to inspire the next generation of scientists and to 
        educate the public about the polar regions.

        <bullet>  The IPY will begin in March 2007 and run through 
        March 2009 so that scientists have the opportunity to work in 
        both polar regions during the IPY or to study the poles during 
        both summer and winter seasons. This is the fourth IPY, and it 
        celebrates the 50th anniversary of the International 
        Geophysical Year.

        <bullet>  To date, 38 nations have expressed interest in 
        participating in the IPY. International coordination occurs 
        through the ICSU and the World Meteorological Organization 
        (WMO). In the U.S., the federal agencies actively involved in 
        IPY are NSF, the National Oceanic and Atmospheric 
        Administration (NOAA), the National Aeronautics and Space 
        Administration (NASA), the Department of Energy (DOE), the 
        Department of Defense (DOD), the National Institutes of Health 
        (NIH), the U.S. Geological Survey (USGS), the Department of the 
        Interior (DOI) and the Smithsonian Institution.\1\
---------------------------------------------------------------------------
    \1\ Other U.S. agencies and organizations that have sponsored or 
participated in IPY planning workshops, are members of the Interagency 
Arctic Research Policy Committee (IARPC), and/or have interests in the 
polar regions include the Department of Agriculture, the Department of 
Education, the Department of Homeland Security, the Department of State 
and the Environmental Protection Agency.

        <bullet>  The White House has designated NSF, which manages the 
        U.S. Antarctic Program and chairs the Interagency Arctic 
        Research Policy Committee, to be the lead federal agency for 
        the IPY. NSF's fiscal year 2007 (FY07) budget request includes 
        $62 million for research related to the IPY, including research 
        on how the Arctic environment is changing, the history and 
        dynamics of polar ice sheets, and how life forms adapt to harsh 
        polar environments, and funding for associated logistics, 
        infrastructure, and education and outreach activities. (NSF has 
        funded research in these areas for many years, but is 
        increasing its focus on, and funding for them in concert with 
        the IPY.) Overall, the proposed NSF budget for FY07 is $6.0 
        billion, of which $438 million is for polar research programs 
        and logistical support; both House and Senate appropriators 
---------------------------------------------------------------------------
        have provided NSF with the requested overall level for FY07.

5. U.S. Agencies and the IPY

    While the IPY is in an international effort, the approval of 
individual research projects is left up to each nation. ICSU, an 
international, non-governmental science organization, and the WMO are 
coordinating the IPY through a joint committee and a program office. 
That committee has enumerated themes for IPY research. Scientists 
wishing to undertake IPY research can submit their proposals to the 
committee, which then decides, based on the topic, whether the research 
can be considered an IPY activity. The application process is 
essentially over, and the committee has endorsed about 225 projects and 
is reviewing another 900 or so. Committee approval is not based on a 
review of the quality of the project, and few applications are 
rejected. (The committee also establishes guidelines for sharing of 
data and other aspects of research conduct.)
    Federal research agencies in the U.S. have begun to solicit 
research proposals for the IPY (primarily through existing research 
programs), and it is not clear how the review process will take into 
account whether a project has already been designated as an IPY project 
through the ICSU-WMO process.
    Of the federal agencies involved in the IPY--NSF, NOAA, NASA and 
DOE--only NSF's FY07 budget request specifically describes funds to be 
dedicated to IPY activities. These funds will go to expand support for 
ongoing research in areas related to the IPY. NSF has proposed spending 
$62 million on IPY activities in FY07, an increase of $8.3 million over 
FY06 levels for research in those areas.
    NSF will distribute IPY funding both through ongoing programs and 
via IPY-specific solicitations seeking project proposals in high-
priority research areas, such as Arctic climate monitoring, and IPY-
related education and outreach activities. The first such solicitation 
was released in January 2006 (to distribute $12 million in FY06 funds), 
and NSF is expected to announce this fall which projects were selected 
for funding. Proposed projects must include a description of their 
relevance to the IPY, but they are not required to have been endorsed 
by the ICSU-WMO process.

6. Background

History of IPY
    Over the past 125 years, there have been three occasions when 
scientists from all over the world gathered together to concentrate on 
research in the polar regions. Each occasion was marked by significant 
breakthroughs in scientific knowledge, provided benefits to society, 
sparked continued collaboration among participants, and set the stage 
for several political accords.
    The first IPY took place in 1882-1883 when it was agreed that one 
nation alone could not adequately study the geophysical attributes of 
the polar regions. Twelve countries participated, with 13 expeditions 
to the Arctic and two expeditions to the Antarctic. The international 
legacy of this first IPY was that it set a precedent for international 
science cooperation. For the U.S., an immediate result was the creation 
of a permanent science station at Point Barrow, Alaska, the 
northernmost point of the U.S. To support this first IPY, Congress 
appropriated $33,000 to the Army Signal Corps of the War Department.
    In 1932, a second IPY was proposed by the forerunner of the World 
Metrological Organization (WMO) in an effort to study the implications 
of the newly discovered jet stream. Forty nations participated in this 
IPY, which led to advances in meteorology, atmospheric sciences, and 
understanding of the Earth's magnetic field. Research findings on the 
nature and structure of the ionosphere surrounding the Earth also 
enabled significant improvements in radio communications. Part of the 
U.S. contribution to this IPY was the Byrd Antarctic expedition, which 
created the first inland research station (a winter-long meteorological 
station) in Antarctica. In addition, 40 permanent observation stations 
were established in the Arctic. The total U.S. investment for the 1932 
IPY was approximately $100,000.\2\
---------------------------------------------------------------------------
    \2\ Of the $100,000 U.S. investment in the second IPY, $30,000 was 
federal funds from the Department of State. Other funding came from 
university and private sources.
---------------------------------------------------------------------------
    Perhaps the most notable of the IPYs, and what the upcoming IPY 
hopes to build on, was the 1957-1958 International Geophysical Year 
(IGY). Originally referred to as the third IPY, organizers expanded the 
research opportunities beyond the polar regions and changed the named 
to the IGY in an effort to garner more international participation. 
Sixty-seven nations and over 80,000 scientists participated in the IGY. 
Part of the impetus for the IGY came from World War II physicists who 
wanted to redirect newer technologies from the war (radar and rockets) 
toward research applications, specifically the study of the upper 
atmosphere. Among the scientific successes of the IGY were the first 
informed estimates of the total size of Antarctica's ice mass, the 
confirmation of the phenomenon of continental drift, and the discovery 
of the Van Allen Radiation Belt surrounding Earth. Politically, the 
relationships developed during the IGY and the successes of the 
scientific collaborations helped lead to the ratification of the 
Antarctic Treaty in 1961. Much of today's polar research builds upon 
discoveries made during the IGY.
    In the U.S., federal support for IGY primarily flowed through NSF, 
which was established in 1950. Between 1955 and 1961, NSF spent $59 
million on IGY activities.\3\ Additional funds were spent by other 
government agencies,\4\ universities, and private laboratories.
---------------------------------------------------------------------------
    \3\ In the early years, IGY was a significant piece of NSF's 
budget; in 1956 nearly half of NSF funding was dedicated to IGY.
    \4\ Other agencies providing support for IGY in some capacity 
included the Department of Defense, the State Department, the Commerce 
Department, the Atomic Energy Commission, and the Office of Defense 
Mobilization.

Upcoming IPY (2007-2008)
    In A Vision for the International Polar Year 2007-2008,\5\ the U.S. 
National Committee for IPY, an arm of the National Academy of Sciences, 
identified five scientific challenges for the U.S. to address:
---------------------------------------------------------------------------
    \5\ A Vision for the International Polar Year 2007-2008, National 
Academy of Sciences, 2004; available online at http://newton.nap.edu/
html/ipr2007-2008/0309092124.pdf.

        1.  Assessing large-scale environmental change in the polar 
        regions, with questions looking at both the physical and human 
---------------------------------------------------------------------------
        dimensions of change and its impacts.

        2.  Conducting scientific exploration of new frontiers, whether 
        these are once inaccessible places such as the sea floor, or 
        areas of inquiry that are now open because of advances in 
        technology, such as how the tools of genomics now allow 
        exploration of previously unanswerable questions about 
        biological adaptation.

        3.  Observing the polar regions in depth, with adequate 
        coverage of the vast and challenging landscape, to provide a 
        description of current conditions and allow for better future 
        understanding of variability and change.

        4.  Understanding human-environmental dynamics in a region 
        where the connections are intimate and where the impacts of 
        change are clear.

        5.  Creating new connections between science and the public, 
        using these regions that are inherently intriguing.

    Education and outreach is a key focus of the upcoming IPY. IPY 
participants plan to share the research experiences with K-12 students, 
people who live in the polar regions, decision-makers, and the general 
public. Specific activities planned include web sites, workshops, 
newsletters, press kits, classroom remote participation and interactive 
programs, and polar theme contests and class lessons.

NSF Polar Research Programs
    NSF is the lead federal agency supporting research at the North and 
South Poles. As an example, a recent survey of polar ice sheet's 
drainage basins provided a wealth of data for scientists studying the 
process of and reasons for the disappearance of glaciers. Ongoing 
research also includes studies on how the Antarctic mountain ranges 
formed and seismic and geochemical monitoring of Mt. Erebus, the 
world's southernmost active volcano.
    In addition to projects that study the polar continents themselves, 
NSF also supports research in a variety of fields that can be conducted 
only at the poles. For example, the cold, dry climate and high altitude 
at the South Pole provide an excellent environment in which to make 
certain astrophysics measurements (such as looking at faint signals of 
radiation from when the universe was young). Finally, NSF also provides 
logistical and infrastructure support for polar research, including 
permanent and temporary research stations at the poles, research 
vessels, interagency leadership for research planning, and management 
of all U.S. activities in Antarctica. For FY07, the NSF budget request 
for polar research programs and logistical support is $438 million, $49 
million over the FY06 level.
    For the IPY, NSF will continue and expand ongoing polar research 
activities as well as provide logistical support. Specifically, 
research programs on how the Arctic environment is changing, the 
history and dynamics of polar ice sheets, and how life forms adapt to 
harsh polar environments have been identified as priorities for IPY and 
beyond. In FY06, the NSF budget for IPY planning activities was $12.4 
million, and the FY07 NSF budget request includes $61.6 million to 
begin funding IPY research.
    Projects to gather data on and model the Arctic climate will be 
part of the interagency Study of Environmental Arctic Change (SEARCH) 
program, a long-term program in which NSF, NOAA, and NASA are building 
a network of observing sites to monitor environmental change in the 
Arctic and supporting research on causes and impacts of the change. 
During the IPY, NSF will support the development of an international 
network to measure climate throughout the Arctic and to tap the 
knowledge of indigenous peoples about their environment.
    Research on glaciers will occur under the Polar Ice Sheet Dynamics 
and Stability Program and is aimed at better understanding the ice 
sheets' impact on global climate change. A primary focus will be 
drilling projects to obtain samples from deep within the Antarctic ice 
sheets, mountain ranges, and ocean floors to improve our understanding 
of Antarctic climate over the past 40,000 years and gather data that 
can be compared to changes that occurred in the Arctic.
    Studies on how life forms are able to adapt and survive the harsh 
temperatures and darkness of the polar regions are supported under 
NSF's program on Life in the Cold and Dark. Research projects will 
focus on studying how organisms have changed at the cellular and 
genomic levels and include investigations of human adaptation and how 
infectious diseases evolve due to climate change. During IPY, NSF will 
support research in this area at Toolik field station in Alaska, at 
Summit, Greenland; and in the McMurdo Dry Valleys of Antarctica.
    In addition to these priority areas, other NSF initiatives planned 
for the IPY include efforts to improve climate modeling and upper 
atmosphere studies to better understand space weather. NSF's education 
and outreach plans include support for museum exhibits and film, 
television and radio documentaries; development and distribution of 
classroom materials for teaching about polar research; and polar 
research field experiences for undergraduate and graduate students and 
K-12 educators. One museum exhibit of photographs by the recipient of 
an NSF Antarctic Artists and Writers Program grant, Wondrous Cold: An 
Antarctic Journey, has already been displayed at the Smithsonian Museum 
of Natural History and is currently traveling around the country.\6\
---------------------------------------------------------------------------
    \6\ For details about the exhibit and its travel schedule, see 
http://www.sites.si.edu/exhibitions/exhibits/wondrous/main.htm.

Other Federal Agency Polar Programs and IPY Activities under Science 
        Committee Jurisdiction
            National Oceanic and Atmospheric Administration
    NOAA's FY07 proposed budget does not include new funds specifically 
for the IPY, but it does include $9.27 million for ongoing NOAA 
activities in the polar regions. These activities are consistent with 
the international goals for the IPY, and NOAA plans to coordinate their 
projects with other U.S. and international IPY activities. The planned 
NOAA projects include exploration of polar oceans, research on how to 
improve prediction and modeling of polar climates, polar atmospheric 
and stratospheric observations, studies on causes and impacts of 
Pacific Arctic change, and surveying of Antarctic marine life.
            National Aeronautics and Space Administration
    In addition to ongoing activities in support of the SEARCH program, 
NASA has a variety of education and outreach plans for during the IPY. 
For example, NASA is collaborating with NSF and NOAA on three IPY 
education and outreach symposia. These symposia are designed for 
educators and will focus on ways to teach about polar topics, such as 
the fragile ice, life in the cold and dark, and the effect of the water 
and energy cycle on polar regions and climate change. Existing NASA 
funds will be used for these activities.
            Department of Energy
    While no federal funds have been specifically requested for IPY 
activities at DOE, the DOE Office of Science has committed to deploy an 
Atmospheric Radiation Measurement mobile facility to the Arctic during 
the IPY to study the impact of clouds, aerosols and surface 
characteristics on the Arctic climate. The FY07 budget request for this 
activity is $3.5 million.

7. Witness Questions

    The witnesses were asked to address the following questions in 
their testimony:
Questions for Dr. Arden Bement and Dr. Robin Bell:

        <bullet>  What has been learned from polar research and the 
        IPYs in the past, and what do we hope to learn during this IPY?

        <bullet>  How will research conducted during this IPY relate to 
        ongoing polar research programs at NSF?

        <bullet>  What is the U.S. role in the IPY, and how does the 
        U.S. collaborate with international participants? What role 
        will each of the federal agencies play in the IPY?

        <bullet>  What are the most critical unanswered questions that 
        you hope to resolve with the research conducted during this 
        IPY? What are the societal benefits of this research?

Questions for Dr. Kelly Falkner and Dr. Donal Manahan:

        <bullet>  What has been learned from polar research and the 
        IPYs in the past, and what do we hope to learn during this IPY?

        <bullet>  What are the most critical unanswered questions that 
        you hope to resolve with the research conducted during this 
        IPY? What are the societal benefits of this research?

Questions for Mr. Mark McCaffrey:

        <bullet>  What has been the impact of polar research and the 
        IPYs on students and the public in the past?

        <bullet>  What education and outreach activities are planned 
        for this IPY? What are the goals and expected societal benefits 
        of these activities?
    Chairman Inglis. Well, good morning, everyone. I would like 
to call this hearing to order. And we are very excited about 
hearing from our panelists, and I would recognize myself for 
the purpose of an opening statement.
    I want to welcome everybody here and thank you for joining 
us for this hearing on the International Polar Year: The 
Scientific Agenda and the Federal Role.
    The International Polar Year does not begin officially 
until March 2007, but the immense planning and coordination for 
it began more than three years ago. The purpose of this 
morning's hearing is fairly simple: to learn all we can about 
the International Polar Year, what role the United States will 
play in the upcoming one, and how this will be a benefit to the 
Nation.
    Most of us in this room are familiar, at least somewhat 
familiar, with the International Polar Year and its immediate 
predecessor, the International Geophysical Year. But I wonder 
how much of the general public knows about all of the 
incredible scientific discoveries and advances that were made 
during the IGY. I am pleased to see that education and outreach 
is a major component of the upcoming International Polar Year. 
It is also important that we take this opportunity to instill 
excitement about science in our students and motivate future 
generations of scientists, much like the results of the IGY 
inspired those who we will be hearing from today to enter the 
fields that they did.
    I have recently learned of one such educational program in 
my home State of South Carolina. As you could imagine, we are 
not necessarily known as the epicenter of polar studies. It is 
a little bit warm in South Carolina for that, but USC 
geologist, Dr. Doug Williams and his team at the EdVenture 
children's museum in Columbia, South Carolina, created a ``Go 
Polar!'' program that is quite impressive. While not IPY-
specific, this program has made a variety of arctic research 
accessible and easily understandable to children under the age 
of 12 and their families. It has provided opportunities for 
children to meet and hear directly from scientists working in 
the arctic about their experiences. This kind of interaction 
inspires children and serves as a good model for how IPY 
research can be incorporated informally at our nation's 
museums, zoos, and aquariums.
    I am looking forward to hearing what our witnesses have to 
say to us about the U.S. role in the IPY and some of the neat 
work that is being--that has been planned or will be enacted 
over the next two years and beyond in the polar region.
    I am also reminded that in January, Ms. Hooley and I and 
others had the opportunity to travel to Antarctica, and what an 
experience it was. I went, knowing that we would see incredible 
scenery. I expected that, and that happened. I knew we would 
see impressive science, and that happened. The thing that was 
sort of surprising was the people. The people were absolutely 
fascinating. And with the help of the NSF, we met a lot of 
wonderful people down there.
    One of them is before us today: Dr. Manahan. I must say--I 
have sent him a note afterwards saying this is a master 
teacher, somebody who held us all in rapt attention. I think 
that if I had had a teacher like that in seventh grade, 
Darlene, I might have stuck with science. As it was, you know, 
political science sort of came easier than those formulas and 
things like that.
    But it is wonderful to have you with us. It is also 
wonderful to have the rest of the panel with us. Dr. Bement, 
especially, it is wonderful to see you. We are excited about 
hearing from each of you. I will introduce you in a moment, but 
I just want to share with you my excitement and enthusiasm for 
the International Polar Year. And it comes, in large measure, 
from the opportunity to have been in Antarctica and to see that 
incredible science that is being done there and to see the very 
impressive people that are so committed to what they are doing. 
If we could--what I think I wrote to Kathie and Dr. Bement and 
others is if we could just bottle up that enthusiasm that I 
sensed in Antarctica among the scientists and bring it to 
Congress, who knows what we could accomplish in this place.
    So one of those people that saw that is Ms. Hooley, the 
Ranking Member of this subcommittee, and I would yield to her 
for an opening statement.
    [The prepared statement of Chairman Inglis follows:]

               Prepared Statement of Chairman Bob Inglis

    Good morning. I want to welcome everyone, and thank you for coming 
to this morning's hearing on International Polar Year: The Scientific 
Agenda and the Federal Role.
    IPY does not begin officially until March 2007, but the immense 
planning and coordination for it began more than three years ago. The 
purpose for this morning's hearing is fairly simple. . .to learn all we 
can about International Polar Year (IPY), what role the U.S. will play 
in the upcoming one, and how this will be of benefit to the Nation.
    Most of us in this room are familiar, or at least somewhat 
familiar, with IPY and its immediate predecessor, the International 
Geophysical Year (IGY), but I wonder how much of the general public 
knows about all of the incredible scientific discoveries and advances 
that were made during IGY? I am pleased to see that education and 
outreach is a major component of the upcoming IPY. It is so important 
that we take this opportunity to instill excitement about science in 
our children and motivate future generations of scientists, much like 
the results of IGY inspired those we will be hearing from today to 
enter the fields that they did.
    I've recently learned of one such educational program in my home 
State of South Carolina. As you can imagine, we are not necessarily 
known as the epicenter of polar studies, but USC Geologist Dr. Doug 
Williams and his team at the EdVenture Children's Museum in Columbia, 
SC, created a Go Polar! program that was simply impressive. While not 
IPY-specific, this program has made a variety of Arctic research 
accessible and easily understandable to children under the age of 12 
and their families. It has provided opportunities for children to meet 
and hear directly from the scientists working in the Arctic about their 
experiences. This kind of interaction inspires children and serves as a 
good model for how IPY research can be incorporated informally at our 
nation's museums, zoos and aquariums.
    I'm looking forward to hearing from our witnesses about the U.S. 
role in IPY and some of the neat work that is being planned for the 
next two years and beyond in the polar regions.
    With the encouragement of the Chairman, I had the opportunity to 
travel with the Science Committee to Antarctica in January. I knew the 
scenery would be awesome, and it was. I knew the science would be 
impressive, and it was. The thing I didn't anticipate was the people. 
They are impressive folks doing amazing work. Some of those impressive 
folks are before us today. We look forward to hearing from them.
    I recognize the Ranking Democratic Member, Mrs. Hooley, for any 
opening statement she may have.

    Ms. Hooley. Thank you, Mr. Chairman.
    And I just want to echo what you said and talk about a 
wonderful teacher. I think all of us could have sat for at 
least ten hours and listen to you speak.
    So it was an exciting trip. It was sort of an once-in-a-
lifetime kind of experience for me, and it was--it is amazing 
the work you are doing there.
    And I am excited also about the International Polar Year. 
And what I am looking forward to is how do we also spread that 
excitement to our children, our classrooms, the teachers that 
are there every single day with our young students. How do we 
get the public involved? And those are some of the things I 
would like to hear from you today as we are--as we go on with 
this.
    But I welcome all of you to this hearing. I know this 
International Polar Year will be the fourth in a series of 
international cooperative scientific ventures focused on the 
polar regions that have occurred in the last 125 years. The 
last one was almost 50 years ago, and, I mean, there was a real 
legacy that was made with the International Polar Year 50 years 
ago, so I would want to know, what is our legacy going to be 
this time. What are we aiming for? What is going to--what is 
our legacy?
    And then before that, you had--and that resulted--the last 
one resulted, as you know, in the Antarctic Treaty System, 
which has preserved that continent for peaceful purposes, for 
scientific research. I think that is a major accomplishment. 
The first ones were for exploration of those regions. As we 
learn more about the role of the polar regions in affecting 
such things as global scale, atmospheric, and oceanic 
processes, it has become clear that understanding the physical 
mechanisms at work at the poles is important to understanding 
the evolution of global warming. This lends urgency to 
accelerate the research needed to unlock the secrets that 
control climate on a global scale.
    Research results from the IPY initiative and from other 
ongoing polar research is important to help guide public policy 
choices surrounding the global warming debate. And of course, 
increased knowledge and understanding of changes in northern 
high latitudes are of even greater interest and concern to the 
people that live there.
    I am pleased the Subcommittee has the opportunity this 
morning to hear about the planning process that has been 
underway for IPY and about the research and education goals 
that will be pursued.
    I would like to better understand what we may hope to 
achieve at this time from an intensified research effort in 
polar regions and what legacy we may expect from this IPY.
    I would also like to take a moment to extend a special 
greeting to Dr. Kelley Falkner. She is a Professor at Oregon 
State University at the College of Oceanic and Atmospheric 
Sciences. An inorganic chemist by training, Dr. Falkner applies 
her expertise to problems such as tracking the fate of river 
water in the Arctic. She has participated in 24 major seagoing 
lake and river expeditions, seven times as chief scientist. Dr. 
Falkner is a graduate of Reed College, which is in Oregon, and 
received her Ph.D. from MIT-Woods Hole Joint Program in 
Oceanography while holding an NSF Graduate Fellowship. She was 
a recipient of an Office of Naval Research Young Investigator 
Award and the NSF Arctic Service Award. She currently serves on 
the Advisory Committee for NSF's Office of Polar Programs.
    Mr. Chairman, I want to thank you for calling this hearing, 
and I want to thank our witnesses for appearing before the 
Subcommittee today. And really, I am looking forward to what 
you have to say.
    Thanks.
    [The prepared statement of Ms. Hooley follows:]

          Prepared Statement of Representative Darlene Hooley

    Mr. Chairman, I am pleased to join you in welcoming our witnesses 
today to this hearing to review the status of planning for the 
International Polar Year scheduled to begin next March.
    This IPY will be the fourth in a series of international, 
cooperative scientific ventures focused on the polar regions that have 
occurred over the past 125 years. The last IPY was the International 
Geophysical Year of 1957-58. It was remarkable in its success in 
achieving international cooperation and good will at the height of the 
Cold War. It was also significant in laying the ground work for the 
development of the Antarctic Treaty system, which has successfully 
preserved that continent as a sanctuary for scientific research and 
other peaceful purposes.
    The early IPYs were explorations to provide basic information about 
the most remote and forbidding regions of the globe. As we learned more 
about the role of the polar regions in affecting such things as global-
scale atmospheric and oceanic processes, it has become clear that 
understanding the physical mechanisms at work at the poles is important 
to understanding the evolution of global warming. This lends urgency to 
accelerate the research needed to unlock the secrets that control 
climate on a global scale.
    Research results from the IPY initiative, and from other ongoing 
polar research, is important to help guide public policy choices 
surrounding the global warming debate. And of course, increased 
knowledge and understanding of changes in northern high latitudes is of 
even greater interest and concern for the people living there.
    I am pleased the Subcommittee has the opportunity this morning to 
hear about the planning process that has been underway for the IPY and 
about the research and education goals that will be pursued. I would 
like to better understand what we may hope to achieve at this time from 
an intensified research effort in polar regions and what legacy we may 
expect from this IPY.
    In addition, I am interested in how the U.S. IPY activities will be 
integrated within the international program, and how the U.S. agencies 
that sponsor IPY-related research will coordinate their activities. 
Since NSF is the lead federal agency for U.S. participation in the IPY, 
is a major federal sponsor of research in polar regions, and fulfills a 
key role in providing research infrastructure and logistical support, I 
am happy to welcome Dr. Bement to this morning's hearing.
    Also, I would like to take a moment to extend a special greeting to 
Dr. Kelly Falkner. She is a Professor in the College of Oceanic and 
Atmospheric Sciences at Oregon State University. An inorganic chemist 
by training, Dr. Falkner applies her expertise to aqueous geochemical 
problems, such as tracking the fate of river water in the Arctic. She 
has participated in 24 major seagoing, lake and river expeditions--
seven times as chief scientist.
    Dr. Falkner is a graduate of Reed College and received her Ph.D. 
from the MIT-Woods Hole Joint Program in Oceanography, while holding an 
NSF Graduate Fellowship. She was the recipient of an Office of Naval 
Research Young Investigator Award and the NSF Arctic Service Award. She 
currently serves on the Advisory Committee for NSF's Office of Polar 
Programs.
    Mr. Chairman, I want to thank you for calling this hearing and 
thank our witnesses for appearing before the Subcommittee today. I look 
forward to our discussion.

    Chairman Inglis. Thank you, Ms. Hooley.
    And I have only one correction to what you said, and that 
is let us hope it is not an once-in-a-lifetime opportunity 
about Antarctica.
    Ms. Hooley. Oh, you are right. Okay. I agree. I am ready to 
go back.
    Chairman Inglis. Me, too. I was just saying, it might be 
fun to be down there in the winter. What do you think?
    Ms. Hooley. I don't think so.
    Chairman Inglis. But----
    Ms. Hooley. I would like to go in the summer again.
    Chairman Inglis. Kathie suggested that maybe I should go in 
a dark room and see if it is light, but----
    Ms. Hooley. She is right.
    Chairman Inglis.--anyway, before I introduce the panelists, 
let me apologize in advance. There is a markup going on in the 
Judiciary Committee with some very contentious bills. They will 
be very close votes. And so if you see me leaving quickly, it 
won't be that I got offended by something you said. It is that 
I am literally going to have to run to that markup. If we don't 
have someone to take the Chair, we will have to recess the 
hearing. If that happens, I apologize in advance for having to 
do that. It is terribly inconvenient for everyone. Let us hope 
it doesn't happen, but just to put you on notice.
    Now may I introduce the panelists?
    First, we are going to hear from Dr. Arden Bement, the 
Director of the National Science Foundation and who needs no 
further introduction except to say we very much appreciate his 
fine work at the NSF.
    We will also hear from Dr. Robin Bell. She is the Doherty 
Senior Research Scientist at the Lamont-Doherty Earth 
Observatory at Columbia University. She chairs both the Polar 
Research Board of the National Academy of Sciences and the U.S. 
Committee to the IPY and serves as Vice-Chair of the 
International Council for Science Planning Group for the IPY.
    We will next hear from who I have already called a master 
teacher. By the way, I am sure the others are master teachers, 
too. We will find that out as you speak. And so we very much 
appreciate the opportunity to hear from Dr. Manahan. He is 
Professor of Biology at the University of Southern California 
and runs an NSF-funded program to provide graduate students 
with research experience in Antarctica.
    Then we will hear from Mr. Mark McCaffrey, an Associate 
Scientist and Science Communications Specialist at the 
Cooperative Institute for Research in Environmental Sciences at 
the University of Colorado, Boulder. He is a member of the ICSU 
IPY Education, Outreach, and Communications Subcommittee.
    And finally, we will hear from Dr. Kelly Falkner. She is a 
Professor of Chemical Oceanography at Oregon State University 
and a member of the Advisory Committee to the NSF for the 
Office of Polar Programs.
    So we would be happy to recognize each of you in series 
here for five-minute statements. And so that you will be 
reminded, the green means you have got time, yellow means start 
summing up, and red means the guy--the person next to you 
really wants you to conclude. So we will look forward to 
hearing from you.
    We recognize you first, Dr. Bement.

   STATEMENT OF DR. ARDEN L. BEMENT, JR., DIRECTOR, NATIONAL 
                       SCIENCE FOUNDATION

    Dr. Bement. Thank you, Chairman Inglis and Ranking Member 
Hooley, for the opportunity to testify on the upcoming 
International Polar Year and on how NSF and our sister agencies 
are addressing this important opportunity. Our job is to enable 
U.S. scientists and educators to realize these opportunities, 
opportunities that members of today's distinguished panel will 
be speaking to in more detail.
    Fifty years ago, the Third International Polar Year and 
International Geophysical Year entranced America's youth and 
galvanized America's innovative powers in ways that created a 
legacy that lives on today. That legacy ranges from scientific 
Earth satellites to the development of a generation of world-
class scientists and engineers whose interest in research was 
peaked by news coverage of polar research. We intend for the 
International Polar Year period to be a time to explore new 
frontiers in polar sciences, improve our understanding of the 
critical role of the Earth's polar regions and global 
processes, create a legacy of infrastructure and data for 
future generations of scientists, expand international 
cooperation, engage the public in polar discovery, and help 
attract and educate the next generation of scientists and 
engineers.
    The impacts of climate change on northern peoples, and more 
generally on ecosystems and polar environments, strongly 
motivate a broader focus than that of the last IPY. Thus, NSF 
will focus particular attention on three scientific themes and 
will couple them to education and outreach: first, the extremes 
of polar environments combined with the new technology of 
genomics provide unique opportunities to study how organisms 
adapt to climate extremes, how they evolved at the genomic 
level, and how gene expression depends on a physical 
environment; a Circum-Arctic Observation Network is needed to 
provide the missing data essential to faithfully model arctic 
climate change and to predict it; and multi-national efforts to 
understand changes in the Earth's great ice sheets, changes 
that could have profound effects on global conditions, 
including global sea level.
    This emphasis on the relationships between the physical 
environment and living systems, and especially on people, will 
be one of the distinguishing features of IPY. NSF's Office of 
Polar Programs and the Directorate for Education and Human 
Resources combined to jumpstart IPY preparations by committing 
$12 million from the fiscal year 2006 appropriations for a 
special IPY proposal solicitation. The solicitation attracted 
research, education, and public outreach proposals amounting to 
over $150 million. Approximately one-third focused on outreach 
and education. And of these, we were able to fund nine truly 
outstanding projects. We are releasing the details of those 
projects at today's hearing.
    I truly share Chairman Boehlert's enthusiasm and your 
enthusiasm as well, both Mr. Chairman and Ms. Ranking Member, 
for these remarkable and creative projects. They will launch 
our IPY effort in great style.
    Beginning in fiscal year 2007, NSF's IPY effort will be 
agency-wide, with significant participation by the disciplinary 
directorates as well as the Office of International Science and 
Engineering, the Directorate for Education and Human Resources, 
and the Office of Polar Programs. NSF is working with other 
federal agencies and countries to exercise the IPY leadership 
role assigned to it by OSTP. We are working with NASA to 
coordinate our ground-based observations with those from space 
in order to provide a comprehensive body of benchmark data. 
NASA has initiated discussions with space agencies around the 
world to bring the worldwide satellite fleet to bear on this 
effort. We are working with NOAA to integrate their support 
with ours for the land and ocean-based Circum-Arctic Observing 
Network, or AON. Data from AON will enable scientists working 
in the U.S. multi-agency program search and study of 
environmental arctic change for years to come.
    My written testimony contains more comprehensive 
information on how these and our other sister agencies are 
planning to help provide world leadership in IPY.
    The Circum-Arctic system requires active contributions from 
countries around the Arctic rim. We have already developed 
strong links for coordination with the $30 million European 
program called DAMOCLES [Developing Arctic Modeling and 
Observing Capabilities for Long-term Environmental Studies]. We 
have joined with Norway, Sweden, Germany, and Russia to 
establish an IPY office in St. Petersburg that will help link 
Russian activities to AON. And we are working actively with the 
European Polar Board and with Canadian officials to build IPY 
partnerships. Indeed, part of the IPY impact will be the 
enduring partnerships established among scientists in the 35 
countries that have formed national committees for the IPY.
    Countries around the world have seized on the 50-year 
anniversary of IPY-3 and IGY to create a new legacy of 
scientific understanding and a new generation of scientists and 
engineers.
    Mr. Chairman, earlier I alluded to the education component 
of IPY. This effort has the potential to create a legacy for 
decades, one that will benefit the Nation as well as the 
science and engineering community more specifically.
    Thank you, again, for providing an opportunity to highlight 
NSF's role in the coming International Polar Year, and I would 
be pleased to answer any of your questions.
    [The prepared statement of Dr. Bement follows:]

               Prepared Statement of Arden L. Bement, Jr.

    Thank you, Mr. Chairman, for the opportunity to testify before the 
Committee concerning the upcoming International Polar Year (IPY) and on 
how NSF and our sister agencies are addressing this important 
opportunity. Our job is to enable U.S. scientists and educators to 
realize these opportunities, opportunities that members of today's 
distinguished panel will be speaking to in more detail.
    We intend for the International Polar Year period--which has been 
declared by the International Council of Science (ICSU) and the U.S. 
National Academies (NAS) to be from March 2007 through March 2009--to 
explore new frontiers in polar sciences; improve our understanding of 
the critical role of the Earth's polar regions in global processes; 
create a legacy of infrastructure and data for future generations of 
scientists; expand international cooperation; engage the public in 
polar discovery; and help attract and educate the next generation of 
scientists and engineers.
    Fifty years ago, the Third International Polar Year and 
International Geophysical Year entranced America's youth and galvanized 
America's innovative powers in ways that created a legacy that lives on 
today. That legacy ranges from scientific Earth satellites to the 
development of a generation of world-class scientists and engineers who 
drove our knowledge-based economy forward for the next half-century.
    Advances in instrumentation and technology, the realization that 
polar regions are critical in the changing global climate system, and 
linkages among international research organizations offer opportunities 
for breakthrough developments both in fundamental disciplinary science 
and in science for policy during IPY. In addition, the impacts of 
climate change on northern communities, and more generally, on 
ecosystems in polar environments strongly motivate a broader focus than 
the last IPY had. The NSF tradition of linking research and education 
offers the further opportunity to engage America's youth in this period 
of discovery and awaken them to the excitement of a career in science 
and engineering.
    In his introduction to the ``American Competitiveness Initiative, 
Leading the World in Innovation,'' President George Bush stated that a 
``well-educated and skilled workforce is the bedrock of America's 
competitiveness.'' U.S. institutions of higher learning remain the envy 
of the world, but the global economy has greatly increased the 
competition for the best and brightest students. America must ensure 
that its best and brightest young people give appropriate consideration 
to careers in science and engineering and that they take advantage of 
the fact that ours is the most open educational system in the world. 
NSF, its sister agencies and IPY have a key role to play in achieving 
this goal.
    NSF has been tasked by the White House Office of Science and 
Technology Policy to provide leadership for the U.S. in IPY. And, the 
agency is poised to do exactly that, both domestically and on the broad 
international stage. We have worked closely with our colleagues in 
other federal agencies and with the NAS to that end over the last two 
and a half years. Back in July 2004, I was pleased to be invited to 
deliver the keynote address at a meeting organized by the three 
Presidents of the NAS that was devoted to IPY planning. With your 
permission, I would like to enter my remarks for the record. As I said 
then, and I quote:

         Both the National Academy of Sciences and the International 
        Council of Science have made a compelling case for why we 
        should launch an international polar year in 2007. NSF is in 
        full agreement. In the polar regions, we are discerning the 
        outlines of environmental change, from sea ice extent, 
        retreating glaciers, shifting patterns in flora and fauna, to 
        environmental observations by Arctic natives.

         What is more, such change--whether environmental, biological 
        or social--has implications for the rest of the globe. Polar 
        change ripples across the planet on a spectrum of time scales, 
        through the atmosphere, oceans, and living systems.

         We do not yet fully understand the causes of what we are 
        observing. Now is the time to change this, for new tools make 
        possible the needed observations and synthesis. They range from 
        satellites to ships to sensors, and from genomics to 
        nanotechnology, information technology, and advances in remote 
        and robotic technologies.

    The NAS subsequently conducted a year-long study to develop a 
Vision for the International Polar Year, one that would take advantage 
of the broad expertise of the U.S. scientific community; position the 
U.S. for world leadership in IPY; and most importantly, create a long-
term legacy that would not otherwise exist. This Vision is providing a 
framework for IPY planning among the federal agencies. It was developed 
under the leadership of Dr. Mary Albert of the U.S. Army Cold Regions 
Research and Engineering Laboratory in Hanover, New Hampshire, and I 
believe my colleague on the panel, Dr. Robin Bell, will outline its 
recommendations in more detail. Robin chairs the NAS/National Research 
Council (NRC) Polar Research Board that oversaw the work of Mary's 
committee. They both have earned our continuing gratitude and 
congratulations.
    In exercising NSF's leadership role, I also convened several 
meetings of the policy-level officials to discuss IPY planning. These 
activities resulted in a report we provided to the Congress last year 
and a number of agencies have taken the opportunity to update their 
sections of the report for this hearing. With your permission, Mr. 
Chairman, I would like to submit a copy for the record and mention a 
few highlights.
    NASA is holding discussions with space agencies around the world to 
organize a coordinated program to map the polar regions using today's 
sophisticated satellites. NSF and NASA are working together to 
coordinate space- and ground-based observations in order to provide 
future generations of scientists and others with a comprehensive body 
of benchmarked data. These data will greatly increase our ability to 
discern change on a regional basis--a basis that relates directly to 
the different environments in which people work and live.
    The Department of Commerce's National Oceanic and Atmospheric 
Administration (NOAA) and NSF are developing atmospheric, land and 
ocean-based environmental monitoring capabilities that will be key 
components of the planned circum-Arctic Observing Network (AON), which 
will significantly enhance our observing capability in the Arctic 
region beyond that currently available. Data from this AON will enable 
the U.S. multi-agency program SEARCH--the Study of Environmental Arctic 
Change--developed under the Interagency Arctic Research Policy 
Committee to get a handle on Arctic environmental change.
    Here, too, the NAS have helped significantly with an NSF-funded 
study of how best to implement AON. A circum-Arctic system requires 
active contributions from countries around the Arctic rim. We have 
already developed strong links for coordination with the $30 million 
European program called DAMOCLES; have initiated discussions with our 
Canadian colleagues; and have joined with Norway, Sweden and Germany 
and Russia in establishing an office in St. Petersburg to assist with 
linking Russian activities to AON. NOAA has led an effort to build 
U.S.-Russian Federation collaboration in ocean and polar region 
studies, as highlighted by the Russian American Long-term Census of the 
Arctic RUSALCA program. This will be a key U.S.-Russian component of 
the IPY. NOAA in collaboration with NSF, also leads the U.S. 
participation in the IPY International Arctic System for Observing the 
Atmosphere.
    Additional IPY efforts by NOAA, NASA and other sister agencies are 
described in the attached document entitled, ``The International Polar 
Years 2007-2009.''
    NSF's Office of Polar Programs (OPP) and the Directorate for 
Education and Human Resources (EHR) combined to jump start IPY 
preparations by committing $12 million from their FY06 appropriations 
to a special IPY proposal solicitation. The solicitation drew a very 
strong response from U.S. scholars; taken together the proposals 
requested over $150 million in the four focus areas (three science 
areas and education).
    We chose to focus on areas that for one reason or another needed 
extra lead time for preparation and that would represent a good start 
toward realizing the NAS/NRC Vision. The NSF merit review of the 
education proposals was completed just a few days ago, and the results 
exemplify the creativity and the enthusiasm of our educators and 
scientists. I expect to be able to announce the results from the three 
research areas by the end of October. Meanwhile, the program officers 
overseeing the merit review process tell me the quality of the 
proposals is outstanding.
    Building on this excellent FY06 start, NSF Program Officers from 
the agency's disciplinary directorates are working with OPP to 
formulate how best to respond to IPY opportunities in FY07 and FY08. On 
the basis of their work, the Administration requested $62 million in 
FY07. And, I'm very happy that both Houses of Congress have signaled 
their agreement with our IPY agenda.
    The strong partnership created with EHR in developing the FY06 
solicitation is the very first legacy of IPY; it will ensure an 
effective outreach and education effort throughout the upcoming two 
years and well into the future. A strong partnership with the NSF's 
Office of International Science and Engineering (OISE) is enabling 
rapid development of new international links as well as a strengthening 
of existing ones. IPY planning by the Biological and Social, 
Behavioral, and Economic Sciences Directorates and studies by the NAS/
NRC have identified an exciting group of leading-edge research subjects 
in biology and the social sciences, ones that with strong IPY support 
and focus could create 21st century legacies. The Geosciences 
Directorate and OPP have a long history of joint cooperation for 
proposals, and IPY provides a strong basis for developing new 
partnerships in key focus areas such as climate studies. The 
Mathematical and Physical Sciences Directorate and OPP have an 
outstanding partnership in astrophysics at the South Pole, another 
excellent IPY building block. Thus, there is great potential for 
creating legacies through research achievements, a new generation of 
American scientists and engineers, and new networks of international 
collaborations.
    The aforementioned solicitation identified three science themes and 
a strong education focus as key investment areas for special emphasis 
during FY06. These themes will be developed further during FY07 and 
FY08. A cross-directorate working group is evaluating the extent to 
which the original focus areas will have been addressed by the FY06 
solicitation and how they can be broadened to address more of the 
Vision developed by the NAS. NSF and the Office of Management and 
Budget will soon discuss how to address these focus areas in the FY08 
budget request to Congress.
    The first of these research themes addresses climate change in the 
Arctic by contributing to building the Circum-Arctic Observing Network 
(AON) that I mentioned earlier. This program was organized under the 
direction of the U.S. Interagency Arctic Research Policy Committee 
chaired by the NSF Director and involves partnership with NOAA, NASA, 
DOI, DOE, NIH, DOD, USDA and the Smithsonian Institution.
    During the past few decades, the Arctic has experienced significant 
environmental changes that could have broad-reaching consequences for 
human and animal populations in the form of impacts on local 
ecosystems, as well as on global climate. The AON will provide a 
network of observations that will facilitate our understanding of the 
profound change that is occurring in the Arctic. To achieve this goal, 
Cyberinfrastructure (CI) will need to be developed to provide inter-
operability between the various elements of the observing network, 
seamless broadband communications capabilities at the poles, data 
storage and archive capabilities, and timely access to data. This 
initiative will not only support the Foundation's broader CI interests, 
it also supports the broader administration goal of developing a Global 
Earth Observing System (GEOS). Any CI communications technology that is 
developed to support the AON could potentially be used to enhance 
communications capabilities at the South Pole.
    A second broad theme addresses research on what we're calling Life 
in the Cold and Dark. Relatively recent developments in instrumentation 
and technology offer the opportunity to study the mechanisms by which 
organisms adapt to the climate extremes they face in polar 
environments, how they have evolved at the genomic level and how gene 
expression depends on the physical environment. A recent NAS report, 
``Frontiers in Polar Biology in the Genomics Era,'' outlines the 
opportunities and challenges, and describes the ecological relevance 
and research benefits of these tools of modern biology. The Life in the 
Cold and Dark theme also encompasses research on the interactions 
between living and physical systems at all levels and brings together 
researchers trained in the Biological and Social Sciences.
    The last International Polar Year in 1957-58 focused almost 
entirely on physical science but IPY 2007-2009 will be different. Many 
northern languages are now spoken by only small numbers of elderly 
people and NSF will partner with the National Endowments for the 
Humanities in the U.S. and with Canada and other countries in 
sponsoring work to document those endangered languages in Alaska and 
throughout the Arctic.
    NSF-supported research also will address issues associated with 
environmental change that are of critical importance to people living 
in the North. These studies, sponsored jointly by NSF and NIH, will 
seek to determine not only what causes change and predicting it more 
accurately, but also how change allows infectious diseases to move into 
new areas where vulnerability is high because the people and wildlife 
will not have developed resistance to the novel pathogens that will be 
moving into these regions.
    The third broad theme addresses changes in the Earth's great ice 
sheets, changes that could have profound impacts on global conditions 
including global sea level. Recent data indicate that the Greenland ice 
sheet is thinning at the edges but thickening at the center. Some ice 
streams draining the West Antarctic Ice Sheet have slowed while at 
least one other is accelerating. Relatively small changes in the mass 
balance of these ice sheets can raise global sea level significantly 
while complete loss of the West Antarctic Ice Sheet would raise global 
sea level by over five meters. Furthermore, a combination of ground-
based, airborne, and satellite observations shows that surface melt 
water can penetrate the ice sheet at thicknesses of a kilometer and 
accelerate flow beyond previously suspected rates. Research supported 
by NSF, NASA and other agencies under this theme will combine with work 
supported by many other countries to develop a much more complete 
understanding of the behavior of these ice sheets and how changes in 
this behavior might evolve. The theme will also address further studies 
of ice sheet changes that occurred over geological time and the causes 
and effects of those changes.
    The overall scientific impact of IPY will only become apparent 
through synthesis activity that brings together results from disparate 
research groups addressing different aspects of these broad themes. NSF 
recognizes the critical importance of funding workshops and related 
activities to that end, and will do so well beyond the end of the two-
year IPY period.
    The education focus has the potential to create a legacy for the 
decades, one that will benefit the Nation as well as the science and 
engineering community more specifically. By linking the public's 
fascination with things polar to outreach that conveys the excitement 
of research and discovery, we hope to attract a new generation of 
Americans into S&E careers while contributing to a more informed 
public.
    With the jump start provided by the EHR/OPP FY06 solicitation NSF 
will enter the IPY period well-placed to make major impacts during the 
ensuing two-year period. A multi-year outreach and education strategy 
will have substantially greater impact than one limited to a single 
year, while the international collaborations that can greatly enhance 
the reach and impact of NSF-supported research will also hinge on 
continued support.
    While our outreach and education strategy will be focused on U.S. 
students, parents and families, we recognize that IPY also brings the 
opportunity to demonstrate to them how research and understanding can 
result when people from many nations work together on problems of 
global interest. The many international scientist-to-scientist 
collaborations now developing will help us carry that story to our 
public and to others around the world.
    Indeed, part of the IPY impact will be the enduring partnerships 
established among scientists in the over 30 countries that have 
signaled their intention to provide funding for IPY activity. Countries 
around the world have seized on the 50 year anniversary of IPY-3/IGY to 
create a new legacy of scientific understanding and a new generation of 
scientists and engineers. We understand that Canada has committed $150 
million over six years to its IPY effort, Korea--$150 million, Japan--
$460 million for a new icebreaker, China--$60 million for 
infrastructure and research. Among the EU commitments one exceeds $30 
million for a project closely linked to the U.S. IPY centerpiece 
addressing climate change in the Arctic.
    The 1957-1958 International Polar Year culminated in an 
international meeting in Washington called by the State Department to 
frame what became the Antarctic Treaty. As President Reagan noted in 
1970, ``. . .the Antarctic is the only continent where science serves 
as the principal expression of national policy and interest.'' The 
State Department plans to host the annual meeting of the Antarctic 
Treaty Consultative Parties in 2009, which will spotlight the historic 
diplomatic achievement by the Treaty Parties 50 years ago. We expect 
this new IPY to create a further legacy of international partnerships 
in the interest of advancing scientific research and understanding.
    The U.S. research community is poised to provide worldwide 
leadership throughout IPY, and NSF is committed to enabling that to the 
best of our ability.

                The International Polar Years 2007-2009

               Report on U.S. Federal Agencies' Planning

                           September 18, 2006

    The years 2007-2009 will mark the 50th anniversary of the 
International Geophysical Year (IGY) and of the third International 
Polar Year. This period has been designated the fourth International 
Polar Year (IPY) by the National Academies of Sciences (NAS), the 
International Council of Science (ICSU), the World Meteorological 
Organization (WMO), the Arctic Council and by many other international 
organizations. The National Science Foundation (NSF) was designated by 
the President's Office of Science and Technology to be the lead U.S. 
agency in organizing IPY activities.
    Preparations are underway worldwide to make IPY a period of intense 
activity that promises, in the words of the NAS publication A Vision 
for the International Polar Year, to ``further our understanding of 
physical and social processes in the polar regions, examine their 
globally-connected role in the climate system, and establish research 
infrastructure for the future, (and). . .serve as a mechanism to 
attract and develop a new generation of scientists and engineers with 
the versatility to tackle complex global issues'' (see http://
books.nap.edu/catalog/11013.html).
    The 1957-1958 IGY and IPY activities greatly increased our 
knowledge of the world around us and provided profound legacies that 
continue to benefit research and researchers today. These activities 
also resulted in the 1959 Antarctic Treaty, which ``promotes 
international scientific cooperation including the exchange of research 
plans and personnel and requires that results of research be made 
freely available.'' The U.S. played a leading role in shaping and 
implementing the 1957-1958 IGY activities and plans to do so again in 
2007-2009. IPY activities planned for this period are consistent with 
Agency missions and the NAS report of an implementation workshop 
(Planning for the International Polar Year: Report of the 
Implementation Workshop, http://books.nap.edu/catalog/11110.html). U.S. 
activities during IPY 2007-2009 will focus on research, education and 
public outreach efforts, and will be coordinated among the federal 
agencies and international partners that support research in polar 
regions.
    NSF is creating a website as part of its work to coordinate IPY 
activities among the agencies: http://www.us-ipy.gov/. This site 
includes updates on the various agencies' programs, as well as 
information on IPY for a general audience and for scientists interested 
in obtaining IPY funding from the U.S. Government.
    The following is an updated (since May 18, 2005) discussion of 
federal agency planning for the International Polar Year.

NATIONAL SCIENCE FOUNDATION

    The upcoming International Polar Year is a unique opportunity to 
continue the legacy of international science years of the past, 
including IPY 1882-1883, IPY 1932-1933, and the International 
Geophysical Year of 1957-1958. Each of these bursts of internationally 
coordinated research and exploration opened the polar regions for 
exploration and science, led to significant discoveries about our 
planet, and left a long-term legacy of data and observations for future 
generations. In particular, the IGY of 1957-58 brought a tremendous 
increase in our ability to predict weather worldwide, to measure the 
thickness of the antarctic ice sheets, and to understand the dynamics 
of the Earth's magnetosphere. However, there are still significant gaps 
in our understanding of the polar regions and the processes that 
structure polar environments. For example, the relationships between 
processes that drive long-term and short-term climate change in the 
Arctic are not well understood, nor do we have empirical observations 
sufficient to sort them out. In the Antarctic and in Greenland, the ice 
sheets that contain 70 percent of the fresh water on Earth are moving 
and thinning. In both polar regions, many organisms are adapted to 
withstand prolonged periods of darkness and extreme cold, yet we do not 
understand how these adaptations evolved or how these organisms may 
respond to increased variability in the polar environment.
    The National Science Foundation has initiated support for the 
International Polar Year in a variety of ways, emphasizing three major 
research areas and also education and outreach in an Announcement of 
Opportunity that was released in January 2006. These areas of emphasis 
will help implement the goals developed by ICSU and the U.S. National 
Academies. They have evolved within the research community as high-
priority topics derived from workshops and existing science programs. 
Education and outreach are also areas where NSF, with its partners in 
other agencies, can make a significant impact on the understanding of 
how polar regions influence society and the global environment. Thus, 
NSF has a particular interest in conducting activities in the polar 
regions that will leave a lasting legacy of data, observing 
capabilities, and educational resources for scientists and educators of 
the future.
    Within NSF, the Office of Polar Programs will take the leadership 
role in implementing these activities. Partnerships for IPY will occur 
at many levels - within NSF, through interagency collaborations, and in 
the international arena. All the NSF directorates and the Office of 
International Science and Engineering have expressed interest in 
collaborating with OPP on IPY activities. Federal agencies such as 
NOAA, NASA, NIH, USGS, DOE, EPA, and the Smithsonian Institution, as 
well as the national science agencies of other countries, have closely 
related interests. Thus, maximizing the value from partnerships is a 
key overarching theme for NSF as we plan for IPY.

NSF and IPY in FY06

    The Office of Polar Programs (OPP) and the Directorate for 
Education and Human Resources (EHR) committed over $12 million in FY06 
to initiate activities in four major areas:

Establishment of a multi-national circum-Arctic observing system, with 
        emphasis on the Study of Environmental Arctic Change (SEARCH) 
        Program

    SEARCH is a broad interdisciplinary, multi-scale interagency 
program with the core goal of achieving a predictive understanding of 
recent and ongoing changes in the arctic environment. In addition to 
understanding how changes in the Arctic are interrelated, SEARCH will 
investigate the links between arctic change and global processes and 
will assess the impacts that arctic change may have throughout the 
Northern Hemisphere. SEARCH will evaluate the possibility that observed 
changes in the Arctic can be used to anticipate changes elsewhere on 
the globe.
    For the period of the IPY, NSF's principal interest related to 
SEARCH is the implementation of an Arctic Observing Network (AON). The 
purpose of AON will be to understand environmental change in the Arctic 
System and its interplay with global oceanic and atmospheric 
circulation. AON will employ an arctic-wide coverage of standard 
integrated measurements, long-term observations, and modeling and 
analysis.
    Research related to the Bering Ecosystem Study (BEST) is underway 
under the IPY umbrella. The Bering Sea supports one of the most 
productive fisheries in the world, contributing about 40 percent of all 
finfish and shellfish landings in the United States, yet it is one of 
the least-studied areas of U.S. waters. In recent years, it has become 
evident that this seasonally ice-covered sea is subject to decadal 
changes in climate that have resulted in abrupt and unexpected changes 
in the ecosystem. Of particular concern is the possibility that the 
combined effects of climate change and fisheries removals may shift 
marine ecosystems into alternate stable states that may have a lower 
yield of species valuable to people. Identifying the mechanisms driving 
ecosystem change, including social and cultural factors, in the Bering 
Sea is a key research need.

Ice Sheet Stability, Dynamics and History

    The global ice sheets are dynamic features that contain 
unprecedented records of climate over the past several hundred thousand 
years. Future changes in the ice sheets of both polar regions will 
affect sea level, and this is one of the major uncertainties in 
Intergovernmental Panel on Climate Change (IPCC) climate models. In 
Antarctica, we expect to emphasize studies of the stability and history 
of the major ice sheets. How do they work, how fast are they changing, 
and what will they be like in the future decadal to century time frame? 
Inquiry into these questions involves direct studies of ice sheet 
dynamics but also includes work to understand processes important for 
interaction of ice sheets with the lithosphere, oceans, and atmosphere. 
The combination of space-based and surface-based studies is critical to 
success in this area.
    A detailed study of changes in the behavior of the Antarctic and 
Greenland ice sheets is also a topic of IPY research. One component of 
this comparative work includes obtaining a high-temporal resolution ice 
core in West Antarctica for comparison with the climate records 
obtained from the Greenland ice cores. There will likely be an 
opportunity to leverage logistics support to the ice core camp with 
support for other ground-based activity in West Antarctica and to 
couple detailed ground- and space-based observations. The work in West 
Antarctica might include traverse-based studies, or other types of work 
that will be possible from our logistical hubs, that could be linked to 
related work in East Antarctica as well as study of change in the Ross 
Sea region.
    Because of the long lead time required for developing and 
implementing ice coring programs, NSF is also looking at the IPY as an 
avenue to create an international collaborative framework to facilitate 
international ice coring projects beyond the IPY. The Center for Remote 
Sensing of Ice Sheets (CReSIS), a Science and Technology Center led by 
the University of Kansas and supported jointly by NSF and NASA, will 
conduct and foster multi-disciplinary research that will result in 
technology and models necessary to achieve a better understanding of 
the mass balance of the polar ice sheets (e.g., Greenland and 
Antarctica) and their contributions to sea level rise. The focus areas 
for CReSIS relate closely to the goals of IPY.
    The Antarctic drilling program (ANDRILL) is a multi-national ocean 
drilling program currently underway that is focused on extracting 
sediment cores from the Antarctic continental shelf. This activity will 
also contribute to the broader IPY goal of understanding ice sheet 
dynamics.

Frontiers In Polar Biology: Life in Extreme Cold and Prolonged Darkness

    Ecologically important biogeochemical processes begin before the 
traditional operational season in polar regions and continue beyond the 
end of the traditional field season. Living organisms are known to 
continue functioning at temperatures well below freezing and during 
periods of prolonged darkness. New technologies (genomics, proteomics, 
etc.) offer the opportunity to gain a deep understanding of how 
organisms have adapted to these extreme environments. The Long Term 
Ecological Research (LTER) sites at Toolik Field Station in Alaska, at 
Palmer Station on the Antarctic Peninsula, and in the McMurdo Dry 
Valleys, as well as research platforms operating in the Arctic and 
Southern Oceans, offer the opportunity to bring these new technologies 
to bear in research on the polar regions. A recent NAS report, 
Frontiers in Polar Biology in the Genomics Era (http://books.nap.edu/
catalog/10623.html) describes potential research benefits of these new 
tools. Within NSF, there is interest in OPP and in the Biological 
Sciences and Geosciences Directorates in this area of research. OPP has 
examined the technical feasibility of extending antarctic operations 
into the austral fall and early winter and may be able to implement 
this capability by 2007. Supporting winter work elsewhere in the polar 
regions will require evaluation of options on a case-by-case basis.

Education and Outreach

    OPP has maintained strong support for linking research in the polar 
regions with formal education and outreach to the public. NSF has 
fostered U.S. scientists' interests in sharing their research with 
broad audiences. Many polar researchers have been successful in seeking 
support from education programs for more directed efforts, such as 
NSF's IGERT and GK-12 programs as well as Arctic Research and Education 
and Geosciences Education. Strong international partnerships in 
educational activities have developed in association with research 
programs in both polar regions. In the Arctic, such partnerships 
include U.S. collaboration with groups from Russia, Greenland, Iceland, 
Canada, Denmark, Norway, Sweden, and Finland. In the Antarctic, 
partnerships include U.S. collaborations with many nations that 
participate in the Scientific Committee on Antarctic Research (SCAR).
    OPP sponsored a workshop in June 2004 (www.ldeo.columbia.edu/mkt/
PolarED<INF>-</INF>Web.htm) to bring together educators, researchers, 
media and museum outreach experts, agency representatives, and others 
to discuss effective mechanisms to conduct education and outreach in 
support of the IPY. The workshop highlighted many of the education and 
outreach efforts that have already been supported by OPP, including 
Teachers Experiencing Antarctica and the Arctic (TEA), which was co-
funded with NSF's Elementary, Secondary and Informal Education 
Division, Teachers and Researchers Exploring and Collaborating (TREC), 
Antarctic Artists and Writers Program, various journalists in the 
field, museum exhibits, and Research Experiences for Undergraduates 
(REU).
    There is significant interest within NSF's Education and Human 
Resources (EHR) directorate in utilizing the inherently interesting 
features of the polar regions, including their remoteness and extreme 
conditions, to direct attention to scientific research and the 
importance of the polar regions to the global system. Other agencies 
such as NASA and NOAA have robust polar research and education programs 
interested in supporting IPY efforts. NSF is developing the foundation 
for international and interagency partnerships to bring together 
support and expertise from the community of researchers and educators. 
Another area where NSF can have a significant IPY impact is in research 
on distant education, both in terms of technology and in terms of the 
science of learning as it applies to different cultures. The aim of 
these efforts is to develop highly visible, long-lived education and 
outreach products for IPY research and to provide opportunities for 
educating the next generation of polar researchers, the public, and 
policy-makers.
    As this document goes to print, OPP and EHR are set to make the 
education awards resulting from the FY06 IPY solicitation. The science 
awards from the FY06 solicitation are on track to be announced before 
the end of October.

NSF and IPY in FY07

    The Directorates of Biological Sciences, Geosciences, Social, 
Behavioral and Economic Sciences, and the Office of International 
Science and Engineering have joined OPP and EHR in expanding the four 
foci established for FY06. The Agency has requested $61.57 million in 
its Budget Request for this purpose.
    NSF is preparing a second solicitation that will support IPY 
science and education proposals in FY07. This solicitation will build 
on the momentum of the FY06 solicitation and broaden the science 
themes. For example, research on life in the cold and dark will expand 
to address human and biotic systems, providing opportunities for 
scientists to address fundamental questions about social, behavioural, 
and/or natural systems that will increase our understanding of how 
humans and other organisms function in the extreme environments of the 
polar regions. Studies on environmental change will specifically take 
advantage of the Arctic Observing Network developed during FY06 to 
support research that advances the understanding of the physical, 
geological, chemical, human, and biological drivers of environmental 
change at the poles, their relationship to the climate system, their 
impact on ecosystems, and their linkages to global processes.
    In addition to large-scale projects such as those mentioned above, 
NSF plans to support IPY activities that address the ICSU and NAS 
guidelines in a broad spectrum of areas, particularly research that 
addresses opportunities in the social sciences, systematic and biotic 
diversity surveys (e.g., the ongoing Census of Marine Life), 
implementation of observing systems, and research in the Southern Ocean 
on the transport and fate of nutrients and carbon.
    One example of research in the social sciences is the study of 
endangered languages in arctic cultures, where we have the opportunity 
to create a legacy of knowledge that will inform future generations of 
scholars while at the same time strengthening local cultures. The 
Documenting Endangered Languages (DEL) program is a multi-year funding 
partnership between NSF and the National Endowment for the Humanities 
(NEH) to support projects to develop and advance knowledge concerning 
endangered human languages. This program is made urgent by the imminent 
death of an estimated half of the 6000-7000 currently used human 
languages. Working with the SBE Linguistics Program, the OPP Arctic 
Social Sciences Program has identified DEL as a natural IPY project. 
The unfortunate situation of the estimated 52 arctic indigenous 
languages is no exception to the international prognosis. Following the 
first DEL Announcement of Opportunity, over 10 percent of the proposals 
were to research arctic languages and the DEL Management Group 
anticipates over 10 percent of the recommended proposals to be for 
research in the arctic region. NSF and NEH have agreed to funding for 
DEL for three years with an evaluation and possibility for renewal in 
2008. Thus, IPY provides an opportunity to bring publicity and 
resources to the pressing issue of endangered languages in the Arctic.
    With regard to the implementation of observing systems, the 
National Ocean Partnership Program, through the Ocean-U.S. office, is 
pursuing the establishment of an Integrated Ocean Observatory System 
(IOOS). The IOOS is planned to include three ``Regional Associations'' 
in Alaska, including the Chukchi Sea and North Slope, Bering Sea, and 
NE Pacific. NSF is working with the National Oceanic and Atmospheric 
Administration and local groups to identify and to support these 
regional associations. NSF is working with the research community in 
Barrow, Alaska, to develop a plan for a major observatory to be located 
in that community, with an emphasis on research that contributes to 
SEARCH and other high-priority arctic programs. Within NSF, 
participants in these activities include OPP, CISE, and ENG. To enable 
the IOOS and to provide for a new generation of polar research, NSF is 
committed to supporting work in developing and deploying novel 
instrumentation. New work is especially needed in chemical and 
biological sensors (for example, nutrients and plankton). In addition, 
a new set of platforms that must be developed for making and 
transmitting observations from under the ice pack, including both 
gliders and autonomous underwater vehicles. Finally, NSF's experience 
in deploying the first shore-based polar observatory off Palmer Station 
in January 2006 will be invaluable in planning other polar coastal 
observatories.
    Strong emphasis is again placed on education and outreach, which 
will support stand-alone education proposals that specifically 
invigorate science, technology, engineering, and mathematics (STEM) 
education in the context of the IPY: formal science education projects 
at the K-12, undergraduate, or graduate level; informal science 
education projects for the broader public; and coordination and 
communication for IPY education projects. IPY provides a timely 
opportunity to advance the goals of the American Competitiveness 
Initiative (ACI).

Logistics Support

    Arctic and Antarctic Research Support and Logistics are supported 
through contracts and other agreements. These arrangements provide 
flexible mechanisms that are capable of supporting a wide range of 
potential science and educational activities. NSF also works with the 
U.S. Coast Guard, NOAA, University-National Oceanographic Laboratory 
System (UNOLS), the Canadian Coast Guard and others to provide 
shipboard facilities for marine research in both polar regions. Other 
support is available in the Arctic through a cooperative agreement with 
the Barrow Arctic Science Consortium (BASC) in Barrow, Alaska, to 
provide research support and logistics for researchers working on the 
North Slope of Alaska and a cooperative agreement with the Institute of 
Arctic Biology at the University of Alaska Fairbanks to support 
operation of the Toolik Field Station, an NSF LTER site. Cooperation 
with other national polar research programs offers an avenue for 
supporting international projects.
    One aspect of logistics support that is being explored is the 
feasibility of supporting year-round research or extending the research 
season at additional locations in the polar regions (currently only 
South Pole, McMurdo, and Palmer stations in the Antarctic and Summit, 
Greenland are staffed for year-round research activities). Year-round 
research and research in remote areas is complicated and expensive to 
execute, yet is necessary to provide adequate spatial and temporal 
coverage to address research questions. Evolving technology has made it 
possible to collect many measurements remotely through instrumentation 
or through the use of remotely operated vehicles. There are many 
improvements to be made to the technology to ensure consistency of data 
collection under extreme conditions and make use of renewable energy 
sources. Sensors could be integrated into a network that upload data 
via satellites in real-time. Upgrades and improvements of existing 
infrastructure include: improvements in the information technology 
infrastructure at research hubs such as Barrow, Alaska; development of 
unmanned sensor networks in the Arctic and Antarctic; development of 
remote power for sensors, particularly using renewable resources; and 
improvements in field research facilities (e.g., laboratory space and 
equipment, living quarters, communications and safety).

Data Management
    The legacy of data created during IGY was instrumental in enabling 
many of the scientific advances in the decades following the IGY. 
Likewise, comprehensive management of the volumes of data to be 
generated during the IPY will be critical to ensuring that it is useful 
and available to future researchers and educators.
    Archival and distribution functions for data required for support 
of arctic and antarctic IPY research are distributed among all the U.S. 
national data centers. These data are held in global archives at the 
National Climatic Data Center (climatology and meteorology), at the 
National Oceanographic Data Center (oceanography), at the National 
Geophysical Data Center (seismology, geomagnetism, marine geology and 
geophysics, solar and ionospheric studies, ecosystems, topography, and 
paleoclimatology), and at the National Center for Atmospheric Research 
(upper atmosphere and ionospheric studies). Data sets for a vast array 
of cryosphere-specific variables in the Arctic (sea ice, snow cover, 
permafrost, etc.) are archived and distributed through the National 
Snow and Ice Data Center (NSIDC) and the World Data Center for 
Glaciology in Boulder, Colorado (http://www.ngdc.noaa.gov/wdc/). These 
also include satellite-derived measurements, in-situ observations, and 
ancillary information from the Antarctic and the Arctic that have been 
supported by NASA, NOAA, and NSF. NOAA/NESDIS/NCDC in Asheville, NC 
holds the global satellite data archives for polar-orbiting satellites.
    For data management, a new focus on ``Virtual Observatories'' is 
being developed and promoted by the ``Electronic Geophysical initiative 
Year'' (http://www.eGY.org). As more researchers provide their data on 
individual or institutional Web or FTP sites, rather than submitting to 
data centers, the current ``push data'' approach (where the data must 
be submitted to the National and World Data Centers System) is now 
becoming more difficult to implement. Therefore, the worldwide data 
management community is focusing on providing more effective access to 
globally distributed data sets via the ``pull data'' concept. The eGY 
group and the ICSU World Data Centers Panel are working toward a 
convergence of data centers into ``data clearinghouses,'' while the 
Virtual Observatories are developing a network of interconnected data 
holdings and retrieving/visualizing software that constitutes the 
worldwide ``data fabric.'' NSF is supporting, under the broader 
umbrella of CyberInfrastructure, the concept of Virtual Observatories 
as a means of managing relevant data for IPY.

DEPARTMENT OF ENERGY (DOE)

    DOE is planning to support the International Polar Year in a 
variety of important ways through the following programs:

        <bullet>  Atmospheric Radiation Measurement Program

        <bullet>  Climate Change Prediction Program

ATMOSPHERIC RADIATION MEASUREMENT PROGRAM (ARM)

    The ARM Program will continue its year round operation at the North 
Slope of Alaska (NSA) site. This site is providing data about cloud and 
radiative processes at high latitudes. These data are being used to 
refine models and parameterizations as they relate to the Arctic. The 
NSA site is centered at Barrow and extends to the south to the vicinity 
of Atqasuk, and to the east to Oliktok Point. DOE will also support 
IPY-related proposals to conduct experiments using either the NSA site 
and/or the ARM Mobile Facility.

CLIMATE CHANGE PREDICTION PROGRAM (CCPP)

    The CCPP will continue research to develop coupled climate models. 
The CCPP is developing ocean and sea ice models that are components of 
the Community Climate System Model (CCSM). In addition to coupled 
climate simulations, researchers apply the ocean and sea ice models to 
a variety of ocean and sea ice problems, including eddy-resolving ocean 
simulations, studies of the thermohaline circulation, and polar ice 
feedbacks. CCPP also supports analyses of the causes and consequences 
of biases in the mean climate and circulation of the Arctic.

ACTIVITIES OF THE NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION 
                    (NOAA) THAT SUPPORT THE OBJECTIVES OF THE 
                    INTERNATIONAL POLAR YEAR (IPY) MARCH 2007-MARCH 
                    2009

    NOAA began planning for IPY activities in the fall of 2004. Initial 
ideas were packaged into 11 broader themes and submitted to the IPY 
International Program Office in January 2005 as ``expressions of 
intent.'' Over the next few months, the IPY International Program 
Office encouraged scientists to prepare more collaborative proposals, 
resulting in around 200 ``integrated projects'' that now define the 
international effort for the IPY. All of NOAA's original submissions 
are included in these integrated projects. This document summarizes the 
initial plans and provides an update to expected IPY activities during 
FY 2007 to FY 2009.

EXPLORATION

1.  Ocean Exploration in Polar Regions

    NOAA's Office of Ocean Exploration (OE) may support multiple 
projects in both the Arctic and Antarctic in conjunction with the 
International Polar Year (IPY). OE solicited specific projects for IPY 
via Federal Register announcements in calendar years 2005 and 2006. OE 
also expects to solicit IPY-related projects during the calendar year 
2007 Federal Register notice. Ocean Exploration together with the NOAA 
Arctic Research Program and the Russian Academy of Sciences plan to 
facilitate an expedition to the Pacific Arctic in 2008, as part of the 
ongoing RUSALCA (Russian American Long-term Census of the Arctic) 
program.

OBSERVATIONS

2.  Causes and Impacts of Recent Changes in the Pacific Arctic

    Unprecedented minima of sea ice area have occurred in the Pacific 
Arctic during the four most recent summers. Summer 2003 and 2004 
brought record forest fires and drought to eastern Siberia and Alaska 
after a decade of warm springtime temperature anomalies. In surrounding 
seas there has been a northward shift of ice-dependent marine animals, 
with pelagic species such as pollock favored over bottom-feeding 
flatfish. Many Pacific Arctic changes are continuing, despite the 
observation that climate indices such as the Arctic Oscillation were 
negative or neutral for six of the last nine years. The Pacific Arctic 
may be having a larger role in shaping the persistence of Arctic change 
than has been previously recognized. We will work with our partners to 
carry out observations in this area to measure movement of water 
through the Bering Strait, gather observations about physical change in 
the state of the ocean in the Bering and Chukchi Seas, and study 
impacts of physical change on marine ecosystems in this region. Bering 
Strait mooring programs will be conducted, as well as mooring and ship-
board studies in the eastern Bering Sea. Limited ship-board studies 
will be made in ice-free areas in the vicinity of Bering Strait and 
Chukchi Sea in association with mooring cruises.

3.  Polar Atmospheric Observatories and Field Campaigns

    As part of the IPY project ``International Arctic System for 
Observing the Atmosphere,'' a system of strategically located, long-
term Atmospheric Observatories will be developed around the Arctic to 
carry out both routine measurements made at meteorological stations and 
intensive measurements at the surface and through the depth of the 
atmosphere. Measured quantities can include solar radiation, aerosols, 
air chemistry, trace gases, cloud properties, water vapour, ozone, 
temperatures, winds, precipitation, surface albedo and stratospheric 
properties. These measurements are essential to calibrate and validate 
satellite sensors and to improve the reliability of climate models. The 
Atmospheric Observatory partnership includes the United States, Canada, 
Russia, Norway, Finland, and China. NOAA's existing baseline 
observatories at Barrow Alaska and South Pole will continue to focus on 
measurements of trace gases and aerosols. The flask-sampling program 
has 15 polar stations that collect atmospheric samples for trace gas 
measurement. The Climate Research Program supports investigations of 
atmospheric processes that affect climate in polar regions. In the 
Arctic, a new observatory at Eureka Canada will operate during the IPY 
and the observatory at Barrow Alaska will continue. The observatory at 
Tiksi Russia will be partially operational. These three observatories 
will focus on measurements of clouds, radiation, and trace gases. Both 
Barrow and South Pole will offer logistic support to scientists for IPY 
projects if they can provide their own science support. The flask-
sampling program will continue and research efforts will be supported 
on ozone, haze and aerosol/cloud/climate interactions in the Arctic.
    NOAA/NCDC plans to install a Climate Reference Network (CRN) site 
configuration at the Russian Arctic observing site in Tiksi (dependent 
on final FY07 budget). Preliminary planning has already begun in 
concert with the IPY's International Arctic Systems for Observing the 
Atmosphere (IASOA), and installation is tentatively planned for the 
summer building season in the August/September 2007 timeframe. This 
installation is not only in support of the IPY, but is also in line 
with a longer term effort on the part of the U.S. GCOS Program Office 
to install reference surface observing sites in unique high elevation 
and high latitude location environments.

4.  Polar stratospheric Ozone Depletion Observations

    As a part of the International Geophysical Year in 1957, column 
ozone measurements were initiated at South Pole, Antarctica using 
Dobson spectrometers. In 1985, the annual stratospheric ozone depletion 
over Antarctica--the ``Antarctic Ozone Hole''--was identified. In less 
than five years it was proven that the ozone hole was caused by human 
emitted fluorochlorocarbons (CFCs) and the ozone hole has become a 
globally recognized ``poster child'' for showing how humans can cause 
global scale changes. The Arctic stratospheric ozone changes, though 
lesser in magnitude than the Antarctic ozone hole, are by no means of 
lesser importance. Key studies will be undertaken in the Arctic to 
monitor these changes. Routine observations of ozone will continue at 
Barrow and South Pole during the IPY.

5.  Antarctic Living Marine Resource (AMLR) Survey

    The principal objective of the NOAA AMLR research program is to 
collect the scientific information needed to detect, monitor, and 
predict the effects of harvesting and associated activities on target, 
dependent, and related species and populations of the Antarctic marine 
living resources and the ecosystem(s) of which they are a part. A 35-
day ship-based research program is planned for FY07.

PREDICTION AND MODELING

6.  Short-term Arctic Predictability (STAP)

    This scientific study will explore the variability, and associated 
predictability of weather, sea ice, ocean wave, and land surface 
processes in the Arctic region in the 3-90 days time range, with 
special emphasis on improving forecast guidance for high impact events 
in the 3-14 day lead time range. NOAA will complete a study of 
northwest Alaskan coastal waves during the IPY. NOAA will also 
participate in sea ice studies at both poles aimed at improving 
measurement of ice thickness and forecasting. The NOAA THORPEX program 
is expected to make observations and introduce forecast products to 
improve weather and intraseasonal forecasts for the Arctic.

7.  Advances in Satellite Products and Their Use in Numerical Weather 
Prediction

    Spatially comprehensive observations of the atmosphere in the data-
sparse polar regions significantly and positively impact high latitude 
numerical weather predictions. In addition, errors in model forecasts 
for the high latitudes often propagate to the mid-latitudes, implying 
that improvements to high latitude forecasts will result in better mid-
latitude forecasts. These findings provide the motivation to improve 
our ability to measure the state of the polar regions with satellites 
and to expand the use of these data in Numerical Weather Prediction 
systems. NOAA will participate in IPY projects to improve the 
application of satellite sensors to environmental problems in the polar 
regions.

8.  Arctic Climate Modeling

    The general goal of this project is to improve predictions of the 
Arctic environment on timescales ranging from seasonal to climate 
change. Thus, our research will focus on analyzing and modeling the 
physical processes and connections between the Arctic and the rest of 
the globe. NOAA's Geophysical Fluid Dynamics Laboratory will continue 
to improve global climate models that including polar processes.

9.  Arctic System Re-analysis (ASR)

    A concerted effort during the IPY (2007-2008) to construct pan-
Arctic atmosphere-ocean-ice-land data sets, and to assimilate and 
enhance these with a high-resolution (coupled) reanalysis system 
optimized for the Arctic region, will provide researchers with an 
unprecedented description of the Arctic environment over the past 
several decades. The operational analysis system (post 2008) expected 
to be a legacy of this activity would provide constantly updated 
depictions of the Arctic environment, and foster improved short- and 
medium-range weather forecasts as well as seasonal climate outlooks. 
Improved understanding of Arctic climate processes resulting from 
development of the ASR will lead to better global climate models, in 
turn reducing uncertainty in projected future climate states of the 
Arctic. The ASR will also serve as a vehicle for diagnostic evaluation 
of ongoing changes in the Arctic system.

DATA, OUTREACH AND DECISION SUPPORT

10.  NOAA's Data, Information, and Change Detection Strategy for the 
IPY

    NOAA's fundamental data management responsibilities will be to 
securely archive IPY datasets and ensure that these and relevant polar 
data are easily accessible for current and future users. NOAA will 
utilize the existing World Data Center (WDC) System and NOAA's National 
Geophysical Data Centers in order to serve as a clearinghouse and 
facilitator for data-management issues and will work with IPY 
participants to ensure that International Council of Scientific Unions/
World Meteorological Organization (ICSU/WMO) IPY Data Committee 
guidelines are followed. NOAA will also ensure that international 
standards such as the Open Archival Information System Reference Model 
and the ISO19115 metadata standards are met.
    NOAA intends to build and maintain a pan-Arctic view of climate 
variability and change that will serve decision-makers with information 
products. These range from baseline atlases against which future 
assessments can be carried out, to the Near Realtime Arctic Change 
Indicator Website, where information on the present state of Arctic 
ecosystems and climate is given in historical context. NOAA data 
centers will assist NOAA scientists to archive their IPY data. NOAA 
will continue to acquire historical data and present it on the Arctic 
Change Indicator Website to describe the state of the Arctic climate 
over the past 150 years, allowing a better context for new data 
collected during the IPY.

11.  Decision support for increasing adaptive capacity to climate 
change and variability in Alaska and the Arctic.

    The cornerstone of the National Oceanic & Atmospheric 
Administration's (NOAA) Regional Climate Decision Support program for 
Alaska and the Arctic is to establish an integrated program spanning 
stakeholder-influenced research and development of decision-support 
tools for the sustained delivery of customer services. This includes 
establishing in Alaska a Regional Integrated Sciences & Assessments 
(RISA) and a Regional Climate Center (RCC) with formal liaisons to 
NOAA's National Weather Service and the State Climatologist Office to 
foster growth of climate services.
    NOAA is part of the U.S. presence in the Arctic Council (AC). The 
AC plans to conduct several assessments during the IPY period, 
including the Arctic Marine Shipping Assessment, an assessment of the 
Arctic carbon cycle, and others. NOAA will provide expertise and 
financial support within available resources. NOAA plans to initiate 
the Alaska RISA soon through the Univ. of Alaska, and as a five-year 
effort, it will operate during the IPY, but not at the full-performance 
level. Through the Regional Climate Centers program, an ``Alaska desk'' 
may be established in association with the Alaska RISA. NOAA expects to 
contribute staff time and limited financial support to the Arctic 
Council climate-related assessment tasks during the IPY.
    The National Ice Center (NIC) is a U.S. Government agency that 
brings together elements from the Department of Commerce--NOAA , the 
Department of Defense--NAVY, and the Department of Homeland Security--
U.S. Coast Guard (USCG) to support coastal and marine sea ice 
operations and research globally. The mission of the NIC is to provide 
the highest quality strategic and tactical ice services tailored to 
meet operational requirements of U.S. national interests. Over the 
Arctic, particularly, the NIC provides operational strategic basin-
scale sea ice charting with the production of a hemispheric and over 30 
individual regional charts, sea ice tactical ice navigation support, 
Chukchi Sea and Beaufort Sea ice seasonal forecasts, support for the 
development of a sea ice climatology for the Arctic, and management of 
the U.S. Interagency Arctic Buoy Program (USIABP). NIC is participating 
directly or indirectly in an increased number of research and 
application cooperative projects with other national and international 
groups as part of International Polar Year (IPY) activities throughout 
2007 and 2008.
    NOAA's National Data Centers handle a wide variety of Arctic data. 
An affiliated data center, the National Snow and Ice Data Center 
(NSIDC), CIRES, University of Colorado, has a NOAA NESDIS supported 
program (nsidc.org/noaa/) to produce and manage selected data sets. 
Significant data sets are the Online Glacier Photograph Collection of 
over 3000 photographs dating to the late 1800s; upward looking sonar 
data from submarines, providing estimates of sea ice thickness; and the 
Sea Ice Index, a site that shows, with graphical products, trends and 
anomalies in sea ice cover. Overall, the <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2f61606e6e6f617c666b6c">[email&#160;protected]</a> program emphasizes 
data rescue and in situ data. This emphasis helps collect and maintain 
the long time series with broad spatial coverage that is necessary to 
track and attribute arctic change. The program complements the 
activities of the Distributed Active Archive Center, a NASA funded 
center at NSIDC that supports the bulk of NSIDC's activities. In 
addition to data activities, NOAA supports approximately half of the 
operating cost of the World Data Center for Glaciology, Boulder, 
library. The archival activities of this library are becoming more 
visible as preparations for IPY gather momentum.

12.  Formal and Informal Education

    The Climate Program Office is leading a NOAA-wide effort with 
respect to the IPY. The Climate Literacy Working Group (CLWG), based at 
the Climate Program Office, is coordinating NOAA-wide IPY education and 
outreach activities with the NOAA Office of Education. The NOAA IPY 
effort is part of the NSF led interagency IPY education effort and will 
collaborate and coordinate their efforts with agencies participating in 
the forth IPY. Several formal and informal education initiatives are 
focusing primarily on teacher professional and science center or museum 
exhibitions, however several formal lesson plans will be developed as 
part of our IPY efforts. Several current example IPY efforts are listed 
below:

         IPY/NSTA Symposia: These are exciting Symposia designed for 
        grade 5-8 educators in celebration of the International Polar 
        Year (IPY), will delve into science content and educational 
        activities developed by NASA, NOAA, and NSF. These symposia 
        will happen at the NSTA national conference in March 2007.

         http://institute.nsta.org/fall06/ipyice/symposium.asp

         IGLO is a project of the Association of Science-Technology 
        Centers, an international organization of science centers and 
        museums dedicated to furthering the public understanding of 
        science. IGLO's goals are to raise public awareness about the 
        impact of global warming and the state of climate science, 
        position science centers globally as recognized leaders in 
        public engagement with science and support the aims and 
        objectives of the IPY. NOAA, NASA and NSF are sponsors of the 
        initiative.

         http://www.astc.org/iglo/

         Climate Change in the Arctic Ocean is a teacher professional 
        development and mass media project aboard the NABOS 2006 Arctic 
        Expedition aboard Icebreaker Kapitan Dranitsyn.

         http://www.naturalsciences.org/education/arctic/

13.  Public Outreach--

    NOAA's Climate Program has expanded its Regional Integrated 
Sciences and Assessments (RISA) program to Alaska. The Alaska RISA is a 
five-year program designed to address regionally important climate 
issues to aid policy- and decision-making. The Alaska RISA program 
could contribute significant results to our understanding of key 
climate related challenges facing the state and would allow for 
innovative partnerships with neighboring countries.

DEPARTMENT OF STATE AND DEPARTMENT OF HEALTH AND HUMAN SERVICES (DHHS)

Arctic Human Health Initiative (AHHI)
    The Arctic Human Health Initiative (AHHI) will advance the joint 
research agenda of the Arctic Council, an eight-nation inter-
governmental forum for sustainable development and environmental 
protection, in the areas of infectious disease monitoring, prevention, 
and response; the effects of anthropogenic pollution, UV radiation, and 
climate variability on human health; and telehealth innovations. 
Specifically, the leaders of these research programs will build on 
their years of circumpolar collaboration to extend the International 
Circumpolar Surveillance network of hospitals and public health 
facilities into Russia and include additional infectious diseases of 
concern, to continue monitoring contaminants in human blood and tissues 
to reveal temporal and spatial trends and to combine experiences from 
the rapidly expanding disciplines of biomarker research and molecular 
epidemiology with these monitoring programs, and to extend circumpolar 
cooperation on telehealth, particularly to Arctic regions in the 
Russian Federation. In addition, the AHHI will draw on the outstanding 
leadership of the Arctic Council member states' national and 
international research programs in the areas of human genomics, 
hypothermia/hibernation, and health impacts of climate change 
(including spread of zoonotic and arboviral diseases in the Arctic).
    Fogarty International Center (FIC) has been the designated focal 
point for Arctic issues at the National Institutes of Health (NIH). One 
of FIC's key roles is advancing bilateral and multilateral ties between 
and among governments, institutions, and scientists working on 
circumpolar issues. In this, FIC has been collaborating with other NIH 
Institutes and DHHS agencies in the development of symposiums and 
research programs, as well as actively exploring other opportunities 
for trans-NIH and interagency collaboration (e.g., with NSF, NASA, 
etc.), such as mental health. As an example, two major conferences on 
inhalant abuse and suicide were spearheaded by FIC with partnership 
from National Institute of Drug Abuse (NIDA) and National Institute on 
Mental Health (NIMH) in 2004 and 2005. With mental health being one of 
the most significant concerns for the AHHI, FIC has been working with 
the Polar Research Board at the National Academies of Science in the 
development of a study focused on mental health in the Arctic. In 
addition to these activities, in FY05, NIH spent 22 million on research 
programs in the Arctic. Some of the major areas of research included 
interactions of genetics and environment, cancer, cardiovascular and 
mental health disease burdens. Overall, across DHHS, multiple agencies 
have been engaged in working on the improvement of health and health 
care in the Arctic. For example, SAMHSA spent 21.2 million in FY05, as 
it continues to provide services directed at the prevention and 
treatment of mental health and substance abuse problems in the Arctic. 
The U.S. Centers for Disease Control and Prevention (CDC), one of the 
leading agencies at DHHS has been developing partnerships and 
collaborations in the Arctic focused on improvement of public health 
and healthcare provision. In addition, CDC has been the leader of the 
AHHI steering group, which has been working with the International 
Union for Circumpolar Health (IUCH), FIC and other stakeholders in the 
development of outreach and public education programs focused on the 
promotion of good health for Arctic residents and better integration of 
the findings of Arctic health research.

U.S. GEOLOGICAL SURVEY (USGS)

    The U.S. Geological Survey serves the United States by providing 
reliable scientific information to

        <bullet>  Describe and understand the Earth

        <bullet>  Minimize loss of life and property from natural 
        disasters

        <bullet>  Manage water, biological, energy, and mineral 
        resources; and

        <bullet>  Enhance and protect our quality of life.

    The USGS will participate in the IPY through extension and 
enhancement of programmatic activities in research, assessment, and 
monitoring in the polar regions that support the scientific mission of 
the organization and address the themes and goals of the IPY. These 
activities span the biologic, geologic, hydrologic, geographic, and 
information sciences. While planning is still ongoing, we anticipate 
our major IPY activities will include:

Products to be released by the USGS during IPY:

        <bullet>  Satellite Image Atlas of Glaciers of Asia, Alaska, 
        and Iceland (http://www.glaciers.er.usgs.gov/html/
        chapters.html)

        <bullet>  State of the Earth's Cryosphere at the Beginning of 
        the 21st Century: Glaciers, Snow Cover, Floating Ice, and 
        Permafrost

        <bullet>  Petroleum Resource Assessment of the Arctic

                 USGS World Petroleum Assessment of 2000 estimated that 
                approximately 25 percent of the remaining oil and gas 
                resources of the world reside in the Arctic. This 
                follow-on study will examine Arctic basins in more 
                detail and report on oil and gas resource potential of 
                unexplored basins, and the initial results should be 
                completed during the IPY.

        <bullet>  Landsat 7 Image Map of Antarctica (LIMA)

                 The LIMA will create three high-quality remotely-
                sensed mosaics of Antarctica from more than 1200+ 
                Landsat scenes in cooperation with the British 
                Antarctic Survey, funded by the National Science 
                Foundation.

Analysis of long-term monitoring from the polar regions:

    The USGS has been monitoring permafrost temperature in the Arctic, 
three Benchmark Glaciers for climate change, glacier geometry, glacier 
mass balance, glacier motion, and stream runoff, and marine mammals for 
many decades. The results of those monitoring efforts will be examined, 
analyzed and reported on during the IPY.

        <bullet>  Permafrost Temperature Monitoring

        <bullet>  Benchmark Glaciers

        <bullet>  Marine Mammals: polar bears and walruses

        <bullet>  Sea Ice

Initiation of new study:
    Yukon River Basin--Rates and Effects of Permafrost Thawing in the 
Arctic.
    The USGS is working with a consortium of U.S. and Canadian Federal, 
State, and Provincial agencies, university scientists, and tribal 
organizations to initiate a major project to understand and predict 
climate-induced changes to the air, water, land, and biota within the 
Yukon River Basin (YRB). This collaborative scientific effort, using 
the YRB and adjacent coastal ocean as a representative landscape unit, 
will provide a benchmark for tracking and understanding changes 
occurring throughout the Arctic and Sub-arctic region.

USGS will be highlighting our Facilities and Resources for Arctic and 
        Antarctic Research

        <bullet>  U.S. National Ice Core Laboratory, USGS, Denver, CO

           The U.S. National Ice Core Laboratory (NICL) stores, 
        curates, and facilitates study of ice cores recovered from the 
        polar regions of the world. It provides scientists with the 
        capability to conduct examinations and measurements on ice 
        cores, and it preserves the integrity of these ice cores in a 
        long-term repository for current and future investigations. Ice 
        cores contain an abundance of climate information--more so than 
        any other natural recorder of climate such as tree rings or 
        sediment layers. http://nicl.usgs.gov/

        <bullet>  U.S. Antarctic Resource Center, USGS, Reston, VA

           The U.S. Antarctic Resource Center (USARC) is the Nation's 
        depository for Antarctic maps, charts, geodetic ground control, 
        satellite images, aerial photographs, publications, slides, and 
        video tapes. These resources are items produced by Antarctic 
        Treaty nations in support of their activities in Antarctica and 
        provided to the USARC in compliance with a standing resolution 
        of the treaty providing for exchange of information. 
        usarc.usgs.gov

        <bullet>  USGS Alaska Science Center, Anchorage, AK

           A Center of Excellence for the Department of the Interior to 
        address important natural resources issues and natural hazards 
        assessments in Alaska and circumpolar regions through long-term 
        data collection and monitoring, research and development, and 
        assessments and applications. Their mission is to provide 
        scientific leadership and accurate, objective, and timely data, 
        information, and research findings about the Earth and its 
        flora and fauna to federal and State resource managers and 
        policy-makers, local government, and the public to support 
        sound decision-making regarding natural resources, natural 
        hazards, and ecosystems in Alaska and circumpolar regions. 
        http://alaska.usgs.gov/index.php

        <bullet>  McMurdo Long Term Research (LTER) Program

           The USGS provides cooperative support to the McMurdo Long-
        Term Research program for water resources data collection and 
        related activities. The support provided is in the form of 
        field assistance, guidance, and review of surface-water data 
        collection by INSTAAR and University of Colorado researchers in 
        the McMurdo Dry Valleys (Taylor Valley and Wright Valley) of 
        Antarctica. Cooperation is also provided in the form of 
        guidance and support for and access to USGS databases and 
        streamflow-records processing applications.

        <bullet>  Antarctic Seismic Data Library System (SDLS)

           The SDLS is an Antarctic-Treaty-mandated effort under the 
        auspices of the Scientific Committee on Antarctic Research 
        (SCAR) to collate and make openly available for research 
        purposes all marine multi-channel seismic reflection data (MCS) 
        acquired in Antarctic regions (i.e., south of 60 degrees 
        South). The SDLS was implemented in 1991 under USGS 
        sponsorship, but since about 1996, the SDLS has been run 
        jointly by USGS (with NSF-OPP and USGS funding) and 
        Osservatorio Geofisico Sperimentale (OGS, Trieste, Italy). The 
        seismic library has branches in 10 countries, with two branches 
        in the U.S. MCS data are sent to the SDLS by data collectors, 
        are put onto CD-ROM and distributed to SDLS branches where they 
        can be viewed and used under the SDLS guidelines specified in 
        SCAR Report #9 (and addendums). To date, 60 CD-Roms holding 
        more than 120,000 km of stacked MCS data have been produced for 
        SDLS branches.

        <bullet>  Web-enabling the US Antarctic Photography Collection 
        from the USGS Earth Resources Observation Science (EROS) Center

           For more the 30 years, it has been USGS's privilege to 
        archive and serve the U.S. Antarctic Program, the international 
        Antarctic research community, and the public with access to the 
        U.S. Antarctic aerial photography collection held at the USGS 
        Center for Earth Resources Observation and Science (EROS) 
        center at http://eros.usgs.gov/. This collection consists of an 
        estimated 400,000 frames of historical aerial photography 
        dating back to the 1940s. This collection is the best 
        collection of Antarctic aerial photography held by any country 
        and that its value to the Antarctic research community will 
        only increase with time as work and research continues in 
        Antarctica.

             However, neither online metadata, browse images, 
        photographs nor film products are available via the Internet 
        for the USAP Antarctic aerial photography collection. New 
        technology and improved digitizing methods have made it 
        possible to digitize the original aerial film rolls creating 
        browse and medium resolution images of each frame. We propose 
        to link the digitized USAP aerial photography browse and medium 
        resolution image files to the USARC paper map-line plots and 
        web-enable the digitized collection in such a way that users 
        could download images over the Internet at no cost to the user. 
        Implementation of the proposal will result in an integrated on-
        line query, browsing and delivery capability for all historical 
        USARC photography in the USGS EROS Center.

        <bullet>  Antarctic Geographic Placenames

           The USGS operates the U.S. Board on Geographic Names in 
        conjointly with other federal agencies. In accordance with 
        recommendations of the Advisory Committee on Antarctic Names 
        (ACAN), United States Board on Geographic Names (USBGN) 
        approves all new names to be used in government use in 
        Antarctica by the United States.

NATIONAL AERONAUTICS AND SPACE ADMINISTRATION (NASA)

    NASA's contributions to IPY likely will involve ongoing activities 
(operating satellites, continuing ground networks, and scientific 
research), some episodic activities (satellite snapshots and field 
campaigns), new efforts related to the development and deployment of 
sub-orbital capabilities (aircraft and unmanned aerial vehicles), and 
coordination of remote sensing observations with in situ measurements 
supported both by NASA and other agencies--primarily the National 
Science Foundation.
    Currently, NASA operates nearly 20 satellites that collect 
information about the polar regions. The Ice Cloud and Land Elevation 
Satellite (ICESat) was specifically designed to measure changes in the 
elevation of the Earth's great ice sheets and the ice sheet processes 
that are manifest in the surface topography in unprecedented detail. In 
addition, the mission has revealed new information about recent 
thickness characteristics of sea ice in the entire Arctic and Antarctic 
regions. Other recently-launched Cloudsat and Calipso missions are 
providing 3-dimensional information on the structure of the Earth's 
atmosphere, and as with all near-polar orbiting satellites, coverage 
will be maximum in the polar regions.
    NASA has demonstrated success in the past in developing 
comprehensive polar observations through international collaborations 
with the Canadian Space Agency (CSA) to carry out the Antarctic Mapping 
Mission and the Arctic Snapshot of Arctic sea ice characteristics at 
very high spatial resolution. We expect to continue to develop these 
international efforts through a coordination of activities with our 
colleagues at space agencies in other countries.
    NASA also has polar missions that reach beyond Earth, including the 
PHOENIX Mission that will land near Mars North Pole in 2008, the Lunar 
Recon Orbiter that will map lunar polar regions for the first time in 
2008, and the Mars Recon Orbiter (MRO) that will explore Martian polar 
regions from orbit. Polar analogues in Mars exploration are vital; for 
instance, scientists have used Earth's polar regions to simulate Mars 
for over 30 years. For instance, the Dry Valleys of Antarctica are the 
best ``Mars analogue'' known on Earth, and activities in support of 
human exploration of space have been conducted in the Canadian Arctic. 
These polar environments continue to serve as important test-beds in 
support of activities related to NASA's Vision for Space Exploration.
    NASA issued a solicitation for IPY research proposals in 2006. 
Specific research topics solicited were:

        1.  Integrated analysis of multiple satellite data sets, 
        enhanced validation of NASA satellite data sets in polar 
        regions needed for improving their interpretation by models, 
        and/or the integrated analysis of satellite and related sub-
        orbital data addressing the scientific questions defined by 
        NASA in its Earth Science Enterprise Strategy (at http://
        earth.nasa.gov/visions/ESE<INF>-</INF>Strategy2003.pdf) that 
        can be addressed in the context of IPY;

        2.  Individual U.S. investigator participation in field 
        activities carried out as part of IPY, especially U.S. 
        participation in multi-national field campaigns to take place 
        in the primary IPY timeframe from March 2007-March 2009.

        3.  Integrated regional modeling of the polar regions 
        (including the terrestrial, oceanic, atmospheric, biospheric, 
        and cryospheric components of these regions and their 
        interactions) that takes advantage of synergies between the 
        enhanced international observational capabilities that will be 
        available during the IPY time frame and NASA satellites;

        4.  Definition studies for potential U.S.-led, focused IPY 
        activities that integrate field work (typically using NASA-
        provided sub-orbital platforms), satellite data analysis, and 
        modeling to address IPY-related science questions and provide 
        enhanced validation for NASA satellite data products in the 
        unique geophysical and/or biogeochemical conditions found in 
        the polar areas. At this point in time, proposals for conduct 
        of and/or participation in significant multi-investigator, 
        U.S.-led field-based activities beyond these definition studies 
        are not solicited; and

        5.  Development of remote-sensing instruments suitable for 
        implementation on uninhabited aerial vehicles (UAVs) such as 
        are likely to be available for use during the IPY time frame 
        (March 2007-March 2009). Such instruments would make 
        contributions to IPY contributing to our knowledge of the 
        unique geophysical and/or biogeochemical conditions found in 
        polar regions in one or more areas, including: (a) providing 
        early demonstration of instrumental approaches that may be 
        suitable for use on future satellites, (b) providing enhanced 
        calibration/validation information for NASA satellites (and/or 
        those of our international partners), (c) providing more 
        comprehensive information about polar regions that complements 
        that available from satellite sensors to be operating in the 
        IPY time frame, or (d) any combination of the above. Given the 
        limited time and funding available, it is expected that such 
        development would be based on currently available airborne 
        instrumentation with significant heritage aboard onboard-
        piloted platforms, but for which modification to meet the 
        requirements of potential UAVs would be required. Proposers 
        should identify potential UAV platforms as part of their 
        proposals, but need not make arrangements for their use. If 
        proposals in this area are selected, NASA would provide and pay 
        for any flight opportunities involving the use of the newly 
        developed instrument during the IPY time frame.

    The evaluation of proposals submitted in response to this 
solicitation is still underway, but proposals selected from responses 
to our IPY solicitation will form the basis of a significant portion of 
our IPY research portfolio. In the context of The Vision for Space 
Exploration, other areas of investment may include:

        --  Utilizing polar regions as a stepping stone to exploring 
        other planetary environments

        --  Understanding poles of other planets and similarities and 
        differences to those on Earth.

    NASA continues to study the Earth as a system through the unique 
sampling capability afforded by remote sensing. During the IPY and 
beyond, we will continue to develop this capability to understand polar 
processes, the role of the polar regions in the Earth's environment, 
and the nature of poles on other planets in our solar system.

U.S. DEPARTMENT OF AGRICULTURE (USDA)

    The U.S. Department of Agriculture plans to continue its mission 
related activities in the Alaska region through its various mission 
areas, in particular through the Research, Extension and Economics 
Mission Area and the Natural Resources and Environment Mission Area.
    The Agricultural Research Service (ARS) will continue its work 
towards preserving Alaskan plant diversity through its preservation and 
archiving of high latitude plant germplasm through traditional seed 
collocation and modern molecular methods. The U.S. Forest Service 
through the Pacific Northwest Research Station is responsible for the 
management of the Alaskan boreal forest and will continue its 
commitment in support of the Bonanza Creek LTER, which takes place at 
the Bonanza Creek Experimental Forest. The Natural Resources 
Conservation Service (NRCS) will continue to provide assistance to 
state, Native Alaskan, and private landowners through the USDA Farm 
Bill. The Forest Service and NRCS will continue their joint activities 
in permafrost and wetland soil research. The Cooperative State 
Research, Education and Extension Service (CSREES) will continue its 
research support for the Agricultural Experimental Research Stations 
and educational support for the University of Alaska, the Alaska land-
grant institution. Legislated funding for research, education and 
extension activities through the Hatch Act, Evans-Allen Act and the 
McIntire-Stennis Act will continue to be administered by CSREES. 
Competitive funding for research through the National Research 
Initiative and for education such as the Alaska-Native and Native-
Hawaiian Educational Grants Program will be offered by various CSREES 
programs. CSREES will also continue its extension activities through 
the Alaska Cooperative Extension Service. CSREES is currently 
contributing to the interagency Study of Environmental Arctic Change 
(SEARCH) by providing resources to a 2006-2007 joint solicitation with 
EPA and NASA for proposals on climate change, land use and invasive 
species. SEARCH is one of the primary activities of NSF for the IPY and 
the USDA will continue to work with the interagency working group of 
SEARCH to promote joint interests in Alaska.

SMITHSONIAN INSTITUTION (SI)

    The Smithsonian is prepared to engage in a variety of research, 
education, and outreach programs in support of IPY-4. Some of the 
following plans--all of which have been developed with interagency 
collaboration--are already underway; others need further discussion and 
are offered here as ideas for consideration.

        1.  Of all U.S. Governmental agencies, the Smithsonian probably 
        has the longest record of association with IPY activities, 
        because of its critical role in the First U.S. IPY field 
        expeditions of 1881-1884, in caring for its collections, and 
        publishing its proceedings. Hence SI participation in IPY 2007-
        8 will include both historical and contemporary dimensions.

        2.  The SI contribution will be based upon the Institution's 
        time-tested strengths: (1) the research of its scientific 
        personnel; (2) special value of its museum collections as 
        national treasures; and (3) its broad public outreach program, 
        coupled with the unique position of Smithsonian museums on the 
        National Mall and their special attraction to the general 
        public and the Nation.

        3.  On the scientific side, the SI is already playing the 
        leading role in framing the U.S. socio-cultural and Native 
        studies programs based upon staff expertise through the NMNH 
        Arctic Studies Center and the value of its ethnological 
        collections (see below). An ASC Arctic ethnologist is playing a 
        key role for planning the IPY 2007-2008 socio-cultural agenda 
        as a member of both the U.S. National IPY Committee and the 
        main ICSU-WMO Joint Committee for the International Polar Year. 
        The ASC will continue its leading role in the socio-cultural 
        planning through its meetings, symposia, publications, 
        exhibits, coordination activities, and other means.

        4.  Smithsonian scholars are also active in other fields of 
        Arctic and Antarctic research, particularly in biology, 
        paleontology, ocean, and astrophysics studies that will be 
        included in the Institution's IPY program. SI is also curates 
        the U.S. National Antarctic Meteorite collection.

        5.  The Smithsonian offers to organize and host a national IPY 
        symposium at the beginning of the IPY 2007-2008 activities, 
        with the participation of the leading SI scientists and 
        representatives of other agencies and research institutions.

        6.  SI is eager to offer its Arctic and Antarctic collections 
        (ethnological, botanical, zoological, mineral, films and 
        archival materials, etc.) and to facilitate all types of IPY 
        collection research as its contribution to the interagency IPY 
        2007-2008 program. Of particular value are the ethnological and 
        biological collections from Barrow, Alaska and Ellesmere Island 
        (Greeley Expedition) Arctic Canada from the First IPY 1881-1884 
        expeditions, as well as scientific instrument collections and 
        records of the early IPY stations; and the instrument 
        collections from the IGY at the Air and Space Museum.

        7.  SI offers its space and personnel resources to serve as the 
        key IPY interagency hub for Education, Outreach, and Public 
        Communication during 2007-2008 (and even earlier), through its 
        museum programs, outreach, and exhibit ventures.

        8.  Proposed IPY Events for the National Mall:

                a)  The first event will be the opening of the new 
                Smithsonian exhibit, The Arctic: A Friend Acting 
                Strangely (June 2005), focused on the current impacts 
                and science of arctic environmental change. This 
                exhibit has been produced with financial support from 
                NOAA and NSF will be a part of the NMNH ``Global 
                Links'' Exhibition Program.

                b)  As noted above, we propose organizing a national 
                IPY symposium at the beginning of the IPY period 
                (2007).

                c)  As part of this symposium, SI will organize a small 
                exhibit on the history of the early U.S. IPY efforts 
                based upon its collections, instruments, and 
                photographic and documentary records. We invite other 
                agencies to join us in exhibiting objects or graphic 
                materials related to their own contributions to the 
                U.S. IPY efforts.

                d)  In collaboration with the University of Colorado 
                (INSTAAR) we propose mounting a special exhibit called 
                Artifacts On Ice: The Emerging Archeology of Glaciers, 
                featuring the 8000 year old evidence of humans, 
                artifacts, animals, and climate science being recovered 
                from melting high-altitude glaciers in the Pacific 
                Northwest.

                e)  The fifth--and the major--Smithsonian public 
                contribution could be a much larger exhibit, such as 
                Science at the Poles: IPY 2007-2008, to publicize its 
                preliminary results and major accomplishments. This 
                might take place in early or mid-2010, and as a major 
                public venture, would have to be supported by 
                substantial agency contributions.

ENVIRONMENTAL PROTECTION AGENCY (EPA)

    EPA plans to support other agencies' IPY efforts through its 
Environmental Monitoring and Assessment Program (EMAP), and its 
involvement in the Global Earth Observation System of Systems (GEOSS). 
For 15 years, EMAP has developed cost-effective and policy relevant 
probabilistic sampling approaches for freshwater and marine resources. 
EPA has supported monitoring of coastal resources in South Central and 
Southeastern Alaska, as well as freshwater monitoring in Central 
Alaska. The state of Alaska has submitted an IPY ``Expression of 
Intent'' for Arctic and Bering Sea Coastal Assessments. EPA will give 
non-budgetary support to this proposal. Other agencies also may wish to 
support this effort, and perhaps support a larger potential effort of 
developing a circumarctic or even circumpolar coastal monitoring 
program using EMAP approaches, to obtain baseline conditions. This 
larger effort could be done in the context of IPY 2007-2008.
    EPA is involved in GEOSS as a data collector, integrator, and user. 
Also, EPA is co-chair of the GEO Secretariat's User Requirements and 
Outreach Subgroup. EPA is interested in how the oceans observing 
network is expected to be included under GEOSS, and how all the other 
Earth observations overlap with IPY. EPA looks forward to collaborating 
with other agencies in GEOSS activities related to the IPY.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   Biography for Arden L. Bement, Jr.

    Arden L. Bement, Jr., became Director of the National Science 
Foundation on November 24, 2004. He had been Acting Director since 
February 22, 2004.
    He joined NSF from the National Institute of Standards and 
Technology, where he had been Director since Dec. 7, 2001. As head of 
NIST, he oversaw an agency with an annual budget of about $773 million 
and an on-site research and administrative staff of about 3,000, 
complemented by a NIST-sponsored network of 2,000 locally managed 
manufacturing and business specialists serving smaller manufacturers 
across the United States. Prior to his appointment as NIST director, 
Bement served as the David A. Ross Distinguished Professor of Nuclear 
Engineering and head of the School of Nuclear Engineering at Purdue 
University. He has held appointments at Purdue University in the 
schools of Nuclear Engineering, Materials Engineering, and Electrical 
and Computer Engineering, as well as a courtesy appointment in the 
Krannert School of Management. He was director of the Midwest 
Superconductivity Consortium and the Consortium for the Intelligent 
Management of the Electrical Power Grid.
    Bement came to the position as NIST director having previously 
served as head of that agency's Visiting Committee on Advanced 
Technology, the agency's primary private-sector policy adviser; as head 
of the advisory committee for NIST's Advanced Technology Program; and 
on the Board of Overseers for the Malcolm Baldrige National Quality 
Award.
    Along with his NIST advisory roles, Bement served as a member of 
the U.S. National Science Board from 1989 to 1995. The board guides NSF 
activities and also serves as a policy advisory body to the President 
and Congress. As NSF director, Bement now serves as an ex officio 
member of the NSB.
    He also chaired the Commission for Engineering and Technical 
Studies and the National Materials Advisory Board of the National 
Research Council; was a member of the Space Station Utilization 
Advisory Subcommittee and the Commercialization and Technology Advisory 
Committee for NASA; and consulted for the Department of Energy's 
Argonne National Laboratory and the Idaho National Engineering and 
Environmental Laboratory.
    He currently serves as a member of the U.S. National Commission for 
UNESCO and serves as the Vice-Chair of the Commission's Natural 
Sciences and Engineering Committee.
    Bement joined the Purdue faculty in 1992 after a 39-year career in 
industry, government, and academia. These positions included: Vice 
President of technical resources and of science and technology for TRW 
Inc. (1980-1992); Deputy Under Secretary of Defense for Research and 
Engineering (1979-1980); Director, Office of Materials Science, DARPA 
(1976-1979); Professor of nuclear materials, MIT (1970-1976); Manager, 
Fuels and Materials Department and the Metallurgy Research Department, 
Battelle Northwest Laboratories (1965-1970); and senior research 
associate, General Electric Co. (1954-1965).
    He has been a director of Keithley Instruments Inc. and the Lord 
Corp. and was a member of the Science and Technology Advisory Committee 
for the Howmet Corp. (a division of ALCOA).
    Bement holds an engineer of metallurgy degree from the Colorado 
School of Mines, a Master's degree in metallurgical engineering from 
the University of Idaho, a doctorate degree in metallurgical 
engineering from the University of Michigan, an honorary doctorate 
degree in engineering from Cleveland State University, an honorary 
doctorate degree in science from Case Western Reserve University, an 
honorary doctorate degree in engineering from the Colorado School of 
Mines, and a Chinese Academy of Sciences Graduate School Honorary 
Professorship. He is a member of the U.S. National Academy of 
Engineering and a fellow of the American Academy of Arts and Sciences.

    Chairman Inglis. Thank you, Dr. Bement.
    Dr. Bell.

STATEMENT OF DR. ROBIN ELIZABETH BELL, DOHERTY SENIOR RESEARCH 
     SCIENTIST, LAMONT-DOHERTY EARTH OBSERVATORY, COLUMBIA 
                           UNIVERSITY

    Dr. Bell. Good morning. Thank you very much for inviting me 
to speak on International Polar Year. I consider it the 
scientific opportunity of a generation for our nation, our 
society, and our planet.
    I am Robin Bell, and I am from Columbia University's 
Lamont-Doherty Earth Observatory where I run programs looking 
at the stability of the ice sheets and sub-glacial links using 
geophysical techniques, so I am a geophysicist. I also chair 
the Polar Research Board of the National Research Council, 
which acts as the national coordinating committee for IPY, and 
I have been active internationally in the planning process 
pretty much since the beginning.
    [Slide.]
    You might wonder why, in this day of connectivity, 
scientists are so excited about this concept, a concept that 
was developed when this is what the map of the world looked 
like. And at that point, the big white spot in the middle, we 
didn't know whether that was a continent or the ocean--or an 
ocean. There were still truly unknown frontiers. And the 
cutting-edge communication was the telegraph.
    So today, our maps are much richer. We actually know that 
one pole is a continent and one is an ocean, but there is still 
a fundamental need to push our limits of knowledge, 
particularly because environmental change and variability are 
part of the natural pattern of the Earth, but environmental 
change at the poles is much more pronounced than what is going 
on at the tropics. We know that arctic sea ice is decreasing. 
Some of the ice shelves, as you see on the left, in Antarctica 
are retreating and thinning. The glaciers are shrinking, and 
the ecosystems are changing. In some places, the plants are 
flowering significantly early.
    These changes do have human impacts, both locally and 
globally. Alaskan villages have been moved to higher ground. 
Buildings in northern communities have had to be moved. And 
rising sea level continues to be a global concern. 
Understanding the poles is important for understanding the 
inclinations of environmental change.
    So one motivation is environmental change.
    But although we have made tremendous progress in science, 
and although the maps I showed you are much richer than they 
were 100 years ago, the maps aren't blank, and the--but the 
frontiers and the unknowns have actually gotten broader. We now 
know that there are frontiers from the molecular scale, like 
Donal's studies, to the continental scale, like I study. 
Questions like how can certain nematodes survive at -2 degrees 
Fahrenheit? How is it that polar fish evolve antifreeze 
proteins in their cells? And what will happen to the under-ice 
ecological communities as we see the environment change? And 
what happens to the water beneath these large lakes in 
Antarctica? There are still fundamental limits to our 
knowledge. These are the frontier questions that the science 
community is planning to address during the International Polar 
Year.
    The planning process identified five major challenges.
    First is the one I have alluded to, the large-scale 
environmental change. What is happening at the ends of our 
planet, and how does it affect the rest of our planet?
    The second is looking at conducting scientific exploration 
of these new frontiers, molecular to continental.
    Third is observing the polar regions in depth.
    Fourth is looking at the human dimensions of the 
environment, recognizing that now, we, as humans, are a 
discreet part of this environment.
    And finally, looking for those new connections, looking at 
how we can reach out to the public to build new connections 
between the science and the public.
    So one of the distinct differences of this polar year is 
the inclusion of the human face. We will, in fact, as a science 
community, be looking more at how human beings are part of the 
global community and how the communities in the north are part 
of the global system.
    So what is going to be the outcome?
    I think, in essence, we should be thinking about what the 
societal benefits of the International Polar Year are. As it is 
emerging, the science programs are multi-faceted and multi-
disciplinary, and so the results and the benefits will be both 
multi-faceted and multi-disciplinary. So it is going to advance 
our fundamental understanding of the planet. It is going to--
whether it is the polar ecosystems or sub-glacial terrains. It 
will improve our understanding of the processes of change that 
are--and how they are influencing society, especially the 
inhabitants of the north. It will inspire the spirit of 
discovery across all ages and help us develop the next 
generation of our leaders in science, engineering, industry, 
commerce, and government. It will also demonstrate that, even 
in the most difficult times, science can be a very powerful 
arena for international cooperation.
    So why should the vast majority of us who live in warmer 
parts of the Earth, whether it is New York or South Carolina, 
care about IPY? The poles are physically distinctive, but they 
are critical links. So I would like you to think about this. I 
am going to do this experiment, but I would like you to think 
about what happens. If you hold an ice cube in your hand, you 
know, just imagine holding it. What you start to feel is you 
start to feel the melting at the ends. While your fingers are 
melting at the ends, you can actually feel the water dripping 
down across the ice cube and down your arm. The changes from 
the warmth of your fingers are actually being conducted to the 
ice cube.
    The relationship between the poles and the rest of the 
planet is very similar to that ice cube. The relation--the 
polar oceans play a critical role in maintaining ocean currents 
that keep coastal Europe warm and the ice cover that covers 
both continents reflects much of the solar energy and is a 
critical part of the equation of how our planet remains 
habitable. Melting ice sheets will raise sea levels and 
threaten the global communities around the world. Polar regions 
are the integral component of the Earth system that respond to 
and drive changes elsewhere.
    So, in conclusion, from assessing long-scale environmental 
change in the polar regions, to pushing the frontiers of 
science, the International Polar Year really is a scientific 
opportunity for everyone.
    Thank you very much, and I am more than welcome to address 
questions.
    [The prepared statement of Dr. Bell follows:]
               Prepared Statement of Robin Elizabeth Bell

                  INTERNATIONAL POLAR YEAR 2007-2008:
                    THE OPPORTUNITY OF A GENERATION

    Good Morning. Thank you very much for inviting me to speak about 
International Polar Year 2007-2008. The International Polar Year (IPY) 
is the scientific opportunity of a generation for our nation, for our 
society, and for our planet.
    My name is Robin E. Bell, Ph.D. from Columbia University's Lamont-
Doherty Earth Observatory, where I am a Doherty Senior Research 
Scientist. I am a geophysicist by training and at Columbia I lead major 
geophysical programs on the stability of ice sheets including 
subglacial lakes. I also direct Columbia's NSF sponsored ADVANCE 
program, aimed at recruiting and retaining women in science. I was the 
first women to lead a major aerogeophysical program from the Antarctic 
continent, and this has been the focus of much of my research for the 
past two decades.
    In addition to my research, I chair the National Research Council's 
Polar Research Board, which acts as the national coordinating committee 
for IPY. The Research Council is the operating arm of the National 
Academy of Sciences, National Academy of Engineering, and the Institute 
of Medicine, chartered by Congress in 1863 to advise the government on 
matters of science and technology. I served as the Co-Chair of the 
International Council for Science's (ICSU) initial IPY Planning Group, 
which developed the first major international IPY planning document, 
``A Framework for International Polar Year.'' I currently serve on the 
ICSU-WMO Joint Committee for IPY, the main international planning 
group.
    Today I will provide an overview of why IPY is happening and why 
it's important to us here in the United States. What has motivated more 
than 5000 scientists from some 63 nations to decide to participate in a 
year devoted to polar studies and education? I'll highlight the major 
science questions that will be addressed, outline the role that U.S. 
scientists and science managers have been playing developing IPY, and 
conclude with thoughts on the many societal benefits that can result 
from the IPY.
    In this era of instant communications and global connectivity, it 
might seem surprising that the global scientific community is so 
excited by a scientific strategy that was developed more than 100 years 
ago. Because it was indeed back in 1882-1883 that the idea of holding a 
focused, internationally-coordinated year of polar research--an 
International Polar Year--was first developed. At that point in 
history, the poles were blank white spaces on maps and the cutting edge 
communications technology was the telegraph. The decision to coordinate 
with other nations rather than compete, and to focus on research to 
understand polar phenomena rather than acquisition of territory, was 
something new and exciting. That first IPY in 1882-83 and subsequent 
ones in 1932-33 and the International Geophysical Year (IGY) in 1957-
58, drew great minds and generated great leaders; these ``international 
years'' set a precedent of cooperation in science that, while 
innovative at the time, is considered the norm today.
    Today's scientists are similarly motivated by society's need for 
integrated global knowledge. There is still a fundamental human need to 
push the limits of our understanding about polar phenomena. The polar 
regions are integral components of the Earth system. As the heat sinks 
of the climate system they both respond to and drive changes elsewhere 
on the planet. While environmental change and variability are part of 
the natural pattern on Earth, the environmental changes currently 
witnessed in the polar regions are in many cases more pronounced than 
changes observed in the mid-latitudes or tropics. The Arctic sea ice 
cover is decreasing; some ice shelves in Antarctica are retreating and 
thinning; glaciers are shrinking; and ecosystems are changing, for 
instance, with plants flowering at earlier times. These changes are 
having human impacts: some Alaskan villages have been moved to higher 
ground in response to rising sea levels, and thawing of permafrost is 
undermining roads and buildings in northern communities around the 
world. We must understand the implications of environmental change for 
the future of our global society.
    Although we've made tremendous progress in all science over the 
past 100 years, the polar regions are still at the frontiers of human 
knowledge. The maps aren't quite as blank, but the frontiers and 
unknowns have actually increased, and range from the molecular, to the 
ecological, to the continental. How is it that certain microbes can 
survive at minus two degrees Fahrenheit, that certain nematodes live 
even when ice forms in their cells, that polar fish species have 
evolved with an antifreeze protein in their blood? What will happen to 
the unique under-ice ecological communities of the Arctic, which are 
the base of the Arctic food web, as ice conditions change and new 
species arrive from southern waters? In just the last 10 years we 
discovered more than 150 subglacial lakes that exist under the ice in 
Antarctica. These range in size from something similar to the 
reflecting pool on the Mall to a lake the size of Lake Ontario. Why are 
these lakes important? They are thought to contain exotic ecosystems; 
the water in these lakes is part of the subglacial plumbing system that 
can be thought of as the lubricant that makes the ice sheet flow 
faster.
    At its most fundamental level, IPY 2007-2008 is envisioned to be an 
intense, coordinated field campaign of polar observations, research, 
and analysis that will be multi-disciplinary in scope and international 
in participation. IPY will provide a framework to undertake projects 
that normally could not be achieved by any single nation. It allows us 
to think beyond traditional borders--whether national borders or 
disciplinary constraints--toward a new level of integrated, cooperative 
science. A coordinated international approach maximizes both impact and 
cost effectiveness, and the international collaborations started today 
will build relationships and understanding that will bring long-term 
benefits. Within this context, IPY will seek to galvanize new and 
innovative observations and research while at the same time building on 
and enhancing existing initiatives. IPY will serve as a mechanism to 
attract and develop a new generation of scientists and engineers with 
the versatility to tackle complex global issues.
    In addition, IPY is clearly an opportunity to organize a range of 
education and outreach activities designed to excite and engage the 
public, with a presence in classrooms around the world and in the media 
in varied and innovative formats. The IPY will use today's powerful 
research tools to better understand the key roles of the polar regions 
in global processes. Automatic observatories, satellite-based remote 
sensing, autonomous vehicles, Internet, and genomics are just a few of 
the innovative approaches for studying previously inaccessible realms. 
IPY 2007-2008 will be fundamentally broader than past international 
years because it will explicitly incorporate multi-disciplinary and 
interdisciplinary studies, including biological, ecological, and social 
science elements.
    IPY 2007-2008 is an opportunity to deepen our understanding of the 
polar regions and their global linkages and impacts, and to communicate 
these insights to the public. IPY planners have identified five broad 
scientific challenges to be addressed:

        <bullet>  Assessing large-scale environmental change in the 
        polar regions, with questions looking at both the physical and 
        human dimensions of change and its impacts.

        <bullet>  Conducting scientific exploration of ``new'' 
        frontiers, whether these are once inaccessible places beneath 
        the ice sheet, or areas of inquiry that are now open because of 
        advances in technology, such as how the tools of genomics now 
        allow exploration of previously unanswerable questions about 
        biological adaptation.

        <bullet>  Observing the polar regions in depth, with adequate 
        coverage of the vast and challenging landscape, to provide a 
        description of current conditions and allow for better future 
        understanding of variability and change.

        <bullet>  Understanding human-environmental dynamics in a 
        region where the connections are intimate and where the impacts 
        of change are clear.

        <bullet>  Creating new connections between science and the 
        public, using these regions that are inherently intriguing.

    One of the major differences between the first two IPYs and IGY and 
our upcoming IPY 2007-2008 is the recognition that the physical world 
and the biological world and human society are intimately interrelated. 
This upcoming IPY is inherently about not just science, but science in 
support of human interests. It includes work in engineering, medicine, 
sociology, and human-environment interactions. The present map of 225 
IPY projects highlights the geographic and discipline breadth of the 
IPY 2007-2008. Each cell represents a major program with an 
international team of scientists working together to advance our 
knowledge of our planet--producing a tremendous multiplicative effect. 
The net result will be a huge leap forward in our understanding of 
polar processes--physical, biological and social--and their global 
connections.
    Previous IPY efforts were characterized by very top down planning 
and generally driven by the military. For example, under the oversight 
of Abraham Lincoln's son, Robert Todd Lincoln, then head of the 
Department of War, the U.S. participation in the first IPY in 1882-83 
was led by the Army. The science priorities for our upcoming IPY, on 
the other hand, emerged from grass roots planning, international 
scientific groups, U.S. agency input, and help from the U.S. National 
Academy of Sciences and National Academy of Engineering.
    Beginning in 2002, with the support of more than two dozen members, 
the National Academies invested some of its own endowment funds to 
launch the IPY planning process within the U.S. The chair of that first 
effort was Dr. Mary Albert of the Army's Cold Regions Research and 
Engineering Laboratory. She led a committee that sought wide input on 
whether the U.S. should participate in IPY and, if so, what we should 
hope to accomplish. The committee led a series of web discussions, gave 
talks at numerous professional meetings, met with agency leaders, 
hosted a multi-day workshop, and compiled contributions from 13 federal 
agencies into an initial planning document. The report, ``A Vision for 
International Polar Year 2007-2008,'' was released early in 2004 and 
came to be the foundation for much of the international planning as 
well. (A summary of this report is attached to my testimony.) This 
early investment of financial and intellectual capital put the U.S. in 
a position to play a leadership role in planning the IPY 
internationally.
    Today, four years after the planning for IPY began, over 225 
projects have been proposed as part of IPY around the globe. Of these, 
the U.S. plays a leadership role in 52 projects (20 percent) and is 
participating in 80 percent. This ``honeycomb diagram'' provides an 
illustration of the breadth of activities, with projects at both poles, 
across disciplines, and across nations. Right now, everything is still 
conceptual--what will actually happen on the ground is still being 
determined, both here and in other nations. There is an international 
IPY Programme Office, staffed by Dr. David Carlson and hosted in 
Cambridge, England, by the British Antarctic Survey. There is also an 
international planning committee, called the Joint Committee, of which 
I am a member, and various subcommittees devoted to data management, 
observation systems, and education and outreach. It's a very lean 
administrative organization for such a complex undertaking.
    While planning for IPY started with the scientific community, all 
the federal agencies with cold regions responsibilities are having 
roles in implementation. When the National Academies hosted a workshop 
to encourage agency coordination in 2004, 13 agencies participated. At 
the request of the White House, the National Science Foundation is 
serving as the lead federal agency. (In Alaska, the University of 
Alaska Fairbanks has stepped forward as the state-wide leader.) NSF has 
shown real leadership in its role, holding interagency planning 
meetings, initiating a multi-agency web site, and establishing 
mechanisms so that science and education/outreach proposals are in the 
process of being funded. The National Academies continues to provide 
coordination through the Polar Research Board, which acts as the U.S. 
National Committee for IPY. The Polar Research Board hosts an IPY web 
site, distributes an IPY e-newsletter, communicates information to and 
from the international Joint Committee, and holds meetings as needed to 
accomplish IPY planning and coordination. Continuing to serve in this 
coordinating role, in early October, the Polar Research Board will be 
hosting a meeting of the IPY secretariats so the staff working on IPY 
behind-the-scenes have an opportunity to coordinate.
    In conclusion, I want to think ahead about the societal benefits of 
the International Polar Year. Just as the IPY and the emerging science 
programs are multifaceted and multi-disciplinary, the benefits of the 
IPY will be multifaceted and multi-disciplinary. The IPY will advance 
our fundamental understanding of our planet--from the polar ecosystems 
to the subglacial terrains. The IPY will improve our understanding of 
the processes of change and that complex double-edged sword of how 
society is influencing change and how change is influencing society--
especially the inhabitants of the north. The IPY will inspire a spirit 
of discovery across all ages and help us develop the next generation of 
our nation's leaders in science, engineering, education, industry, 
commerce, and government. At the international level, IPY will again 
show that even in the most difficult times, science can be an arena of 
international cooperation. IPY will foster the continued peaceful use 
of the polar regions, engage new partners in the global science 
community, and leverage precious scientific and logistical resources so 
that, in essence, we get more from our investments.
    Why should the vast majority of us, who live in the warmer regions 
of the Earth, care about IPY? The polar regions, while physically 
distant, are critical links in the global climate system. Does this 
matter for the rest of the planet? Imagine holding an ice cube between 
your thumb and your forefinger. Beneath your fingers a pool of water 
forms quickly. The water will drip down your arms and down the ice 
cube. The changes at the end driven by the warmth of your fingers are 
transferred across the entire ice cube. The relationship between the 
poles to the rest of the globe are the same. The polar oceans play a 
critical role in maintaining ocean currents that keep coastal Europe 
much warmer than it would be otherwise, and the sea ice cover modifies 
Earth's surface temperature by reflecting solar energy. Melting ice 
sheets will raise sea levels, threatening coastal communities around 
the world. The polar regions are integral components of the Earth 
system that both respond to and drive changes elsewhere on the planet.
    The polar regions also hold unique information of Earth's past 
climate history, and they are growing in economic and geopolitical 
importance. They are a unique vantage point for studies that will help 
scientists understand environmental changes in the context of past 
changes, which in turn will help us make informed choices for our 
future. The exploration of new scientific frontiers in the polar 
regions also will lead to new discoveries, insights, and theories 
potentially important to all people.
    In summary, International Polar Year 2007-2008 will leave us 
important legacies:

        --  an improved understanding of environmental status and 
        change,

        --  more comprehensive data and the ability to understand 
        trends in the future,

        --  improved observation systems to capture future 
        environmental change,

        --  a continued spirit of exploration into new frontiers of 
        science,

        --  a new and inspired generation of scientifically literate 
        citizens and leaders,

        --  an enhanced level of international cooperation to address 
        global scale issues.

    Thank you for your time. I'd be happy to answer any questions.
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                   Biography for Robin Elizabeth Bell

Born: May 29, 1958, Keene, New Hampshire, U.S. Citizen

(A) PROFESSIONAL PREPARATION:

1977-1980  Middlebury College, B.A. (magna cum laude), Geology, 1980

1982-1989  Columbia University, M.S., M. Phil, Ph.D., May 1989

2006  Honorary Doctor of Science Degree Middlebury College

(B) APPOINTMENTS:

1999-present  Doherty Senior Research Scientist, Lamont-Doherty Earth 
        Observatory of Columbia University (LDEO); Director, Columbia 
        University Earth Institute's Center for River and Estuaries 
        (2003-present); Director, Earth Institute ADVANCE Initiative 
        (2004-present)

1994-2000  Co-Director, Support Office for Aerogeophysical Research, 
        (SOAR), Institute for Geophysics, University of Texas at Austin

1996-1999  Research Scientist, LDEO

1991-1996  Associate Research Scientist, LDEO

1989-1991  Post-Doctoral Research Associate, LDEO

1982-1989  Graduate Research Assistant, LDEO

1980-1982  Geophysicist, U.S.G.S., Marine Office, Woods Hole, MA.

(C) PUBLICATIONS:

Related Publications:

2006  Bell, R.E., M. Studinger, M.A. Fahnestock, and C.A. Shuman, 
Tectonically controlled subglacial lakes on the flanks of the 
Gamburtsev Subglacial Mountains, East Antarctica, Geophys. Res. Lett. 
33 (2) L02504 10.1029/2005GL025207.

2005  R.E. Bell, M. Studinger, A. Tikku, J.D. Castello, Ancient Ice and 
Subglacial Lake Environments: Lake Vostok as an Example. In: Life in 
Ancient Ice Proc., edited by J.D. Castello, and S.O. Rogers Princeton 
University Press, ISBN: 0-691-07475-5, pp. 251-267.

2004  Studinger, R.E. Bell, A.A. Tikku, Estimating the depth and shape 
of subglacial Lake Vostok's water cavity from aerogravity data, 
Geophys. Res. Lett. 31, doi:10.1029/2004GL019801.

2003  M. Studinger, R.E. Bell, G.D. Karner, A.A. Tikku, J.W. Holt, D.L. 
Morse, T.G. Richter, S.D. Kempf, M.E. Peters, D.D. Blankenship, R.E. 
Sweeney and V.L. Rystrom, Ice cover, landscape setting, and geological 
framework of Lake Vostok, East Antarctica, Earth and Planetary Science 
Letters 205(3-4), pp. 195-210.

2004  M. Studinger., Bell, R.E., Buck, W.R., Karner,G.D., and 
Blankenship, D.D., Sub-ice geology inland of the Transantarctic 
Mountains in light of new aerogeophysical data, Earth Planet. 220, pp. 
391-408.

Other Significant Publications

2005  Bell, R.E., Studinger, M., Karner, G.D., Finn, C.A., and 
Blankenship, D.D., Identifying Major Sedimentary Basins Beneath the 
West Antarctic Ice Sheet from Aeromagnetic Data Analysis, in 
Antarctica, Contributions to Global Earth Science, Proceedings of the 
9th ISAES, Springer Verlag, pp. 117-121.

2002  R.E. Bell, M. Studinger, A. Tikku, G.K.C. Clarke, M.M. Gutner, C. 
Meertens, Origin and fate of Lake Vostok water frozen to the base of 
the East Antarctic ice sheet, Nature 417, pp. 307-310, 2002.

2001  M. Studinger., Bell, R.E., Blankenship, D.D., Finn, C.A., Arko, 
R.A., Morse, D.L., and Joughin, I. Subglacial Sediments: A Regional 
Geological Template for Ice Flow in West Antarctica, Geophys. Res. 
Lett. 28(18), pp. 3493-3496, 2001.

1998  R.E. Bell, D.D. Blankenship, C.A. Finn, D. Morse, T. Scambos, 
J.M. Brozena, and S.M. Hodge, Influence of Subglacial Geology on the 
Onset of a West Antarctic Ice Stream from Aerogeophysical Observations, 
Nature 394, pp. 58-62.

1993  D.D. Blankenship, R.E. Bell, S.M. Hodge, J.M. Brozena, J.C. 
Behrendt, C.A. Finn, Active volcanism beneath the West Antarctic ice 
sheet and implications for ice-sheet stability, Nature 361, pp. 526-
529.

(D) SYNERGISTIC ACTIVITIES

(i) Committees:

2004-present  Member, ICSU WMO IPY Joint Committee

2003-2004  Co-Chair for the ICSU International Polar Year 2007/8 
        Planning Group

2002-present  Chair, Polar Research Board, National Academy of Sciences 
        Polar Research Board (member 2001-present)

1999-present  Steering Committee, SCAR Committee on Subglacial Lake 
        Exploration

1998-present  U.S. representative to the Scientific Committee on 
        Antarctic Research Geophysics Section.

(ii) Recent Invited Talks:

    Antarctic Treaty Meeting in South Africa--IPY, IPY Keynote Speakers 
for XXVIII SCAR Meeting Bremen, Germany, Interagency Working Group for 
IPY--Guest Lecturer, American Museum of Natural History-Biodiversity, 
New York State Department of Dredging and Disposal, SCAR Lake Vostok 
Meeting, AAAS--Frontiers in Polar Science, New York State Department of 
Conservation, Institute for Ecosystem Studies, National Maritime 
Historical Society, NY League of Conservation Voters Hudson Forum.

(iii) Instructor:

    Barnard College, ``Exploring the Poles,'' Columbia, ``Geophysics.''

(iv) Other Activities:

    Reviewer--Geophysics, NSF, NASA and JGR.

(E) COLLABORATORS

(i) Collaborators: M. Bain (Cornell), D. Blankenship (UTIG), J. Brozena 
        (NRL), S. Cande (SIO), R. Cerrato (SUNY), G. Clarke (UBC), S. 
        Findlay (IES), C. Finn (USGS), R. Flood (SUNY), C.A. Raymond 
        (JPL), M. Siegert (Bristol), D. Strayer (IES), U. ten Brink 
        (USGS).

(ii) Advisors: A.B. Watts (Oxford).

(iii) Advisees: Vicki Childers (NRL).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Inglis. Thank you, Dr. Bell.
    Dr. Manahan.

   STATEMENT OF DR. DONAL T. MANAHAN, PROFESSOR OF BIOLOGY, 
               UNIVERSITY OF SOUTHERN CALIFORNIA

    Dr. Manahan. Good morning, Mr. Chairman, Ranking Member 
Hooley. Thank you so much for the opportunity to speak to you 
today. And thank you, too, for your fine comments about my 
efforts as a teacher. I hope I won't let you down here this 
morning in a couple of moments.
    Chairman Inglis. The pressure is on, isn't it?
    Dr. Manahan. Indeed, yes.
    My name is Donal Manahan. I am a professor of biological 
sciences at the University of Southern California. I have 
conduced research as a chief scientist and field-team project 
leader in Antarctica for over 20 years. What I am going to talk 
about today is the upcoming IPY, the International Polar Year. 
And I am going to do that under the context of four questions: 
what are the most critical unanswered questions that we need to 
resolve during this IPY, why educational and research 
activities during IPY are important to us here in the United 
States, and the general societal benefits from IPY. I will 
focus most of my comments on Antarctica, as other colleagues on 
the panel here today will discuss other aspects and regions of 
polar research.
    Think of this. Even after centuries of geographic 
exploration of the human spirit, it was really only about 50 
years ago that we came to grapple with the seventh continent, 
as illustrated here by this National Geographic front page of 
this magazine published in the 1960s where it says, ``We are 
filling in the blank spaces in Antarctica. The map we are 
showing is a revolution in understanding this seventh 
continent.'' And that, frankly, 40 to 50 years ago was in--
within my lifetime. That is a remarkable issue that Antarctica 
has taken us this long to really get a handle on. And this is 
just describing its geography.
    Shoot forward 40 years later, and what we are learning from 
this continent and for polar regions in general, is illustrated 
on this front page of Science Magazine published a few years 
ago, and it discusses polar science in general and its 
importance. and the lessons we have learned from the studies of 
the pole is two-fold: first, it has really surprised scientists 
at how quickly things have changed down there, the ``ozone 
hole'' 20 years ago really dumbfounded and surprised many 
scientists it occurred so fast; secondly, issues of rising 
temperatures collapsing ice sheets. All of these issues, which 
have really come to the forefront in the last few years in a 
consensus among the scientific community, are of enormous 
societal benefit, no matter where you live on this planet.
    As it is picked up in terms of explaining this to the 
public in general, I draw to your attention this interesting 
issue of Time Magazine, which discussed the whole concept and 
put it very bluntly on the front page: ``Be Worried. Be Very 
Worried'', to use their words. This threatens your health. It 
affects you, your kids, and your kids' kids. And they 
introduced the concept of a tipping point.
    Now when I was in graduate school 20 years ago, I was 
informed that these kinds of changes took thousands to perhaps 
millions of years to occur. Now we know they can occur on 
timescales of perhaps 10 to 100 years, the lifetimes--life 
spans of single human beings. This is the concept of the 
tipping point. We need to know more about these tipping points 
to have any hope of being able to predict the massive changes 
that may occur on our planet.
    What have we learned in the last 50 years?
    Well, if we go back 50 years to the International 
Geophysical Year, this illustrates, I think, two points in a 
nutshell. Firstly, it was mainly focused on the geosciences, 
trying to understand Earth as a system. And it introduced, 
also, a very important concept. Look at this beautiful, lonely 
planet sitting out in dark space. These things had a huge 
impact on me as a kid, actually as a kid growing up in Ireland, 
with the Apollo programs, seeing America as the dominant player 
in science at the time and to this day, watching to see how 
this whole concept of understanding planet Earth was being so 
pioneered by the scientists here in the United States when I 
was a young kid.
    When I look at this now where we are going in the future, 
what I see IPY doing is building upon that but expanding it in 
some very important ways: introducing the concept of cross-
disciplinary research; looking at the life sciences, the 
chemical sciences, the physical sciences, and also, most 
importantly, the social sciences; and looking at all of these 
in the context of complex systems, spanning all of the way from 
bio-systems, whether it be a human or organisms where we would 
look at, perhaps, issues of adaptation at the cellular and the 
molecular level, all of the way up through ecosystems of the 
geosystems. They are all interconnected.
    It is very important to emphasize the educational issues 
here. And here, if you may allow me to put in a personal note, 
I am a father of two young boys in school. I am a scientist. I 
am a professor. And I am also highly aware of the fact, 
especially as an immigrant to this country, that I have been 
treated very well. I have received taxpayers' money for a long 
time to conduct research in these isolated environments. I feel 
very passionately about needing to communicate this back into 
the general community and the public at large. And here we have 
a great opportunity. Of the thousands of lectures that I have 
probably given in a quarter of a century of my time in America, 
few have the impact on little kids all of the way up to retired 
citizens as when I talk about my polar research. I do genomics, 
molecular biology, biochemistry. ``Yes, yes, yes, Professor 
Manahan, but what about your polar research?'' This really 
grabs people, as I think it did when you visited the ice 
yourself. And that is a big opportunity we have with IPY to 
educate the U.S. population in the issues of excitement in 
science, technology, and literacy.
    But we also have a very large challenge, and that challenge 
is how do we train the next generation? It is very easy for me 
to sit here and say, ``Think across disciplines: physics, 
chemistry, biology, social sciences, and off you go and do your 
stuff, next generation.'' Our challenge is to find new, 
innovative ways to keep Americans ahead of the international 
competitive race in science and learning and education. And one 
way we are going to do this during International Polar Year is 
we are going to bring some of the best and the brightest 
students in the United States to Antarctica to have the 
experience that you had, to be there, not just for four days, 
but for a month or so, to live and work and understand this 
environment, to actually do on-the-ice training. And we think 
this is a very important component.
    [Slide.]
    The pictures you see here are some programs we have done in 
the past. NSF has taken a remarkable lead in this over previous 
years. The first country in the world to offer a graduate-level 
course on the seventh continent was sponsored by the leadership 
of the National Science Foundation. All of the students you see 
here were part of previous courses, with the obvious exception 
of the penguins, of course, who were less cooperative.
    If I may conclude with a couple of comments.
    Firstly, I want to say that, in my opinion, the timing of 
launching a new International Polar Year is perfect. The 
reasons for this go far beyond that it is just merely the 50th 
anniversary of IGY, although that, in itself, is a very valued 
reason. The general public is certainly highly aware that the 
study of polar regions is critical to understanding our Earth. 
Scientific interest is very high in wanting to have accurate 
information about polar regions and their role in climate 
stability and global processes. That is the key issue with 
respect to societal impact. In addition, of course, we have 
unique educational opportunities that are both vast and 
exciting.
    Again, thank you for the opportunity to speak today. I 
would be pleased to address any questions that you may have.
    Thank you.
    [The prepared statement of Dr. Manahan follows:]

                 Prepared Statement of Donal T. Manahan

    Good morning, Mr. Chairman and Members of the Committee. Thank you 
for the opportunity to speak to you today as you consider the 
scientific agenda and the federal role for the International Polar 
Year.
    My name is Donal Manahan. I am a Professor of Biological Sciences 
at the University of Southern California (USC). I have conduced 
research as a chief scientist and field-team project leader in 
Antarctica for over 20 years. I have previously served as the Chair of 
the National Research Council's Polar Research Board for three years 
(1999 to 2002). The National Research Council is the operating arm of 
the National Academy of Sciences, National Academy of Engineering, and 
the Institute of Medicine of the National Academies, chartered by 
Congress in 1863 to advise the government on matters of science and 
technology. In addition to my teaching and research experiences at my 
university, I have served as Director of environmental science programs 
for both undergraduate education and graduate research; have been the 
Chair of the USC Department of Biological Sciences; and Dean of 
Research for the USC College of Letters, Arts, and sciences.
    My comments today will address the upcoming International Polar 
Year (IPY, March 2007 through March 2009) in the context of (i) what 
has been learned from polar research and IPYs in the past; (ii) what 
are the most critical unanswered questions that we hope to resolve 
during this IPY; (iii) why educational and research activities during 
IPY are important to us here in the U.S.; and (iv) the societal 
benefits of IPY. I will focus most of my comments on Antarctica. I 
believe my colleagues on this panel will address other aspects and 
regions of polar research.
    Regarding current impact from past IPYs, accurate scientific 
knowledge and current public awareness of the importance of polar 
regions to our planet as a whole is still a fairly recent occurrence. 
For instance, in 1963 National Geographic released a map of Antarctica 
that [quote] ``revolutionizes our conception of its geography.'' Taken 
in the context of the many centuries of geographic exploration of our 
Earth, it is quite remarkable that it was only about 40 years ago that 
more accurate maps of Antarctica emerged. Such maps still continue to 
be refined to this day. Antarctica has long been considered to be the 
``last and loneliest of the seven continents'' (National Geographic, 
1963). Following the ``Heroic Age'' of early exploration of polar 
regions in the late 19th and early 20th Centuries, the modern 
understanding of Antarctica began in earnest with the great 
international effort of IPY3--The International Geophysical Year of 
1957-58. Yet the growth of awareness of the importance of polar regions 
by many educators, scientists, and the public in general (i.e., by 
those not already living in polar regions) is a fairly recent 
occurrence. I will expand further on this point, as I believe it is 
important in the context and timing of the next IPY.
    Both polar regions of our planet are now known to be capable of 
undergoing very rapid change. In the mid-1980s, the rapid opening of 
the ``Ozone Hole'' over Antarctica was certainly one of the great 
surprises in environmental science during the latter part of the 20th 
Century. Rapid rates of change for important processes in polar 
regions, such as ice sheet stability, ozone chemistry and biological 
rates, have surprised many scientists. Announcements of these rapid 
changes have also surprised the public at large. Today phrases and 
concepts such as ``Abrupt Climate Change'' and ``Surprises'' regarding 
our environment are now in common use in scientific publications, in 
media presentations, and in educational settings. The recent National 
Academy Press publication on ``Abrupt Climate Change: Inevitable 
Surprises'' provides an excellent report on this subject of rapid 
change. There is no doubt in my mind that further research in polar 
regions is absolutely essential for understanding our planet and for 
being better able to predict environmental change and its impact on 
life on Earth.
    The specific research questions that will be addressed during this 
next IPY are still under review through our own national agencies and 
through collaborations with international partners. As I believe will 
be highlighted by others during this hearing, the current list of 
potential educational and research projects is extensive. Here I would 
like to compliment NSF, the National Academies' Polar Research Board 
and other polar scientific groups and agencies for doing an excellent 
job of coordinating these complex national and international activities 
and for helping raise awareness of the importance of polar research.
    Regarding the approach to undertaking future research, one 
important point that I do want to emphasize is that the next IPY will 
differ from previous ones in enhancing our understanding of polar 
regions through novel, cross-disciplinary research. For instance, 
during the International Geophysical Year in the 1950s, the focus then 
was more on the physical sciences. For the next IPY, the scientific 
focus will be more cross-disciplinary--involving biological, chemical, 
physical, and social sciences to better understand polar regions. In my 
own area of expertise, the biological sciences, I foresee an exciting 
interplay between the physical and the life sciences. An example of 
such collaboration is that as physical scientists provide a better 
understanding and predictability of temperature change, biologists will 
be better able to undertake more realistic experiments to define 
biological responses of organisms to such changes (e.g., temperature 
adaptation, timing of life cycles, and other ecological changes). 
Research during IPY will certainly span from the scale of individual 
molecules and genes to the larger scale of whole oceans and continents.
    A point that is not often widely appreciated is that most of the 
potential habitats where life might exist on our planet are cold. By 
volume, the ``Cold Biosphere'' represents approximately 90 percent of 
the living biosphere on Earth, with temperatures less that four degrees 
C (``home refrigerator'' temperatures). Most of this cold biosphere is 
in the deep sea (79 percent by volume of the biosphere: Broad, 1998) 
and in polar regions. Further biological research in polar regions will 
substantially increase our understanding of the ``Cold Biosphere'' and 
its role in the sustainability of life on Earth. New research themes 
under consideration for IPY, such as NSF's ``Life in the Cold and 
Dark,'' will be key to understanding critical questions regarding life 
in polar regions and in the cold biosphere in general.
    A major success of past IPYs, and in particular IGY, was the 
important legacy that continued into the future from training the next 
generation of scientific leaders in the U.S. This legacy of excellent 
science and training from IGY, started about 50 years ago, is still 
active today. For the next IPY, we must strongly encourage the active 
involvement and advanced training of the next generation of polar 
scientists. This, of course, must include outreach and educational 
activities to students of all ages, and to the general public, to 
encourage interest and careers in science and engineering. 
Additionally, during IPY we need to develop innovative educational and 
training programs designed to bring young scientists at the Ph.D. level 
to polar regions. We need to actively engage these young scientists in 
polar research by having them actually work ``on the ice'' during IPY. 
To this end, an international training program in Antarctic science 
(NSF-funded: ``Integrative Biology and Adaptation of Antarctic 
Organisms'') is planned for January 2008 at the U.S. Antarctic 
Program's McMurdo Station in Antarctica. This program (that I have 
directed in the past and will continue to direct in IPY 2008) will 
involve bringing highly-qualified young investigators, selected from 
universities all over the U.S. and some from international 
institutions, to Antarctica for the first time in their scientific 
careers. This next generation of potential leaders in polar science 
will be provided with intense training programs during which they will 
be exposed to the unique research opportunities in Antarctica. Training 
these individuals to conduct science in Antarctica ``on the ice'' will 
be a very different experience from learning about polar science from 
traditional classroom settings in the U.S.
    I believe the societal benefits from undertaking further polar 
research will be immense. First, Antarctica holds a fascination for the 
general public. Second, there has been a dramatic recent increase in 
the public's awareness of the importance of polar regions in impacting 
events on a global scale (e.g., strong media coverage of ice sheet 
stability, with obvious implications for potential sea-level rise 
globally). Third, further research in polar regions will yield 
important insights into the connectivity of polar regions to the rest 
of Earth. In fact, the polar regions often drive fundamental processes 
in other parts of the world (e.g., major ocean currents and oceanic 
circulation patterns, with global implications for climate stability).
    As a Principal Investigator and polar scientist myself, I will add 
a few comments here from my own experiences. In my more than 20 years 
of working in Antarctica, I have never before personally experienced 
such a widespread and intense interest by the general public in 
research in polar regions. In addition to increased interest in polar 
biology at scientific conferences and professional meetings, I receive 
numerous requests to speak about polar science at career days of 
elementary, middle, and high schools; to speak in a wide range of 
university settings, including discipline groups outside of the natural 
sciences; to address communities of retired citizens; and to present at 
natural history and community science museums. I attribute much of this 
recent surge in public interest about the state of our environment to 
be the result of highly publicized scientific discoveries in physics, 
chemistry and biology of polar regions.
    I will conclude my comments here today by saying that, in my 
opinion, the timing is now most appropriate to launch a new IPY. The 
reasons for this go far beyond the timing of the 50th anniversary of 
IGY, although that is a valued reason too. The general public is 
certainly highly aware that the study of polar regions is critical to 
understanding our Earth. Scientific interest is high in wanting to have 
accurate information about polar regions and their role in climate 
stability and global processes.
    Again, thank you for the opportunity to speak with you today. I 
would be pleased to address any questions that the members of the 
Subcommittee may have.

References:

Broad, W.J., 1998. The Universe Below: Discovering the Secrets of the 
        Deep Sea, 432 pp.

National Geographic, 1963. Filling in Antarctica's Blank Spaces, Volume 
        123: 297-298.

National Research Council, 2002. Abrupt Climate Change: Inevitable 
        Surprises, National Academy Press, Washington D.C. 230 pp.

                     Biography for Donal T. Manahan

Education and Professional Preparation:

Undergraduate Institution: BA, from Trinity College, Univ. of Dublin, 
        Ireland; Area of Focus: Zoology; Years: 1972-1976.

Graduate Institution: Ph.D., from University of Wales, Bangor, UK; Area 
        of Focus: Marine Physiology; Years: 1976-1980. Advisor: Prof. 
        D.J. Crisp, F.R.S.

Postdoctoral Institution: University of California, Irvine; Area of 
        Focus: Cellular Physiology; Years: 1980-1983. Advisor: Dr. 
        Grover C. Stephens.

Academic Appointments:

1983 to present: Assistant, to Associate, to Full Professor. Department 
        of Biological Sciences, University of Southern California, Los 
        Angeles, California 90089-0371.

Sept. 1992 to Sept. 1993: Visiting Faculty, Division of Biology, 
        California Institute of Technology, Pasadena, California 
        (sabbatical year in the laboratory of Dr. Eric Davidson).

Some Senior Administrative and Service Positions Held:

        <bullet>  NSF, Internal Advisory Committee, Director of NSF's 
        Office of Polar Programs (appointed February 2006).

        <bullet>  Chair, U.S. National Academies' National Research 
        Council's Polar Research Board (1999-2002) (member of Board, 
        1995-2002).

        <bullet>  NSF, Decadal Group--Planning Committee for Ocean 
        Sciences 2000 (1998-2001).

        <bullet>  Dean of Research, USC College of Letters, Arts and 
        Sciences (July 2000-June 2005).

        <bullet>  Chair/Vice Chair, USC Department of Biological 
        Sciences (Sept 1999-July 2000).

        <bullet>  Director, USC Research Division of Marine 
        Environmental Biology (1995-2000).

        <bullet>  Science Director, USC's Environmental Studies Program 
        (1995-2000).

Recent Awards:

For Service (2000 to present):

2000--a 6000-foot mountain in Antarctica named ``Manahan Peak'' for 
        contributions to Antarctic research, education, and service to 
        the science community.

2001--appointed a lifetime ``National Associate'' of the United States' 
        National Academies in recognition of [quote] ``extraordinary 
        service to the National Academies in their role as advisors to 
        the Nation in matters of science, engineering, and health.''

2005--University of Southern California, College of Letters, Arts and 
        Sciences Award for ``Outstanding Leadership and Service.''

Recent Awards for Research Papers (2000 to present):

Pace, D. and Manahan, D.T., 2000. Genetic variance and feeding rates in 
        bivalve larvae. National Shellfisheries Association Annual 
        Meeting, Seattle, Washington. Best Paper Award.

Green, A.J. and D.T. Manahan, 2004. Metabolic efficiency in fast-
        growing bivalve larvae. Society of Integrative and Comparative 
        Biology. Best Paper Award in Comparative Physiology and 
        Biochemistry.

Green, A.J. and D.T. Manahan, D.T., 2004. High growth efficiencies in 
        Antarctic larvae. Ocean Science Research Conference, American 
        Society of Limnology and Oceanography. Outstanding Poster 
        Award.

Yu, P.C., A.L. Moran and D.T. Manahan, 2004. Genetic variation in 
        survival and growth recovery following prolonged starvation of 
        invertebrate larvae. Ocean Science Research Conference, 
        American Society of Limnology and Oceanography. Outstanding 
        Poster Award.

Meyer, E., D. Hedgecock, and D.T. Manahan, 2006. Genomic analysis of 
        growth in larvae of the Crassostrea gigas. Annual Meeting of 
        National Shellfisheries Association, Monterey, California. Best 
        Paper Award.

Recent Grants and Funded Research Projects (active during 2000 to 
                    present):

1.  NSF. Larval Dispersal at Hydrothermal Vents. Co-investigators: L. 
Mullineaux (Woods Hole, MA), C. Young (Harbor Branch Oce. Inst.). 
Duration: April 1997 to Mar 2002.

2.  U.S. Dept. of Agriculture. Improving Pacific Oyster Broodstocks for 
Aquaculture. Co-investigators: D. Hedgecock (USC), C. Langdon (Oregon 
State Univ.). Duration: April 1997 to March 2002.

3.  NSF. Integrative Biology and Adaptation of Antarctic Marine 
Organisms. Duration: March 1998 to February 2006.

4.  W.M. Keck Foundation. Experimental Research in Evolutionary 
Biology. Co-investigators: M. Waterman, N. Arnheim, M. Nordborg (all at 
USC). Duration: January 2002 to February 2006.

5.  NSF. Energetics of Protein Metabolism during Development of 
Antarctic Echinoderms. Duration: April 2002 to March 2007.

6.  NSF. Genomic Approaches to Understanding Variation in Marine Larval 
Recruitment. Co-investigators: D. Hedgecock (USC), E. Hofmann (Old 
Dominion), E. Powell (Rutgers). Duration: July 2004 to June 2008.

7.  U.S. Dept. of Agriculture. Crossbreeding Pacific oysters for high 
yield. Co-investigators: D. Hedgecock (USC), C. Langdon (Oregon State 
Univ.). Duration: July 2004 to June 2008.

8.  NSF. Integrative Biology and Adaptation of Antarctic Marine 
Organisms. Graduate training grant with co-investigators. Duration: 
August 2005 to September 2010.

Five Selected Publications (past five years--2001 to 2006):

Pace, D.A., A.G. Marsh, P.K. Leong, A.J. Green, D. Hedgecock, and D.T. 
        Manahan, 2006. Physiological bases of genetically determined 
        variation in growth of marine invertebrate larvae: A study of 
        growth heterosis in the bivalve Crassostrea gigas. Journal of 
        Experimental Marine Biology and Ecology 335: 188-209.

Pace, D.A. and D.T. Manahan, 2006. Fixed metabolic costs for highly 
        variable rates of protein synthesis in sea urchin embryos and 
        larvae. Journal of Experimental Biology 209: 158-170.

Moran, A.L. and D.T. Manahan, 2004. Physiological recovery from 
        prolonged starvation in larvae of Pacific oyster Crassostrea 
        gigas. Journal of Experimental Marine Biology and Ecology 306: 
        17-36.

Marsh, A.G., L.S. Mullineaux, C.M. Young and D.T. Manahan, 2001. Larval 
        dispersal potential of the tubeworm Riftia pachyptila at deep-
        sea hydrothermal vents. Nature 411: 77-80.

Marsh, A.G., R. Maxson and D.T. Manahan, 2001. High macromolecular 
        synthesis with low metabolic cost in Antarctic sea urchin 
        embryos. Science 291: 1950-1952.

Five other selected publications (2000 and before):

Marsh, A.G., P.K.K. Leong, and D.T. Manahan, 2000. Gene expression and 
        enzyme activities of the sodium pump during sea urchin 
        development: Implications for indices of physiological state. 
        Biological Bulletin 199: 100-107.

Vavra, J.S. and D.T. Manahan, 1999. Protein metabolism in 
        lecithotrophic larvae (Gastropoda: Haliotis rufescens). 
        Biological Bulletin 196: 177-186.

Hoegh-Guldberg, O. and D.T. Manahan, 1995. Coulometric measurement of 
        oxygen consumption during development of marine invertebrate 
        embryos and larvae. Journal of Experimental Biology 198: 19-30.

Manahan, D.T., 1990. Adaptations by invertebrate larvae for nutrient 
        acquisition from seawater. American Zoologist 30: 147-160.

Manahan, D.T., J.P. Davis, and G.C. Stephens, 1983. Bacteria-free sea 
        urchin larvae: Selective uptake of neutral amino acids from 
        seawater. Science 220: 204-206.

Teaching and Service Activities:

Research Statement: My work bridges the fields of animal physiology, 
developmental biology, and molecular biology--all studied in an 
environmental context. Most animals have complex life history 
strategies and early developmental stages (embryos, larvae) that are, 
in general, less well understood in comparison to adult phases of life 
cycles. I study developmental biology from the perspective of 
environmental biochemistry and physiology, in particular how 
developmental stages ``work'' in contrasting and `extreme' 
environments. Some of the implications of such research for basic 
science, include--understanding the molecular biology and physiology of 
growth and development of cells and animals, and defining the 
biological mechanisms that set differences in metabolism. There are 
also `applied' aspects to this research--e.g., the search for ways to 
improve the production of food from the ocean for human consumption, 
through the application of ``hybrid vigor'' to enhance growth rates of 
marine animals (cf. ``Green Revolution'' in agriculture) and the search 
for novel biochemical processes in `extreme' environments (Antarctica).

Teaching Statement: I have taught at the university level for over 25 
years. The undergraduate courses for which I specifically developed new 
curricular materials include: Animal Biochemistry and Physiology; 
Biological Diversity and Adaptation; Cellular Physiology; Humans and 
their Environment; and Introductory Biology (latter are large courses 
with several hundred students). Graduate (Ph.D.-level) courses include: 
Developmental Biology; Integrative Biology and Evolutionary Adaptation; 
Physiology and Metabolic Plasticity; Oceanography and Biology; and 
History of Science. For over a decade, I have also directed 
international biology training programs for Ph.D.-level students and 
postdoctoral-level scientists in Antarctica. These NSF-funded 
educational programs have focused on themes of major and current 
interest in environmental science (e.g., global warming and the ``ozone 
hole'' ) and biological adaptations to environmental change, studied 
from different biological levels of analyses (from whole-organism to 
single genes). The individuals who have participated in these training 
programs were from 120 different research institutions, representing 
over 20 different countries.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Inglis. Thank you, Dr. Manahan.
    Mr. McCaffrey.

  STATEMENT OF MR. MARK S. McCAFFREY, ASSOCIATE SCIENTIST AND 
   SCIENCE COMMUNICATIONS EXPERT, COOPERATIVE INSTITUTE FOR 
  RESEARCH IN ENVIRONMENTAL SCIENCES, UNIVERSITY OF COLORADO, 
                            BOULDER

    Mr. McCaffrey. Thank you, Mr. Chairman, and Members of the 
Committee. It is a huge honor to be here.
    And my name is Mark McCaffrey. I am an Associate Scientist 
at the University of Colorado at Boulder and a member of the 
IPY Education, Outreach, and Communication Subcommittee, or IPY 
EOC, as we call it for short. And over the next few minutes, I 
would like to give you a whirlwind tour of some of the things 
that are planned for Education, Outreach, and Communication 
efforts with the International Polar Year. I feel like I am a 
little bit of an anomaly here, because I have never actually 
been to a polar place. I grew up in Colorado, and the closest I 
have been to the polar experience, I think, is up on the 
Continental Divide in the middle of winter, which gives you a 
little taste, I think, of the polar experience.
    But over the next couple minutes, I just want to give you a 
little taste of what is in store with our plans for the 
Education, Outreach, and Communication efforts, particularly at 
the international level.
    You could write a book about the impact of past IPY and 
polar science on society, and actually, Michael Robinson from 
the University of Hartford has written a book called ``The 
Coldest Crucible'' that just came out that I think some of 
you--some of us in this room might be interested in checking 
out.
    But I recently did a Google search on ``International 
Year'', and I got 1.6 billion responses. And I had to scroll 
all of the way down to number 55 to get to International Polar 
Year, IPY.org. And of course, from the IPY.org website, we 
linked to all of the national websites, including the U.S. 
site. But it is good to remember that the very first 
international year was the International Polar Year. We have 
thousands of international years out there these days, but IPY 
was the original, and it was the vision of Karl Weyprecht, who 
in the 1870s was frustrated by the fact that international 
collaborations were not very successful because nations were 
going off on their own and maybe doing a little bit of science 
but it was much more in the exploratory and territory 
acquisition mode, if you will. So Weyprecht had the vision of 
international cooperation in collecting data, and the first IPY 
in the United States was actually led by Abraham Lincoln's son, 
Robert Todd Lincoln. And there were a lot of incredible 
adventures in research and some mishaps along the way. But in 
my mind, I think of IPYs, starting with the very first one, and 
then, of course, the second one in the 1930s, and then IGY in 
the 1950s as benchmarks that we can look back and see the 
evolution of science and technology, particularly in the polar 
regions, of course. But the world has changed at each IPY. And 
I would like to thank--and I think there is some evidence that 
the IPYs have changed the world in small ways and maybe even, 
looking back, in some profound ways.
    The second IPY actually focused a lot on communication, 
wireless communication issues, because in polar regions, the 
ionosphere and the magnetosphere don't behave the way they do 
in other parts of the planet. And of course, we talk a lot 
about IGY and the fact that Sputnik and Explorer programs were 
a part of that effort, but I think of it also as the launch of 
the modern science education movement, certainly in the United 
States, efforts led by the National Academies and the films 
that they produced and the curriculum materials that they 
helped develop and the magnificent posters that I think some of 
you have seen around. These are all fantastic artifacts that we 
can actually take--make use of today. In fact, on the National 
Academy's website, they--you can download one of the curriculum 
materials from IGY. And these are terrific resources for 
teachers and students today.
    There are so many education outreach activities planned. 
How many of them actually will be funded and deployed is a 
question at this point, but there has been a lot of work 
through a series of workshops that--the first one, ``Bridging 
the Poles,'' that Robin and Stephanie Ferman organized that was 
held here in 2004 in Washington. Then the ``Poles Together'' 
workshop that we held in Boulder last summer. There have been, 
also, workshops in Europe that were inspirited by the workshops 
here to try to come up with an integrated approach 
internationally for some of these education efforts. The 
International Polar Foundation has been very involved. And of 
course, their--they have designed the Belgian station in 
Antarctica that is zero emissions, and it will be built during 
the IPY. We had an online workshop funded through NSF and NOAA 
back in March. And one of the outcomes of the ice workshop was 
a series of polar literacy themes that evolved. And I have got 
more details on this in the written testimony. But peoples and 
stories were something that came up over and over again. There 
is so much passion and the whole narrative approach of being 
able to share information through stories is an extremely 
powerful way to communicate.
    I have touched on just a few of the recommendations that 
have come out of these workshops in the written comments, but 
blending art and science is a very powerful way to communicate 
to broad audiences. And the use of narrative, as I mentioned 
before, is extremely powerful. There is--the four themes of 
research--of education that NSF is funding, we have the 
honeycomb chart that I think you all are familiar with, or I 
hope you will be. And the United States is involved as leaders 
on about--over 50 of these 250 projects on here. And then the 
United States is also a partner on another 125. So the 
honeycomb is a powerful outreach tool in itself that can help 
teachers find information, learn more about particular 
projects.
    And to sum up here, we have a lot of plans for launch 
events during the IPY, the ice hotel up in Sweden has offered 
to help in some of the launch events, polar art exhibits. And 
of course, in terms of the societal benefits, the polar science 
is really the tip of the iceberg. We can foster a 
scientifically-savvy society, I think, through IPY efforts and 
support these international partnerships, because there is so 
much power in the polar, if you will, both in terms of the 
survival, when you see ``March of the Penguins'' and ``Eight 
Below'' and movies like that. There is the emotional resonance 
that people inherently feel towards polar places. And of 
course, the polar perspective challenges us intellectually. 
These spectacular images from NASA, the blue marble with a 
polar perspective, I think, are--they should be on posters in 
every classroom in the country with the question: ``What is 
wrong with this picture?'' Because as spectacular as these 
images are, they make it look like the sun is shining directly 
down on the poles, which, of course, is not the case. So I 
think these can be powerful learning tools in classrooms.
    And with that, I thank you for your time.
    [The prepared statement of Mr. McCaffrey follows:]

                Prepared Statement of Mark S. McCaffrey

      POLAR POWER: EDUCATION, OUTREACH AND COMMUNICATION AND THE 
                        INTERNATIONAL POLAR YEAR

    Good morning Mr. Chairman and Members of the Committee. Thank you 
for the opportunity to speak to you today regarding IPY EOC, education, 
outreach and communication relating to the International Polar Year. My 
name is Mark McCaffrey. I am an Associate Scientist at the University 
of Colorado at Boulder and a member of the IPY EOC Subcommittee, which 
is currently made up of representatives from eleven of the 66 nations 
currently participating in IPY. I also have been involved with 
organizing several recent IPY EOC-related workshops and will share some 
of the findings of these workshops with you in a few minutes. What I'm 
really here to talk to you about today is polar power: the potential 
for IPY and polar people, places and science, to change the world, as 
it has in the past.
    I am deeply honored to be here today with this esteemed group of 
polar scientists and distinguished individuals whose lives were in some 
way changed by the third IPY, the International Geophysical Year of 
half a century ago. But I confess I feel like an anomaly here. I am not 
really part of the polar research community. I've never been above the 
Arctic or Antarctic circles. My background is in environmental science 
education, and over the years I have worked with a variety to research 
scientists to develop strategies and programs to help translate their 
research for non-specialists and, hopefully, make it more accessible 
and meaningful to students, teachers, and the general public. But I've 
long been fascinated by the power of the polar realm to challenge us at 
deep emotional, intellectual, even, spiritual levels.
    I am also a child of the IGY, and I remember watching some of the 
IGY films that the National Academies produced, and reading about 
scientists in Antarctica in my Weekly Reader newsletter in the early 
1960s. I also recall it was a somewhat terrifying time, with ``duck and 
cover'' air-raid drills at school, and neighbors up the street building 
bomb shelters in preparation for possible Soviet missile attacks. And 
in the midst of it all, scientists around the world embarked to the 
ends of the world, measuring change, sharing data, developing networks 
and relationships that led to massive jumps in our understanding of the 
Earth as a system, and fostered a robust international scientific 
community that, while still dependent on national support, transcends 
national agendas and benefits our global society.
    In my opinion, the upcoming International Polar Year, if 
sufficiently funded and well coordinated at grassroots, national and 
international levels, will be a revolutionary catalyst for informing, 
engaging and inspiring a more scientifically savvy and literate 
society, forging new and strengthening existing national and 
international collaborations and partnerships, leveraging the 125 
legacy of IPY--the first, the original international year--and building 
on the tremendous preparation and energy that has gone into planning 
the education, outreach and communication efforts for IPY.
    But with less than six months before the launch of this 
International Polar Year, there is no guarantee that the rich potential 
will be realized. Without appropriate funding and coordination, the 
International Polar Year risks becoming yet another well-intentioned 
program insufficiently supported, yet another international year in a 
sea of other international years that will fail to live up to its 
potential. For IPY to make the splash that is could, that it should, 
for it to trigger a ripple effect lasting for generations to come, it 
is urgent that the United States, which has played a crucial, integral 
role in planning IPY research and EOC, steps up and enables this 
important endeavor to achieve its vision and goals.
    IPY EOC is certainly about explaining what scientists know--and 
don't know--about the accelerated surge of melting snow and ice and its 
global significance. It is also all about learning from the experiences 
and insights of the over four million people living in the Arctic. And 
it is about examining the carbon cycle and how it relates to seasonal 
cycles, the hydrosphere, the biosphere, the atmosphere, and its 
intrinsic role in the global climate system, which is amplified in the 
polar regions due to their seasonal extremes.
    Fundamentally, IPY EOC is about exploring how polar regions and 
polar research is vitally important to all people on Earth. But IPY is 
also about exploring the role of technology in our society, and 
demystifying and articulating how science itself is conducted, how data 
are collected, analyzed, modeled, reviewed and communicated. It is 
about showcasing the state of the art research and phenomenal 
technology of modern scientific research into the planet's complexities 
via high-definition television programs, 3D Imax movies, video logs and 
web casts from teachers at the poles, radio programs, science center 
and children's museum exhibits, and good, old fashioned lectures from 
scientists and stories from polar people with their compelling, tales 
of adventure and insights into what they have learned about our 
changing planet.
    Running from March 2007 to March 2009, the International Polar Year 
2007-2008 will involve hundreds of projects and thousands of scientists 
and will leverage billions of dollars of infrastructure and prior 
research. Organizers of this IPY recognized from the start that 
ultimate success of the upcoming IPY would depend as much on 
effectively communicating the project's activities and findings to 
broad audiences as it would on the quantity or quality of the science. 
Just as IGY is remembered, at least in the United States, for helping 
to inspire a new generation of scientists through the films, media and 
posters as much as it is for launching the first Earth observing 
satellites and breakthroughs in science and politics, the legacy and 
success of the upcoming IPY may be measured in the public realm by its 
societal impacts from EOC efforts more than it will its data archives 
or scientific publications.
    I have been specifically asked to address three questions. The 
first is ``what has been the impact of polar research and IPYs on 
students ad the public in the past?'' Obviously, this is an enormous 
question which one could write a book about. And in fact, Michael 
Robinson, a history professor at the University of Hartford, has 
recently written a book entitled ``The Coldest Crucible: Arctic 
Exploration and American Culture,'' which explores the phenomenon of 
``Arctic Fever'' that was part of 19th century American culture. I am 
not a historian, but I do have a few thoughts about the legacy of the 
first IPYs. Most significantly, IPY is the original international year, 
dating back to the first IPY in 1882-83. Today, there are literally 
thousands of international years. A recent Google search on the phrase 
``international years'' netted over 1.5 billion results, and down at 
number fifty-five was IPY.org, the homepage from the IPY Programme 
Office in Cambridge, UK, which links to the U.S. and other national IPY 
Web sites.
    The concept of an international polar year, which has become the 
model for the proliferation of international years, was originally the 
vision of Lt. Karl Weyprecht, an Arctic explorer and scientist in the 
Austro-Hungarian navy. The idea was born out of the frustration that 
Weyprecht experienced on several Arctic expeditions when he realized 
that nationally led efforts to explore and acquire territory were not 
the ideal way to collect observational data of polar processes that 
would help scientists understand global climate dynamics. In 
Weyprecht's view, the only way to really understand polar regions and 
their global connections would be through a coordinated, international 
effort of at least one full year of seasonal fluctuations that would 
include the extremes of winter, when solar radiation was minimal, and 
life in the cold and dark the most challenging.
    Weyprecht called on nations to put aside their national agendas for 
the sake of scientific progress and an improved understanding of the 
natural world. While international scientific collaboration was not 
unheard of at the time, the concept of an intensive, coordinated, year-
long research effort was. Participants agreed to share their data and 
use compatible formats. They built a network of Arctic stations with 
the aim of better understanding of global climate processes, polar 
geography and seasonal processes, and phenomenon such as auroras.
    Weyprecht died in 1881 before he was able to see his vision of 
international year fulfilled, but others, especially Georg von 
Neumayer, kept the vision alive. In the United States, Abraham 
Lincoln's son, Robert Todd Lincoln, then Secretary of War, headed the 
U.S. activities during the first IPY, which included establishing 
several stations, one at Point Barrow, Alaska.
    I mention the history of IPY and its 125 year legacy and lineage 
not only because it has become the model for the plethora of 
international years that have spun-off from Weyprecht's vision, but 
also because we can use the history of IPY science and technology to 
support the aims articulated in National Science Standards and other 
benchmarks and frameworks that emphasize the importance of inquiry and 
the history of science. The three past and upcoming IPYs themselves can 
serve as a conceptual scaffold and timeline to examine at how science 
and technology, and the world itself, has changed in a few short 
generations.
    Incidentally, a complete analysis of the meteorological data 
collected during the first IPY in the Arctic has not been fully 
completed until recently when two NOAA Scientists, Kevin Wood and Jim 
Overland, completed a thorough analysis which will be published soon in 
the Bulletin of the American Meteorological Society. Their article, 
which will be an excellent outreach tool for the upcoming IPY, provides 
an superb overview of the first IPY and, for the first time, presents a 
detailed analysis of the combined Arctic data sets, offering a baseline 
of Arctic climate at the time. This analysis will make an excellent 
``data story'' using the data from the first IPY as a baseline to 
compare subsequent data. (See Wood & Overland, in press. Also see 
Luedecke 2004, The First International Polar Year (1882-83): A big 
science experiment with small science equipment.)
    In the fifty years between the first IPY and the second in 1932-33, 
the world transformed in dramatic ways. Alternating current had begun 
to electrify the world and radio was an increasingly important 
communication medium. Internal combustion engines were revolutionizing 
transportation, including air-travel. The North and South poles had 
been reached in races that again drew widespread interest to the polar 
regions among young and old alike. The world, with a global population 
of two billion, had been through a Great War and devastating influenza 
pandemic. And during the second IPY, the United States and other 
nations were experiencing severe economic depression. Nevertheless, 
forty nations managed to participate in the second IPY and the 
development of an international network of stations and community of 
scientists monitoring weather, auroras and other processes was 
furthered.
    A significant focus of the Second IPY was the Earth's ionosphere 
and magnetosphere and their relationship to communication and 
electrical technologies, an issue that is extremely relevant today with 
our increased reliance on such technologies. We are currently working 
with the Stanford Solar Center on a potential collaboration between IPY 
and the International Heliophysical Year, IHY (one of several 
international years overlapping with the upcoming IPY) to deploy 
hundreds, potentially thousands, of ``sudden ionospheric disturbance'' 
(SID) monitors to schools and science clubs around the world. Developed 
by the Stanford Solar Center, the SID monitors allow students and 
amateur scientists to measure the diurnal, seasonal and solar cycle 
variability of the ionosphere. Such a collaboration would link IPY 
history with one of the centerpieces of the upcoming IHY education and 
outreach efforts.
    Twenty-five years after the third IPY, Weyprecht's IPY model was 
used in organizing the IGY, which focused on the polar and equatorial 
regions. Occurring in the middle of the Cold War, after a second World 
War and advent of the Atomic age, IGY not only served as the medium for 
the scientific and political breakthroughs previously mentioned, but 
also marked the beginning of the modern era of science education. The 
public read updates of IGY expeditions in newspapers and magazines, 
while students read about IGY in their Weekly Reader newsletters. 
During and after IGY, the National Academies, funded by NSF and the 
Ford Foundation, led the development of curriculum and outreach 
materials about IGY science, including a set of thematic posters, many 
which are proudly displayed in science institutions around the world, 
and a series of thirteen educational films shown in classrooms and on 
educational television throughout the Nation. While behind the scenes 
these pioneering efforts were beset with challenges (Korsmo 2004, 
Korsmo & Sfraga 2003), they left an enduring impression on a generation 
of citizens and scientists around the world.
    I have also been asked to address what education and outreach 
activities are planned for this IPY. Before getting into specifics, I 
would like to take a moment to reflect on how the world has evolved 
significantly in the fifty years since IGY: the planet's population and 
energy usage has more than doubled; new tools, particularly the 
Internet and wireless technologies, offer revolutionary means of 
communication that will be harnessed for IPY, although, due to the 
sheer proliferation of media, such efforts will be competing for 
people's limited attention. Nevertheless, polar power has the ability 
to grab people's attention and hold it.
    In recent years, in part due to NSF's emphasis on integrating 
research and education and the broader social impacts of science, there 
has been increased collaboration between research scientists, educators 
and various other media and communication experts. But numerous reports 
and commissions, including the 2001 U.S. Commission on National 
Security, warn of the long-term implications of neglecting our science 
education programs, and funding for such integrating efforts, including 
for the upcoming IPY, remain insufficient to meet the needs of the EOC 
community and the citizens they serve. Science educators, vying against 
each other for limited funds, face daunting odds in an ultra-
competitive environment.
    Planning to make EOC an integral part of IPY began at the outset, 
both at the national and international levels. Over the past two years, 
a series of workshops has helped to build the IPY EOC community inside 
and beyond the U.S., exploring the ways and means to maximize EOC 
impact. The first workshop, entitled ``Bridging the Poles: Linking 
Education with Research,'' was funded by NSF OPP and organized by Robin 
Bell and Stephanie Pfirman of Columbia University's Lamont-Doherty 
Earth Observatory . Held in Washington, D.C., in June 2004, Bridging 
the Poles brought together polar researchers, science educators, and 
other polar enthusiasts to brainstorm potential strategies and 
resources. Participants recommended that EOC efforts build on the 
strength of polar research by focusing on three elements: ``a `sense of 
place' for researchers, educators, students, and the general public; 
`pride of place' for Arctic residents, especially indigenous Alaskans; 
and a sense of connectedness [and] relevance.'' A full report on the 
workshop, which describes the vast potential of IPY EOC, is available 
online at http://www.ldeo.columbia.edu/res/pi/
polar<INF>-</INF>workshop/.
    One of the recommendations from the Bridging the Poles workshop was 
for the IPY community to tap the expertise and resources of the 
International Polar Foundation (IPF). Based in Brussels, Belgium, IPY 
has been actively involved with polar science and related education 
efforts, participating in all the IPY EOC workshops and assisting the 
IPY Programme Office in the development and translation of the IPY 
brochure and designing the IPY.org web site. In addition to offering a 
wealth of education materials available online and available on CD in 
multiple-language formats, IPF also been instrumental in the design the 
new Belgian zero-emission Antarctic station that will be constructed 
during IPY. (In the spirit of full disclosure, through a collaboration 
between IPF and CU-Boulder, 20 percent of my salary is covered by IPF, 
which allows me to continue to be involved in IPY activities.)
    To build on the momentum of Bridging the Poles and re-access the 
potential for IPY EOC, a second workshop, ``Poles Together: 
Coordinating IPY Outreach and Education,'' was held in Boulder, 
Colorado, in July 2005. Organized by the University of Colorado's 
Cooperative Institute for Research in Environmental Science (CIRES), 
with in-kind support from NOAA and numerous volunteers, the workshop 
drew more than 100 participants including researchers, teachers, 
representatives from U.S. federal agencies (NOAA, NSF, USGS and NASA), 
and representatives from the International Antarctic Institute in 
Hobart, Australia, the International Polar Foundation, and members of 
the Canadian, Swedish, Dutch, and German national IPY committees. David 
Carlson, who had recently become Director of the International Polar 
Year Programme Office (IPO) based in Cambridge, U.K., gave the keynote 
address and discussed plans for IPY in general and EOC in particular.
    The core of the workshop was a series of breakout discussions, 
focusing initially on IPY science themes and key audiences. One idea 
for EOC communication that emerged was identifying and addressing 
common misconceptions about the Polar Regions, such as the differences 
between Arctic and Antarctic geography, the real effect of Earth's 
axial tilt on seasonal change, and the reason why polar bears don't eat 
penguins.
    Other recommendations included the call for a coordination office 
for U.S. EOC efforts, and the development of a framework for polar 
literacy, with key concepts and messages that could help in correlating 
IPY activities and polar science to education standards and benchmarks.
    One of the participants, Stan Ruttenberg, who had worked as a 
science writer for many of the IGY films, commented that he was 
impressed by the degree of excitement and enthusiasm of the 
participants. Where IGY education efforts had been very much top-down, 
it was clear to Stan that IPY EOC was, above all, tapping a tremendous 
energy at the grass-roots level.
    Some participants of the Poles Together workshop expressed concern 
that, without sufficient funding for IPY, all the enthusiasm would lead 
not only to failure of IPY EOC goals, but to disappointment and 
disillusionment among the IPY science education community. A 
representative of the NSF attending the workshop indicated that NSF, 
the lead U.S. agency for IPY, would be able to fund only one to two 
million dollars of education and outreach projects for fiscal year 
2006. (As it turns out, nearly $6 million was made available, meaning 
that the over 80 percent rate of proposals not funded could have been 
far higher.) In order to seek a solution to the funding conundrum, a 
group of interested individuals was formed to explore funding options 
from corporations and foundations to augment IPY EOC projects that NSF 
would not be able to fund. Several meetings were held in the fall of 
2005 to explore funding options through corporate or foundations, but 
after Hurricane Katrina, donor fatigue in the foundation community made 
it necessary to put plans to seek alternative funding for IPY EOC 
activities on the back burner. A full report of the workshop, funded 
through support from the National Science Foundation Office of Polar 
Programs (OPP) and NOAA Office of Education (OED), is available at 
http://cires.colorado.edu/education/k12/ipyoe/.
    To further the preparation for IPY EOC and prepare for the NSF IPY 
solicitation, with it's strong focus on formal and informal education 
and related coordination, the Integrated Collaborative Education (ICE) 
workshop, (funded by NSF OPP and NOAA OED) was held in virtual space in 
an asynchronous environment, allowing participants from around the 
world and with varied work-schedules, to participate at their 
convenience. More than 200 individuals from around the world 
participated between March 17 and 31, using tools developed and 
facilitated by the Virginia-based College of Exploration, which has 
worked with NOAA and National Geographic in developing ocean literacy 
priorities.
    Like all the prior workshops, ICE served as an incubator for 
collaboration and networking, helping to inspire and inform the broad 
community of participants. Organized on a few weeks notice, ICE's 
ambitious goals included the development of an initial framework for 
polar literacy that could be linked with related ocean and 
environmental literacy programs.
    Participants focused on ten themes they considered integral to such 
a framework: the uniqueness of the Polar Regions; the complex 
interconnections of Earth systems; global climate change; the 
importance of the Polar Regions to science; their history and culture; 
places of extremes; new models of land ownership/stewardship, 
international collaboration, and cooperation; the need and opportunity 
to study holistically; ``what we don't know'' (i.e., the spaces between 
disciplines and the gaps in our knowledge); and people and stories. 
While these themes in many cases overlap with ``official'' IPY themes 
and other science education frameworks, the community-based process 
itself was valuable. A final report of the ICE workshop is available at 
http://coexploration.net/ipy.
    Inspired by the Poles Together workshop, the European Polar Board 
of the European Science Foundation hosted a workshop in Brussels in 
mid-March of 2006 to engage the European polar research and education 
community. The workshop sparked later discussions of the EOC 
subcommittee on how education, outreach and communication can be more 
fully integrated since, all too often, they are considered separate, 
unrelated domains.
    The IPY Framework document called for the IPY Programme Office to 
establish an Education, Outreach and Communication Subcommittee of the 
ICSU-WMO Joint Committee, which would review EOC-related proposals, 
help coordinate and integrate activities, and assist in establishing 
the IPY Web site. The Subcommittee, made up of representatives from 
eleven nations that will be expanded as IPY gets underway, began 
meeting in early 2006 through monthly teleconferences and is focused on 
coordinating launch events, developing the IPY.org web site, and 
supporting international EOC collaborations.
    The discussions at the Brussels European Polar Board workshop in 
March, 2006 on linking education, outreach and communication helped to 
inform the development of the IPY EOC Action Plan (still in 
development), which explores how information from a particular IPY 
research project--say, a study of seasonal and longer-term sea ice 
fluctuations or of caribou migrations--might be customized and 
repurposed for different audiences. Over the years, the terms 
``education,'' ``outreach,'' and ``communications'' have become 
separate, specialized domains, rarely overlapping or collaborating. The 
concept of using IPY as an opportunity to begin to integrate these 
different, sometimes competing realms while recognizing the unique 
needs and expertise required to be effective in each area, has been an 
emerging goal of the IPY EOC subcommittee. For example, we envision 
that:

        <bullet>  A short media summary of the research goal and its 
        methods used by public affairs or media specialists could also 
        be used to help a classroom teacher see at a glance whether a 
        specific project is relevant and of interest to her students.

        <bullet>  A ``who, what, where, when, why, and how'' narrative 
        description or ``data story'' in non-technical language could 
        help a teacher, exhibit designer or curriculum developer 
        develop strategies for contextualizing the data.

        <bullet>  A database of high-definition video clips could be 
        used by journalists, students, teachers, and exhibit developers 
        alike.

        <bullet>  A blog from graduate students in the field could 
        assist students in the classroom virtually participate in the 
        project by providing a human context to how the research is 
        conducted and data are collected.

        <bullet>  Mapping the science of the project to science 
        standards and frameworks, taking into account related 
        misconceptions, could help scientists calibrate their own 
        communication with non-technical audiences.

        <bullet>  Reviewing and annotating existing background 
        materials and learning activities and linking them with 
        standards and curriculum could have benefits far beyond the 
        formal education realm.

    To facilitate the integration of information that public affairs 
and media relations officers, researchers, educators and students and 
other polar enthusiasts can access, the IPY Programme Office is 
developing a database that will include short summaries of IPY 
projects, longer descriptions of the ``who, what, where, when, why, and 
how'' involved, and, once funded and deployed, can be augmented with 
audio and video clips, blogs and journals, relevant curriculum and 
education standards, and so forth. Ideally, this database will be 
integrated into the IPY Data Information Service, or IPYDIS, which is a 
U.S. led proposal headed by Mark Parsons of the National Snow and Ice 
Data Center.
    Dr. Bell has talked about the famous ``honeycomb chart,'' and I'd 
like to share it with you again. It is in itself an invaluable outreach 
tool and is included as an attachment to my written statement. Of the 
233 proposals, many of them made up of numerous smaller projects, the 
U.S. is involved in 183 of them, or 82 percent of the total, roughly 20 
percent as the lead, in red on the chart (51), and 60 percent as a key 
partner, in yellow (122). Again, I'd like to point out the IPY Data 
Information Service as an integral part of the big plan, which the U.S. 
is the lead on.
    All of these cells of the honeycomb, which combine in some cases 
multiple nationally funded projects, are subject to funding through 
their national agencies. But there is no guarantee that they will be 
funded at all, especially when budgets are tight and review criteria 
between national and international programs differ. We now know that 
some of the proposals approved at the international level will not be 
funded by NSF, at least at this time, and we can anticipate that the 
honeycomb chart will look significantly different a year from now.
    The main point I'd like to make here is that those who did go 
through the international process and were endorsed by the IPY Joint 
Committee had to address the basic IPY EOC criteria, meaning they 
needed to have a plan of how they would address EOC goals identified in 
the IPY Framework document. They also needed to be international to 
some degree, including the education proposals, of which there are 54, 
the majority of which involve U.S. partners or leads. All have 
international linkages and partners.
    Which brings us to a question: Should EOC for IPY be only addressed 
at the national level? The conventional wisdom seems to be, ``yes,'' 
that every nation has their own education systems and unique 
communities with needs. But the decade-old GLOBE program, which has 
just funded an IPY-related project looking at seasonal changes, 
suggests otherwise. Indeed, learning from the experience of GLOBE, and 
perhaps leveraging its network and those of the space science education 
community of IHY, IPY EOC has the potential to forge a new, robust 
international education network that will live on long after IPY is 
completed. Rather than have every nation approach IPY EOC exclusively 
internally, this is an opportunity for ``soft diplomacy'' that could, 
in the spirit of Weyprecht's vision, truly transcend national agendas 
and make a robust contribution to global awareness and cooperation.
    Some nations, such as Canada and Norway, require that proposals 
seeking funding for IPY first go through the international process, 
which mandates international partnerships. The U.S. and most other 
nations did not require IPY international endorsement. Funded projects 
that did not go through the international process will still have an 
opportunity to become part of the honeycomb, but they will be required 
to go through the review process and either be linked with an existing 
program in the honeycomb, or be endorsed as a new cell.
    The final question I have been asked to address is: what are the 
goals and expected societal benefits of these activities? At the level 
of the Joint Committee, the U.S. National Committee, and NSF, the goals 
have been primarily polar science-specific: ``to attract and develop 
the next generation of polar scientists, engineers and to leaders and 
to capture the interest of the public and decision-makers,'' (ICSU 
2004a) , to increase ``public understanding and participation in polar 
science'' (NRC 2004) and ``educate the public about the polar regions'' 
(NSF 2006).
    But to many involved at the grassroots level of IPY EOC, including 
many participants in workshops and on the IPY EOC Subcommittee, polar 
science is merely the tip of the iceberg in terms of the potential for 
this international endeavor to go beyond simply showcasing polar 
science and its global relevance. As the recent draft IPY EOC Action 
Plan suggests, IPY can also ``demonstrate the scientific process in 
real-time by engaging the public with an exciting, enormous, and 
diverse, interdisciplinary scientific investigation. It is an 
opportunity for an open dialogue between scientists and society that 
will demystify and increase accessibility of science. This will 
strengthen the public's perception, understanding, and appreciation of 
science and therefore empower them in making valid assessments of 
scientific information.'' (IPY EOC 2006)
    The goals of promoting polar science and recruiting new polar 
scientists is, frankly, the easy part. The far broader goals of 
fostering a more scientifically savvy society and forging new science 
education partnerships at every level is much more daunting, and will 
require robust funding and support to achieve the inherent potential of 
IPY as a catalyst for positive change. There is a very small window--
right now--to seize this opportunity, devote the necessary, leadership, 
resources and people power to meet the challenge, and set the wheels in 
motion to allow IPY live up to its vast potential.
    There is tremendous power in the polar realm to inspire, inform and 
engage people of all ages and walks of life. At a gut level, the 
extremes of the polar environment challenge us in terms of basic 
survival; ask any child who has seen ``The March of the Penguins'' or 
``Eight Below.'' It has been suggested that in the first two IPYs, 
survival required 90 percent of the time and energy with science 
requiring the remaining 10 percent. Polar regions will always remain 
dangerous, forbidding places, no matter how sophisticated the 
technologies. Now, with increased concern about human impacts on the 
Earth's climatic and environmental systems, people look to the poles to 
gain information about and insights into the survival of the planet 
itself.
    Polar power also has tremendous emotional resonance, appealing to 
our sense of beauty and wonder. The stories and experience of people 
from polar communities, including the millions of Arctic residents and 
the scientists, explorers and teachers who have spent time in 
Antarctica, are a powerful way of bringing a human dimension and 
personal touch to IPY activities.
    And, finally, the polar perspectives offer a unique way to engage 
and challenge our intellects, whether at the cutting edge of the 
scientific frontier, or addressing common misconceptions that students 
have about the reason for seasonal change. I would love to see posters 
of the spectacular polar ``night'' and ``day'' images from NASA 
Goddard, part of the Blue Marble series, in every grade schools 
everywhere with the title: ``What's Wrong With This Picture?'' These 
wonderful photo-mosaics can leave the impression that the sun is 
shining directly down on, or is directly behind, the north or south 
pole, when in fact, that never occurs. There is never a time of day, or 
time of year, when there is so much sunshine. . .or darkness. . .in the 
north or south hemispheres. Realizing this, students can then consider 
how the axial tilt impacts polar seasons.
    There are countless international years but only one IPY. For IPY 
to be more than just another international year in a crowded field and 
live up to its huge potential, the support and leadership of the U.S., 
working in close collaboration with our international partners, is 
imperative. The time for IPY is now.

References

ICSU IPY 2007-2008 Planning Group (2004a) Draft Education & Outreach 
        Position Paper.

International Council for Science. (2004). A Framework for the 
        International Polar Year 2007-2008, produced by the ICSU IPY 
        2007-2008 Planning Group.

IPY EOC Subcommittee (2006). IPY EOC Action Plan, draft v3.

Korsmo, F.L. (2004). Shaping Up Planet Earth. Science Communication 
        26:2.

Korsmo, F.L., Sfraga, M., (2003). From Interwar to Cold War: Selling 
        Field Science in the United States, 1920s through 1950s. Earth 
        Sciences History 22:1.

Luedecke, C. (2004). The First International Polar Year (1882-83): A 
        big science experiment with small science equipment. 
        Proceedings of the International Commission on History of 
        Meteorology 1.1.

National Science Foundation (2006). International Polar Year (IPY), 
        2007-2008, Information for the Research and Education 
        Communities: http://www.nsf.gov/od/opp/ipy/ipyinfo.jsp.

Robinson, M.F. (2006). The Coldest Crucible: Arctic Exploration and 
        American Culture. University of Chicago Press.

U.S. National Committee for the International Polar Year 2007-2008, 
        National Research Council. A Vision for the International Polar 
        Year 2007-2008.

Wood, K.R., Overland, J.E. (in press). Climate Lessons from the First 
        International Polar Year.

                    Biography for Mark S. McCaffrey

Professional Preparation

M.A.--Educational Leadership--University of Northern Colorado, Greeley, 
        CO, 1994

B.A.--Southwest Studies, Spanish Emphasis--Fort Lewis College, Durango, 
        CO, 1980

Relevant Appointments

Cooperative Institute for Research in Environmental Sciences

Associate Scientist, Professional Research Assistant, January 2001-
        present

CIRES Outreach Program, August 2004-present

Co-Chair, Poles Together IPY Outreach and Education Workshop, July, 
        2005

Member, International Polar Year Education, Outreach, Communications 
        Subcommittee

Principal Investigator, Integrated Collaborative Education (ICE) 
        Strategic Planning Online Workshop

Principal Investigator, DLESE Climate Change Collection

Principal Investigator, NOAA Coral Reef Information System Data 
        Outreach Project

Managing Director, International Polar Foundation USA

NOAA Paleoclimatology Program, National Climatic Data Center

Science Communications Specialist, January 2001-July 2004

Principal Investigator, Climate TimeLine Information Tool

Lead Author, Paleo Perspective on Abrupt Climate Change

Project Manager, Spanish translations of Paleo Perspectives

Boulder Creek Watershed Initiative, 1996-2003

President, 2000-2003

Co-founder and Board Member, 1996-2003

Boulder Area Sustainability Information Network, 1998-2001

Co-PI and Communications Coordinator

University of Northern Colorado, ChemQuest Curriculum Project, 1996-
        1999

Education Consultant and Curriculum Developer

The Naropa Institute, Environmental Leadership Masters Program, 1996-
        1999

Adjunct Faculty and Developer--Boulder Creek Atlas Project

Front Range Community College, Environmental Sciences Department, 1995-
        1996

Adjunct Faculty, Introduction to Environmental Science

Recent Publications, Presentations and Products

McCaffrey, M.S., Bishop, T., Lynds, S., Tuddenham, P. (2006). ICE: The 
        Integrated Collaborative Education Online Strategic Planning 
        Workshop Summary Report. Available: http://
        www.coexploration.net/ipy/ice

McCaffrey, M.S., Lynds, S. (2006). Poles Together: Coordinating 
        International Polar Year (IPY) Outreach and Education Summary 
        Report. Available: http://cires.colorado.edu/education/k12/
        ipyoe

McCaffrey, M.S., Anderson, D.M., Eakin, M.E., Morrill, C. (2004). A 
        PaleoPerspective on Abrupt Climate Change. NOAA 
        Paleoclimatology Program. Available: http://www.ncdc.noaa.gov/
        paleo/abrupt/

McCaffrey, M.S., Kowal, D., Eakin, M. (2003). Climate timeline 
        information tool: exploring weather and climate change through 
        the powers of 10. Paleoclimatology Branch, NOAA's National 
        Climatic Data Center, Boulder, CO. Available: http://
        www.ngdc.noaa.gov/paleo/ctl/

McCaffrey, M.S. (2003). ``Using the climate timeline to frame inquiry 
        into climate change.'' NSTA National Convention, Philadelphia, 
        PA, March 27, 2003, National Science Teachers Association, 1840 
        Wilson Blvd., Arlington, VA.

McCaffrey, M.S. (2000). ``BASIN.org, a case study on the use of 
        information technology in developing local watershed 
        networks.'' Stockholm International Water Symposium, Stockholm, 
        Sweden, August 2000.

McCaffrey, M.S., Murphy, S., (2000). ``Boulder Area Sustainability 
        Information Network (BASIN): One Community's Approach to 
        Gathering and Providing Environmental Data.'' U.S. EPA 
        Community Involvement Conference: The New Millennium: Community 
        Involvement and Effective Environmental Protection.'' San 
        Francisco, CA, August, 2000.

Synergistic Activities

Member, International Polar Year Education, Outreach and Communications 
        (EOC) Subcommittee and IPY.org Web Design Team--Contribute to 
        reviewing EOC-related proposals for the IPY Programme Office, 
        reporting to Director David Carlson, offering input and 
        recommendations on coordination efforts and design of the 
        IPY.org portal site.

Member, American Geophysical Union and European Geoscience Union--Co-
        convener of upcoming IPY Education and Data Literacy sessions 
        at the AGU, December 2006. Have previously convened Education 
        sessions at past AGUs and assisted in organizing the GIFT 
        Workshop at Fall 2003 AGU on polar science and at the Spring 
        2005 in New Orleans on hurricanes and other natural hazards.

DLESE Working Group--Earth System Framework--Participant in working 
        group tasked with examining approaches to organizing resources 
        within DLESE using an Earth System framework and recommending 
        strategies and options to the Steering Committee.

Coral Reef Information System and Coral Reef Task Force Outreach--
        Through involvement with the NOAA Coral Reef Information System 
        (CoRIS), serve as principal investigator of the CoRIS Data 
        Outreach project, facilitating stakeholder meetings with coral 
        reef communities. Participant in the Coral Reef Task Force's 
        Outreach and Education Committee.

Collaborators and Affiliations

Susan Buhr, CIRES, University of Colorado at Boulder

Linda Capper, British Antarctic Survey

David Carlson, International Polar Year Programme Office

Michelle Hall-Wallace, Science Education Solutions

Louise Huffman, Golden Apple Foundation

Martin Jeffries, University of Alaska, Fairbanks

Roberta Johnson, UCAR Education

Carol Knight, NOAA

Tamara Ledley, TERC

Susan Lynds, CIRES, University of Colorado at Boulder

Russanne Low, UCAR-DLESE

Cathy Manduca, Science Education Resource Center

Frank Niepold, NOAA Climate Program Office

Mark Parsons, National Snow and Ice Data Center

Stephanie Pfirman, Columbia University

Lesley Smith, CIRES, University of Colorado at Boulder

Peter Tuddenham, The College of Exploration

Daniel Zalles, SRI International

Graduate Advisor: Richard King, University of Northern Colorado.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Inglis. Thank you, sir.
    Dr. Falkner.

 STATEMENT OF DR. KELLY KENISON FALKNER, PROFESSOR OF CHEMICAL 
             OCEANOGRAPHY, OREGON STATE UNIVERSITY

    Dr. Falkner. Thank you for the opportunity to testify this 
morning.
    My testimony draws from published reports from input from 
the arctic community and 14 years of experience in arctic field 
work.
    The research projects to be sponsored during IPY have yet 
to be finalized, as you heard earlier, but based on ideas 
voiced during the IPY planning process, I suspect there will be 
many more excellent research projects proposed and can be 
supported by available U.S. funds.
    Well, I was asked to address what did we learn from polar 
science in past IPYs, and in the interest of time, I refer you 
to my written testimony and the comments of my colleagues here, 
but I also highly recommend that you consult the four weekly 
issues of November 1960 Life Magazine, which reported to the 
public the remarkable findings of the International Geophysical 
Year.
    So what do we hope to learn from this IPY?
    As has been well publicized, the arctic has been undergoing 
dramatic changes. Air temperatures are increasing and are now 
higher than they have been in at least four centuries. Last 
year, large portions of the arctic were four to seven degrees 
Fahrenheit warmer than they had been in the previous 26 years. 
Sea ice area and thickness are diminishing. Satellite records 
show that summer sea ice area has decreased 20 percent, or 
roughly twice the area of Texas, since 1979, with a record 
minimum in 2005, and this year being very close to it.
    Loss of sea ice cover will change the global heat balance 
and will affect our global weather patterns. Sea ice retreat is 
already posing severe habitat challenges to animals dependent 
upon it, such as the polar bear. A changing ice cover also has 
implications for shipping routes and access to resources, such 
as offshore oil and gas.
    Permafrost is thawing, posing serious challenges to 
infrastructure, altering ecosystems, and increasing greenhouse 
gas emissions. An article published two weeks ago in the 
Journal of Nature reported far more of the potent greenhouse 
gas methane being emitted from Siberian Fall Lakes than 
previously estimated. Methane output from this vast terrain has 
increased by 58 percent from 1974 to 2000. The Greenland ice 
sheet is undergoing a net melting trend that shows signs of 
accelerating due to processes we are only beginning to 
understand. Realize that Greenland holds about 20 feet of 
potential sea level rise. The arctic hydrologic system has been 
altered such that large amounts of freshwater have made their 
way into sensitive areas of circulation in the North Atlantic.
    Now global system models that include greenhouse gases 
predict amplified warming in the arctic. Detailed records of 
climate change from ice cores show that change in the past has, 
at times, been very abrupt. Several degrees of temperature 
change and atmospheric circulation and precipitation 
rearrangements have occurred during less than 10-year 
timescales. Intensified research efforts during the IPY will 
come none too soon.
    In addition, there remain a number of basic science 
questions that are under-explored in the arctic because of its 
remoteness and harshness. We now have the ability to observe in 
places and during seasons where we haven't before and at scales 
ranging from the molecular to the global.
    It is an exciting time to be embarking on an IPY. The 
international science community has developed new approaches 
and tools that are ripe for application, so intensified 
research can be expected to foster new discoveries in realms, 
such as sea floor dynamics, the Earth's magnetic field, 
biology, and contaminant transport.
    So it is also asked what are the most critical unanswered 
questions that we hope to resolve with the research conducted 
during the IPY.
    The magnitude of the changes in the arctic raises the 
possibility that the arctic system may be approaching a tipping 
point, especially if amplification or irreversibility of 
changes introduced through reinforcing feedback processes. Such 
considerations led to the overarching question that is a main 
driver of the Study of Environmental Arctic Change Program 
(SEARCH): is the arctic transitioning toward a new state.
    It is also important to ask: what new discoveries lie 
ahead? What are the societal benefits of this research? If the 
IPY is fully implemented, as envisioned, the arctic, as well as 
Antarctic plans, address the future climate of our planet with 
the intention of establishing observation networks that take us 
into the future.
    Concentrated efforts during the IPY will help to train the 
next generation. As a mother, I am excited by the education 
efforts centered on the IPY that are aiming to bring fun into 
math and science so we can get our kids on track and capable of 
competing in the global economy.
    IPY findings will help to prepare the people of the north 
for adapting to what appears to be inevitable further change 
there. The findings should also help provide guidance for 
further resource development possibilities.
    Finally, a firm commitment by the United States to the 
2007-2008 IPY will demonstrate to the world that the United 
States is capable and willing to play a leading role in 
assuring the quality of our collective environmental future.
    Thank you.
    [The prepared statement of Dr. Falkner follows:]

              Prepared Statement of Kelly Kenison Falkner

    I would like to begin by thanking the Committee for giving me this 
opportunity to testify regarding the 2007-2008 International Polar 
Year. I was specifically asked to address the following questions from 
an Arctic research perspective:

        <bullet>  What has been learned from polar research and IPYs in 
        the past and what do we hope to learn from this IPY?

        <bullet>  What are the most critical unanswered questions that 
        you hope to resolve with the research conducted during the IPY? 
        What are the societal benefits of this research?

    Before I address those questions, let me outline for you my 
qualifications. In 1983, I was awarded a Bachelor's degree in Chemistry 
from Reed College, followed by a Ph.D. in Chemical Oceanography in 1989 
from the MIT-Woods Hole Oceanographic Institution Joint Program. 
Following this, I undertook postdoctoral work at MIT under an NSF 
Women's Initiation Award and then continued my studies at the Centre 
National D'Etudes Spatiales, Toulouse, France, under a NATO 
Postdoctoral Fellowship. In 1992, I took a faculty position at the 
College of Oceanic & Atmospheric Science at Oregon State University, 
where I currently carry out research and teach as a Professor of 
Chemical Oceanography. Shortly after arriving at OSU, I embarked on 
studies in the Arctic with support of an ONR Young Investigator 
Fellowship. My initial objective was to devise methods to track river 
waters and other water types within the Arctic Ocean using naturally 
occurring chemical signals. Since then my research group has been 
applying these methods in numerous collaborative studies to document 
the remarkable changes in Arctic Ocean circulation over the past 
decade, including at the North Pole Environmental Observatory. Hence, I 
have been traveling to the Arctic to conduct field-based research from 
a variety of platforms for the past 14 years. I have served on numerous 
Arctic related national and international science steering and review 
committees. In addition, I am the mother of two children, ages six and 
11.
    In preparation for my testimony, I informed the Arctic research 
community via the ArcticInfo listserv of this pending hearing and 
requested their input via e-mail regarding the questions I was tasked 
to address. The timing allowed five working days for the community to 
respond during what is typically an active field season period for the 
group. Nonetheless, I received 35 responses from a broad sampling of 
the community. Without exception, all of the respondents endorse the 
importance and timing of the IPY. They brought to my attention 
significant issues I might have otherwise missed and so I am indebted 
to them for their input.
    Development of the overall vision for the 2007-2008 IPY was 
strongly driven by community input. I personally took part in several 
town hall discussions early in the process that took place at various 
national and international science meetings. The 2004 National Research 
Council Report, ``A Vision of the International Polar Year 2007-2008,'' 
nicely captured the input and presented a path by which to proceed. I 
have drawn on aspects of that report for part of my testimony this 
morning.
    In addition, I am a signatory of an open letter that was circulated 
in the science community beginning in 1995, proposing a program to 
study Arctic change. As the scientific vision developed to a broad 
initiative involving several federal agencies, it was galvanized under 
the acronym SEARCH, standing for Study of ARctic Environmental CHange. 
Under U.S. leadership, the international community was invited to an 
open science meeting in Seattle, Washington in 2003, since it was clear 
that SEARCH activities transcend the intellectual, infrastructural and 
fiscal resources of any single nation. In response to our request to 
foster an international effort on Arctic change, the International 
Arctic Science Committee and Arctic Ocean Sciences Board initiated the 
International Study of Arctic Change in 2004. This is the international 
umbrella under which SEARCH is a national component. An Interagency 
Program Management Committee consisting of eight U.S. federal agencies 
have agreed to work together on implementing SEARCH. These are the 
National Science Foundation (current chair), National Oceanic and 
Atmospheric Administration, National Aeronautics and Space 
Administration, U.S. Department of Defense, U.S. Department of Energy, 
U.S. Department of the Interior, Smithsonian Institution and the U.S. 
Department of Agriculture.
    In May, 2005, over 80 members of the U.S. Arctic community met to 
align research priorities for SEARCH with the evolving thinking in the 
Arctic community at large. The criteria used to prioritize activities 
included: importance to meeting SEARCH science objectives, fit with 
international activities and readiness for implementation. The report 
that resulted is entitled ``Study of Environmental Arctic Change: Plans 
for Implementation During the International Polar Year and Beyond'' 
(2005, Arctic Research Consortium of the United States, Fairbanks 
Alaska, 104 pp.). My testimony also draws from that report and I refer 
you to it for further detail and original references. I would like to 
note that the upcoming IPY marks the first time that northern residents 
are being included directly in planning and implementation. The IPY 
vision also includes integration of social and physical sciences in the 
north in order to identify socioeconomic impacts of change and 
adaptation and mitigation strategies.
    One final point I would like to make before addressing the 
questions is that decisions regarding the exact research programs to be 
sponsored during IPY have yet to finalized by several participating 
nations including the U.S. For example, science proposals submitted to 
the U.S. National Science Foundation are currently under review and 
decisions about the initial round of submissions are expected late this 
fall. Once the initially funded projects have been identified, it is 
intended that another call for proposals will ensue permitting gaps in 
a coherent research portfolio to be addressed. The peer review process 
should help to assure that the best possible ideas go forward. I am 
aware of attempts to coordinate funding of projects that pass our merit 
review system with efforts funded by other countries. This is not easy 
to accomplish given diverse deadlines and funding cultures but IPY will 
forge new ground in that direction. My answers to your questions are 
what the community hoped to accomplish. Based on ideas voiced during 
the international IPY planning process, I suspect there will be many 
more excellent research programs proposed than can be supported by 
available funds in the U.S. and our funding agencies will have some 
difficult decisions to make.

What has been learned from polar research and IPYs in the past?
    As already pointed out, the first IPY took place in 1882-1883 and 
was primarily Arctic in focus. Coordinated observations were carried 
out at widely spaced locations. The international community 
demonstrated that it could collaborate in the name of science and that 
collective efforts can pay handsome dividends. One of the more notable 
findings was the first description of the large-scale motion of the 
sea-ice with important implications for exploration that followed. 
Priceless baseline data for anthropology and natural history were also 
obtained during this era, preserving what we now know was in the 
process of being lost to interactions with the lower latitude world.
    The second IPY in 1932-33 heralded the beginnings of modern weather 
related observations around the globe and including the Arctic. 
Systematic Arctic Ocean observations began to be undertaken by the 
Russians at this time, which they continued through to the 1980's. 
While the Russian data collection efforts were aimed at informing their 
cold-war activities, that data provide us today with an essential basis 
for assessing the magnitude of recent changes in ice-ocean and 
atmosphere conditions.
    Fifty years later in 1957-58, the IGY expanded its focus to include 
geophysical observations of the entire planet and outer space. 
Scientists took advantages of technology that sprung from World War II, 
such as rockets, satellites, radar, sonar, radio-communications, 
diverse telescopes and seismic sounding, to make extraordinary advances 
in our understanding of Earth and space science. Many of the 
accomplishments around the globe involved a close collaboration between 
the military and science communities. Although polar efforts were 
focused more on the Antarctic, in the Arctic the first large-scale 
determination of the sea floor relief was accomplished. The work on the 
interaction of solar and cosmic particles and the Earth's magnetosphere 
in a year of peak solar activity generated an appreciation of the cause 
of radio communication disruptions at the poles. The first globally 
synoptic weather observations were undertaken. The first submarine 
based surveys of sea-ice thickness were undertaken in the Arctic. 
Global carbon dioxide monitoring was initiated at the South Pole. The 
first World Data Centers were established during IGY. This is but a 
short list of the myriad IGY science accomplishments. The cooperative 
spirit of generating new knowledge overrode international tensions of 
the time and fostered enduring treaties regarding Antarctica and space. 
The public was broadly engaged by numerous media reports on the science 
and educational materials that evolved from it. Clearly IGY left many 
positive and enduring legacies.

What do we hope to learn from this IPY?
    One would have to be avoiding the popular media not to realize that 
the Arctic has been subject to some remarkable changes over the last 
few decades and that many of the changes appear to be linked and are 
accelerating. Some of these changes are large and in certain cases, 
unprecedented in the period of instrumental and satellite observations. 
It is not an exaggeration to say that the magnitude and rapidity of 
recent changes caught many scientists by surprise. Quasi-cyclical 
atmospheric pressure patterns were initially thought to be driving many 
of the changes but now departures from those relationships have many of 
us wondering whether the Arctic is in transition to a new state 
altogether. What are these changes?
    Arctic air temperatures are increasing. Average air temperatures 
have risen strongly in recent decades and are now higher than they have 
been in at least four centuries. In 2005, large portions of the Arctic 
were four to seven degrees Fahrenheit warmer than they have been over 
the previous 26 years. Sea-ice area and thickness is diminishing. Over 
the period of the satellite record, summer sea-ice extent has decreased 
20 percent (twice the area of Texas) with a record minimum in 2005, and 
2006 being very close to it. Snow-covered ice reflects most incoming 
sunlight or as scientists like to say, has a high albedo, and water 
absorbs light or has a low albedo. Thus the loss of sea will change the 
global heat budget and so affect our global weather patterns. The ice 
retreat is already posing severe habitat challenges to animals 
dependent upon it such as the polar bear. The changing ice cover has 
implications for shipping routes and access to resources such as 
offshore oil and gas. Permafrost is warming and thawing, posing serious 
challenges to infrastructure, altering ecosystems and greenhouse gas 
emissions. Just two weeks ago, K. Walter from the University of Alaska 
Fairbanks and colleagues reported (Nature, Sept. 7, Vol. 443, p. 71-75) 
that lakes resulting from thawing in Siberian tundra probably emit 10-
60 percent more of the potent greenhouse gas methane than previously 
estimated. Moreover their area has increased with the warming 
increasing their methane output from 1974 to 2000 by 58 percent. Woody 
shrubs are becoming larger and more abundant throughout the Arctic 
tundra as they out compete other plants, interfering with caribou 
migration and in some instances with oil exploration. Other plant and 
animal species are beginning to appear in the Arctic that have been 
previously unknown there. The Greenland Ice Sheet is undergoing a net 
melting trend that shows signs of accelerating. There are signs of 
concurrent ice-sheet losses in Antarctica. Recent observations 
highlight more dynamic response factors in ice sheet behaviors than we 
had previously appreciated. Realize that the Greenland Ice holds about 
21 feet of potential sea-level rise; we need further observations and 
model improvements that incorporate these dynamic factors to anticipate 
the rate of future sea level changes. Freshwater cycling in the Arctic 
hydrologic system has been altered such that large pulses of freshwater 
have made their way into potentially sensitive areas of circulation in 
the North Atlantic that can impact our regional and global climate.
    Global climate system models that take into account greenhouse gas 
forcing predict amplified change in the Arctic. Detailed records of 
climate from ice cores have taught us that change in the past has at 
times been very abrupt with multiple degrees of temperature change and 
atmospheric circulation and precipitation rearrangements occurring on 
less than 10 year time scales. Intensified research efforts during the 
IPY will come none too soon.
    The IPY affords us the opportunity to accelerate the implementation 
of SEARCH, to provide leadership and to collaborate internationally to 
understand and document the nature of these changes and their linkages 
to each other within the Arctic and to our global climate system. It 
appears that some amount of further change and challenges to ecosystems 
and human systems in the North are inevitable. We need to understand 
the changes to better chart their future course. What are the 
foreseeable benefits and difficulties of Arctic and global warming? The 
people of the north need answers to help them anticipate and cope with 
change. The effects of changes in the Arctic on global climate may well 
be disproportionate to its area. We need to push our understanding of 
Arctic-global linkages so that people outside of the Arctic can know 
what to expect under possible future greenhouse levels.
    In addition to the very visible issue of Arctic change, there 
remain a number of aspects of the Arctic that are under-explored 
because remoteness and harsh conditions make for challenging logistics. 
The science community has developed new approaches and tools that are 
ripe for application during the IPY and so intensified research can be 
expected to foster new discoveries in several realms. For example, the 
Gakkel Ridge is the slowest spreading ridge in the world's oceans. 
Preliminary evidence has shown that the nature of hydrothermal activity 
associated with that feature spans the full range of that observed 
elsewhere in the world's oceans. By current thinking, this is not 
supposed to be the case. Further exploration offers the possibility of 
entirely new insights in marine geology. Another example is that the 
geomagnetic North Pole is currently on the rapid move. Recent studies 
of marine and lake sediments have revealed similar shifts of the pole's 
position and repeating patterns in the past that may lead to a better 
understanding of the behavior of the Earth's core. IPY activities could 
help unveil tantalizing links between the Earth's magnetic field 
position, solar and cosmic particle flux and climate.
    Another example is that much of what we know about past climate on 
Earth comes from what we call proxies or signals preserved in ice 
cores, sediments and organisms. There are plans to conduct scientific 
drilling for the first time in ocean sediments in the Bering Sea region 
to determine the climate and ecological impacts of the Bering Sea 
Bridge that emerges during low sea-level stands as well as volcanic 
eruptions in the region. The ice-coring community is hoping to obtain 
the first complete ice record from Greenland that extends back through 
the interglacial period at the Eem site. Advances in trace element and 
isotope geochemistry offer the possibility of developing and applying 
new proxies for teasing out the past conditions. The international 
community has embraced a program called GEOTRACES to track the behavior 
of such trace elements and isotopes in the world's oceans and has 
targeted their initial observations in polar regions as part of the 
IPY. GEOTRACES also aims to provide accurate baseline information for 
micro-nutrients such as iron and problematic contaminants such as 
mercury in the polar oceans.
    The integration of biological sciences during this IPY offers many 
new knowledge frontiers. For example, advances in molecular techniques 
can be applied to characterizing the diversity of organisms both north 
and south and potentially important functional genes such as anti-
freeze proteins and UV protection of DNA. Our European and Canadian 
colleagues are planning to focus on migratory bird health, which has 
important links to avian flu and global health.
    It is an exciting time to be embarking on an IPY. We have the 
ability to observe in seasons and places where we haven't before and at 
scales ranging from the molecular to the global. We are bound to make 
many new discoveries.

What are the most critical unanswered questions that you hope to 
        resolve with the research conducted during the IPY?
    The magnitude of the changes in the Arctic raises the possibility 
that the arctic system may be crossing a threshold or approaching a 
tipping point, especially if amplification or irreversibility of change 
is introduced through processes such as the ice-albedo-temperature 
feedback. Such considerations lead to the overarching question that is 
a main driver of the SEARCH program:

Is the arctic system moving to a new state?

    Key questions that must be addressed in order to understand whether 
the Arctic is moving into a new state include the following:

        <bullet>  To what extent is the Arctic system predictable, 
        i.e., what are the potential accuracies and/or uncertainties in 
        predications of relevant arctic variables over different 
        timescales?

        <bullet>  To what extent can recent and ongoing climate changes 
        in the Arctic be attributed to anthropogenic forcing, rather 
        than to natural modes of variability?

        <bullet>  What is the direction and relative importance of 
        system feedbacks?

        <bullet>  How are the terrestrial and marine ecosystems 
        services affected by environmental change and its interaction 
        with human activities?

        <bullet>  How do cultural and socioeconomic systems interact 
        with Arctic environmental change?

        <bullet>  What are the most consequential links between the 
        Arctic and the Earth systems?

    In keeping with the spirit of previous IPY's, it is also important 
to ask:

What new discoveries lie ahead?

What are the societal benefits of this research?
    The Arctic is harbinger of global change and research community is 
poised to make unprecedented advances in understanding of our climate 
system at the present juncture. We will apply interdisciplinary 
approaches to these complex issues in a manner that wasn't conceivable 
during the IGY. Our observational tools have progressed dramatically. 
Satellites can now provide us the larger scale view of numerous 
essential system parameters. A wide array of in-situ sensor and 
autonomous platforms have been developed which can be applied to 
unmanned observations of the ocean, atmosphere, ice, biosphere, land, 
the interior of the Earth and space. Modern computational, as well as 
data storage and dissemination, capabilities will allow us to move and 
share information in new ways. In fact, it is the hope of many of us 
that the IPY might provide a very visible opportunity to develop and 
showcase advances in cyberinfrastructure in a way the benefits the 
larger science enterprise.
    If the IPY is fully implemented as envisioned, the Arctic as well 
as Antarctic plans address the future climate of our planet with the 
intention of establishing observation networks that take us into the 
future. Concentrated efforts during the IPY will help to entrain the 
next generation into polar science and transfer unique operational and 
logistics know-how to that new generation. As a mother, I am excited by 
the education efforts centered on the IPY that are aiming to bring fun 
into math and science so that we can get our kids on track and capable 
of competing in the global economy. The findings from IPY and the 
observation networks that result will help to prepare the people of the 
north for adapting to what appears to be inevitable change. The 
findings should help provide guidance for further resource development 
possibilities in the north under a changing climate. IPY research will 
provide data with which to assess environmental base line conditions 
and future change. The IPY data set should also advance our knowledge 
of past conditions on earth and improve the basis for predicting future 
perturbations. Finally, a firm commitment by the U.S. to the 2007-2008 
IPY will demonstrate to the world that the U.S. is capable and willing 
to play a leading role in assuring the quality of our collective 
future.

                  Biography for Kelly Kenison Falkner

Date & Place of Birth, Family: March 1, 1960; Lancaster, NH, USA; 
        Married, two children born 13 Sep 95 & 9 Nov 99.

EDUCATION

B.A., Chemistry with Russian minor, Reed College, 1983

Ph.D., Chemical Oceanography, M.I.T./W.H.O.I. Joint Program in 
        Oceanography, 1989

Languages: French & Russian

ACADEMIC POSITIONS

Postdoctoral Researcher, M.I.T., 1989-1990

NATO Postdoctoral Research Fellow, Groupe de Recherche Geodesie 
        Spatiale, Centre National D'Etudes Spatiales, Toulouse, France, 
        1990-1992

Assistant Professor, College of Oceanic & Atmospheric Sciences, OSU, 
        1992-1997

Associate Professor, College of Oceanic & Atmospheric Sciences, OSU, 
        1997-2005

Full Professor, College of Oceanic & Atmospheric Sciences, OSU, 2005-
        present.

RECENT COMMITTEES, EDITORSHIPS, etc...

NSF office of Polar Programs, Office Advisory Committee, 2005-present

Arctic-Subarctic Ocean Fluxes Science Steering Committee, 2003-present

Associate Editor, Geochimica et Cosmochimica Acta, 2002-2006

UNOLS Arctic Icebreaker Coordinating Committee, 1996-2002

NSF Office of Polar Programs, Strategic Plan for Marine Science in the 
        Arctic, 1998-1999

NSF Office of Polar Programs, Ocean-Atm-Ice Interactions Steering 
        Committee, 1997-2001

RESEARCH INTERESTS

Application of inorganic elemental and isotopic measurements to aqueous 
        geochemical issues
    This entails sampling of waters and associated solids of diverse 
media including snow, ice, rivers, lakes, and the oceans and analysis 
by state-of-the-art laboratory instrumentation, including ICPMS, TIMS & 
IRMS. Current projects include tracing origins and pathways of river 
waters and other water types to characterize the nature and causes of 
variability in Arctic Ocean circulation and characterizing tributary 
and main stem Salmon River (OR) chemistry as part of a collaborative 
study of salmon life history as recorded in their otoliths.

HONORS

National Science Foundation Arctic Service Award, 2000

COAS Student Mentoring Award, 2000

Office of Naval Research Young Investigator Award, 1993

NATO Postdoctoral Fellowship, 1990

Association for Women in Science Predoctoral Award, 1987

National Science Foundation Graduate Research Fellowship, 1984-87

Phi Beta Kappa, 1983

FIELDWORK

Participated in 25 major seagoing, lake and river expeditions, 1981-
        2006

Served as Chief Scientist on seven of these missions.

REVIEW PANELS

NSERC Site Review Panel for acquisition of ICPMS at UVic, Victoria, BC, 
        January 1994

NSF Chemical Oceanography Panel, July 1993, May 1997 & November 1997

NSERC Earth and Environmental Sciences Grant Selection Committee, 1996-
        1997

Committee of Visitors to evaluate NSF Office of Polar Programs, July, 
        2000

NOAA Russian U.S. Long-term Census of the Arctic, June 2006

RECENT PUBLICATIONS

Taylor, John Ryan, K. Kenison Falkner, U. Schauer, M. Meredith (2003). 
        Quantitative considerations of dissolved barium as a tracer in 
        the Arctic Ocean, J. Geophys. Res. Vol. 108, No. C12, 3374, 
        10.1029/2002JC001635.

Falkner, K. Kenison, M. Steele, R.A. Woodgate, J.H. Swift, K. Aagaard 
        and J. Morison (2005). Dissolved oxygen extrema in the Arctic 
        Ocean halocline from the North Pole to the Lincoln Sea, Deep-
        Sea Res. I 52, 1138-1154.

Woodgate, R.A., K. Aagaard, J.H. Swift, K. Falkner and W.M. Smethie, 
        Jr. (2005). Pacific ventilation of the Arctic's lower halocline 
        by upwelling and diapycnal mixing over the continental margin, 
        Geophys. Res. Lett. 32(18), DOI 10.1029/2005GL023999.

Munchow, A., H. Melling and K.K. Falkner (2006) Volume and freshwater 
        fluxes in Nares Strait from observed salinity and velocity 
        fields, J. Phys. Oceanogr., in press.

Falkner, K.K., L. Bandstra, I. Royer, N. Ryckelynck, M. Wetz, D. Zima, 
        R. Collier, B. Hales, F. Prahl, C. Reimers, M. Torres, S.M. 
        Meyers and E. Volk (2005). A chemical study of the Oregon 
        Salmon River Estuary and tributaries, Estuary, in revision.

Woodgate, R.A., K. Aagaard, J.H. Swift, W.M. Smethie Jr. and K.K. 
        Falkner (2006). Atlantic water circulation over the Mendeleev 
        Ridge and Chukchi Borderland from thermohaline intrusions and 
        water mass properties, J. Geophys. Res., in press. (http://
        psc.apl.washington.edu/HLD/CBL/Atlanticwaterzigzag paper.html)

Morison, J., M. Steele, T. Kikuchi, K. Falkner and W. Smethie (2006). 
        Relaxation of the central Arctic Ocean hydrography to pre-1990s 
        climatology, Geophys. Res. Lett. 33, L17604, doi:10.1029/
        2006GL026826.

K. Kenison Falkner, E. Carmack, P. Jones, F. McLaughlin, H. Melling, A. 
        Muenchow, M. O'Brien and P. Strain (2006). Implications of 
        nutrient variability in passages of the Canadian Archipelago 
        and Baffin Bay for freshwater through flow and local 
        productivity, Arctic Freshwater Cycle Special Issue of J. 
        Geophys. Res. Biogeocsi., in prep.

28 additional peer reviewed publications.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               Discussion

    Chairman Inglis. Thank you, Dr. Falkner.
    We are expecting a vote on the House Floor soon, but we 
have got a plan for how we will continue the hearing so that we 
will keep you all on schedule. And now Ms. Hooley and I can 
tell everybody in the audience that those pictures really are 
for real. Those--if I hadn't been there, I am not sure I would 
have believed the incredible beauty of those pictures, but 
having been there, I can testify those are really actual shots. 
You know, they look like they might be staged, sort of like the 
moonwalk, you know, all that was staged, as you know, as many 
people in my hometown believed for a long time. Maybe they 
still do.
    But it is--while we were on the ice, I actually had an 
opportunity to--with Dr. Olsen's help and Tony Gibson's help, 
to hook up some students in high school science classes with a 
slideshow of--speaking of pictures, slideshow of shots that I 
had taken. And we were actually able to interact. They were 
watching. They were looking at them from a website that we had 
loaded them up on, and then I was able to go through the shots, 
rather than telling them what we were doing. It is fascinating 
to see how interested the students became in that. And they 
spoke to me afterwards about it. You know. I mean, that--my 
kids would tell about a friend of theirs who was in one of 
those science classes who really was very excited about the 
whole thing. And it is--as you said, Dr. Manahan, there is 
something about the poles that captivates the imagination.
    And so what can we do to--here, in Congress--I will ask Dr. 
Bement first and then anybody else. What can we do, here, in 
Congress, to facilitate that, to make sure that that kind of 
interaction takes place? I know you have plans in place to do 
that kind of thing, and far better than the shots that I took, 
I imagine. But--Dr. Bement.
    Dr. Bement. Well, thank you, Congressman.
    Let me say, first and foremost, it is part of our 
appropriations for 2007----
    Chairman Inglis. Yeah.
    Dr. Bement.--because even though we have detailed plans in 
what the other agencies plan to do, what they could actually do 
will depend on that. But apart from that, I think promoting 
visibility of IPY within your districts, and especially within 
the schools is critically important. You know, visits. You have 
been to the Antarctic, but have you been to the arctic?
    Chairman Inglis. I have not.
    Dr. Bement. There is a whole range of exciting things that 
are going on in the arctic and the trans-arctic. Greenland, for 
example, would be a very interesting place to visit. So getting 
firsthand experience in what is happening in IPY and then 
bringing that back, I think, would be critically important.
    Chairman Inglis. Right.
    Dr. Manahan, any thoughts on that?
    Dr. Manahan. Absolutely. I couldn't agree more about that 
comment that Director Bement made about promoting visibility 
even within your own districts.
    I think this message is just starting to get out that the 
poles affect, potentially, everybody's lives. Even my mother 
asks me these questions, and she rarely had asked me questions 
for 26 years since I have been in America. She called me from 
Ireland after news broke about possible melting of issues in 
the north and pushing back the currents and cooling down 
northern Europe and possibly northern America. It is a 
speculative model, but it is remarkable how few people seem to 
be aware of these issues. So--and promoting visibility as much 
as you can, talking about it in your speeches when you talk 
with your--anybody in your communities to get the word out, 
because as you said, people in the Carolinas may say, ``Well, 
is this really affecting me?''
    Chairman Inglis. Right.
    Dr. Manahan. Yes.
    Chairman Inglis. Other suggestions about ways we can help 
here, in Congress, to accomplish that? Mr. McCaffrey had the 
good idea of making sure those posters are in every classroom 
kind of thing. And maybe make ``March of the Penguins'' as 
required viewing or something.
    Mr. McCaffrey. You know, from my perspective, in kind of 
the trenches of education, the science education world, a lot 
of the incredibly talented folks are scrambling for funding. 
And so I don't mean to come across like we are, you know, 
desperate for funds, but I do feel , from the research I have 
done and the people I have talked to, that we have a science 
education crisis, particularly, I think, at the K-12 level in 
this country. And some of it has to do with the preparations 
for teachers. We actually have some exciting plans, for 
instance, for the National Science Teacher Association meeting 
this coming March 2007, which is perfect timing for the launch 
of the IPY to have a number of symposia that NSF and other 
agencies are organizing in St. Louis that, I think, will 
actually make a big splash with a lot of the science teachers 
out there. so if we can continue to leverage those types of 
events and provide the training and the networking, not just 
nationally here, but I--to my mind, one of the huge 
opportunities of this is to have teachers network 
internationally, along the lines of the Globe Program, which 
you may be familiar with, that has a network of teachers around 
the world where the students collect data and then share data 
among themselves through the Internet. And----
    Chairman Inglis. One suggestion to pass along to you--I was 
excited to hear you mention the mission list module that--
research module. I speak--I presume to speak for Roscoe 
Bartlett, who was also on the trip. He is a Member of Congress 
from Maryland. He was asking in Antarctica about the use of 
more windmills and the use of solar to produce some of the 
power rather than diesel generators. It would be a neat way, if 
that is possible, to hook the poles with alternative energy so 
that it makes it much more interesting that here, in this 
environment, we are keeping it pristine as much as we can by 
producing energy from renewable sources. That would be pretty 
exciting. You have got a lot of wind there and an awful lot of 
sunshine, at least--well, not now. But I hope that happens.
    I see my time is up, but let us see, Ms. Matsui.
    Ms. Matsui. Thank you, Mr. Chairman.
    And I want to thank all of the distinguished witnesses 
today for testifying before us.
    And I realize in your testimony that I was probably, as a 
young person, a beneficiary of the last polar year in the 
education arena, the emphasis on science and excitement of it. 
And I would like to see more of that happening, obviously, with 
this IPY. Young people are very, very interested, and to get 
them interested in this way is, I think, absolutely 
fascinating.
    To get to a very practical place, I represent Sacramento, 
California. And after New Orleans, we are now the most at-risk 
river city, as far as flooding. And so I am doing everything I 
can, obviously, to protect my constituents. And an essential 
component of that effort is to understand how global climate 
change can be affecting the snow melts in the Sierra Nevada 
Mountains and the weather patterns coming off the Pacific 
Ocean. And from your testimony, it is clear that IPY has the 
potential to yield valuable insight for my constituents and for 
people all over the world. And I do look forward to working 
with you, because, on a very practical level, I can see now 
where this particular effort now is going to be really 
meaningful for people in the community, in essence. I am 
certainly making an effort. I live at the confluence of two 
rivers. And we see every day that the weather patterns coming 
off the Pacific are more intense now. We have more rain now and 
not as much snow. And as the snow melt comes much faster, we 
are going to be impacted. So for us, it is certainly something 
of very much interest.
    I would like to ask any of you if past research has 
actually revealed what happens that polar regions drive, 
actually, the fundamental processes of the globe and--such as 
ocean circulation and the early signs of global climate change 
in high latitudes. How will research, under the IPY, advance 
understanding of these processes associated with climate 
change? And are there any particular projects that you have in 
mind or types of projects that would be enabled by this? I am 
looking at very practical efforts here, because that is a way 
to get our constituents and the people of this Nation really, 
really involved.
    Dr. Bell. Maybe I will answer, and then I think Kelly looks 
like she has something to follow up on.
    And one of the things that came out of the planning process 
of the Academy was this similar sense of concern about 
environmental change and our ability to monitor it. One of the 
real goals is to come out of the IPY with two things: one, a 
better understanding of how the polar environments are 
changing; and two, the better capability of how to watch them 
change so that we can both contribute to the models of change 
and also understand how fast it is happening. So those are sort 
of the two messages back to you that--both trying to understand 
the basic physics and the rates and the processes and then 
putting in place a system so we can see how the poles are 
changing. We, as scientists, actually have been surprised at 
how fast the poles and the planet is changing. I mean, my 
little story is 20 years ago, when I entered graduate school, 
the debate was whether or not we were going to enter an ice 
age. It has taken, you know, five to seven years for the 
community to swing. So we now, as a--fairly uniformly believe 
that the planet is changing, and every year, we chock up more 
information on how the poles are changing, and we realize we 
haven't been looking at them carefully enough. And that is one 
of the very fundamental tenets of what we hope will come out of 
the IPY.
    And I think Kelly looked like she wanted to follow this up.
    Dr. Falkner. Yeah. There is an effort within the community 
to try and assess what the impact of the loss of the ice cover 
in the north would be, for example. The reason we need to be 
concerned about that, with respect to the heat balance, is that 
snow-covered ice reflects the majority of incoming light, and 
water is a very efficient absorber of that. So you are going to 
change things fairly dramatically. The work that has been done 
to date suggests that it will have strong effects on regional 
climate. I am aware of a study actually conducted in your 
district by people who pointed out the possibility that the 
loss of sea ice cover in the Barents Sea, all of the way around 
the globe, is going to shift storm track patterns in the 
Pacific north so that Alaska regions would receive more rain 
and Oregon would become more like Sacramento. And again, there 
are studies that are focused primarily on regional climate that 
show, as you say, that the snow pack is diminishing. The timing 
of our rain will change. These are the things that are in 
models, and these models will be informed by the activities of 
the IPY. The physical processes that we are using in these 
models need to be improved for our confidence levels to go up, 
and that is a major objective of IPY.
    Ms. Matsui. Okay. Thank you very much.
    I have to just say that, for my constituents, and I think 
people in California, in particular, anyway, is that we are 
greatly affected by this. And I think, for most of us in 
California, we understand this, so we are aggressively trying 
to figure this out. Obviously, in many cases, government works 
very slowly, but what we are trying to do is incorporate some 
of the scientific information into policy arenas as much as 
possible. And as much as you could tailor your projects to look 
at practical aspects, I think the better it is for all of us as 
we move forward.
    So I really thank you very much. I--would you also like to 
comment? I am sorry. Do I have enough time or am I----
    Mr. Sodrel. [Presiding.] Your time has----
    Dr. Manahan. Mr. Chairman, can I comment?
    Mr. Sodrel.--expired, but a very short comment.
    Dr. Manahan. Sorry. Sorry. Sorry.
    Dr. Bement. Yes. High visibility is a very important issue 
to understand. We know that the ice sheet in the western 
Antarctica is beginning to break up. Those ice sheets tend to 
hold back the movement of land-based glaciers. As those ice 
sheets break up, the glacier movement accelerates. We know the 
surface water will penetrate as much as a kilometer down into 
the ice and will lubricate the movement of glaciers. And we 
know, as a matter of fact, that glaciers in Greenland, as a 
result of this effect, are beginning to accelerate. Those are 
the kinds of mechanisms we need to understand. We need to know 
what the inter-relationship is near the oceans and lithosphere 
as well as the ice sheet.
    Mr. Sodrel. We are trying to keep on schedule while we are 
also trying to vote, so I am going to yield to myself since we 
are a little out of order here, but I will ask a question, 
because I will have to have leave as soon as the Chairman comes 
back.
    You know, I attended a lot of trade associations when I was 
in the private sector, and people would say, ``Boy, this is a 
great meeting.'' Well, you don't know it is a great meeting 
until you go home and see what develops as a result of the 
meeting. And my question for you, if I might, is how will you 
know the International Polar Year has been a success? What 
would you like to see accomplished? And what is the desired 
result that you would like to see at the end? And we will start 
with Dr. Bement.
    Dr. Bement. Well, first of all, we will understand 
considerably more about the impact of climate change on the 
ecology in the arctic and the Antarctic. We will understand 
more about ocean flow patterns in the Arctic Sea and to the 
Bering Sea and on into the North Pacific and how that affects 
fish production, seafood production, in those regions. We will 
understand more about the impact of global change on the native 
populations in Alaska and on coastal erosion and also on the 
thawing of the tundra, which is causing considerable damage not 
only to housing but also infrastructure. In the Antarctic 
region, we will understand more about paleoclimate change over 
two million years. And we will also understand more about the 
climate patterns that existed over the entire continent. In 
some parts of Antarctic, the temperature is rising. In other 
parts, it is cooling. In some parts of Greenland, at least on 
the margins, we are seeing considerable melting, but in the 
center of Greenland, we are seeing ice buildup. Those are 
patterns that we need to be able to model in order to predict 
better what the volume change of ice melting is likely to be 
over time. And the work of NASA in helping us understand from 
space what is happening on the surface of the ice sheet areas 
compared to what we could measure on the ground will also be 
critically important.
    Mr. Sodrel. Dr. Bell.
    Dr. Bell. In addition to the important inputs towards 
understanding the planet and the change and looking at those 
new frontiers, the other success will be if we stimulate both 
the scientifically-literate public and the next generation. 
That is really one of the long-lasting legacies of the previous 
IPYs and people who went into science because of it and people 
who were educated at an earlier age. So I think that is the 
other clear benchmark that we have set for ourselves is the 
scientifically-literate public and engaging the next generation 
of leaders.
    Dr. Manahan. And I think another matrix of success, in 
addition, I would agree completely with what I have just heard, 
would be a move towards a more interdisciplinary kind of 
systems thinking that links life sciences and physical 
sciences. As you know, for 50 years, those are often in 
universities in separate buildings. They are separate graduate 
program, separate undergraduate education. We have to start 
linking the life and the physical sciences and in between, the 
chemical sciences, et cetera, and that is going to be, I think, 
at the graduate level, a very obvious matrix of success if we 
start to see the emergence of new ways of training the next 
generation of scientists and engineers.
    Mr. Sodrel. Yes.
    Mr. McCaffrey. I would just like to add that, in addition 
to what Robin was saying about a science-literate society, I 
think that this is an opportunity for people to gain skills in 
understanding how science is conducted in terms of how 
scientists go out and collect data and analyze the evidence and 
so forth, because I think increasingly people are going to have 
to become--they are going to have to start making decisions 
and--along the lines of what Ms. Matsui was saying in terms of 
her community and her constituents needing more scientific 
information as they make decisions in their lives. I think IPY 
is an incredible opportunity for us to kind of demystify how 
science is conducted. And we know a lot about people's 
misconceptions in terms of polar regions. People are 
disappointed to learn that polar bears don't live in 
Antarctica, for instance. And these types of misconceptions are 
also an opportunity for us to sort of get them engaged and 
excited about the science involved.
    Dr. Falkner. I guess I have the last comment here.
    I think we will be successful if, when you ask the general 
public, the majority of them know, by the end of IPY, where 
Antarctica is, where the arctic is, they don't mix them up, and 
they know they are very important to the whole global system.
    Mr. Sodrel. Thank you. The Chairman hasn't made it back. I 
want--I have only got about five minutes or maybe a little less 
to get to the Floor, so I would like to call a 10-minute 
recess, because I am confident that the Chairman will be back 
in 10 minutes.
    Thank you.
    [Recess.]
    Chairman Inglis. Let us see. We will resume the hearing 
now. I am aware that we don't have Ms. Hooley back yet, and she 
hasn't had an opportunity to ask questions. But while we are 
waiting for her, maybe I will go ahead and ask a question.
    But Dr. Bement, you had something to add.
    Dr. Bement. Yes. I was looking for an opportunity to tell 
you about our alterative energy source that is----
    Chairman Inglis. Oh, good.
    Dr. Bement.--in our plans, and this----
    Chairman Inglis. Yeah.
    Dr. Bement.--might be a good time.
    Chairman Inglis. Yeah, I--that would be a great time to do 
it. Please.
    Dr. Bement. We currently are using wind turbines to power 
our satellite communications, and we plan to increase that. Now 
we have, as part of our request for 2007, a planning exercise 
to extend that type of alternative energy supply to include 
photovoltaics and also biodiesel. So it is a very active part 
of our program, and we appreciate your support on that.
    Chairman Inglis. Yeah, what--and what do we need to do make 
that happen in Congress?
    Dr. Bement. Well, I think a little bit of hand-holding 
would help, but we already have a good momentum to make this 
happen. And of course, it will offset the use of diesel fuel. 
So this will take place over time, but we are pursuing it.
    Chairman Inglis. Right. Well, I am speaking in for Roscoe 
Bartlett, who was very interested in whether there are also 
some ways to handle waste differently than we are handling it 
now at the--and perhaps advance systems for dealing with that. 
Is that--any work being done on that?
    Dr. Bement. On waste disposal or retrograde, as we like to 
call it?
    Chairman Inglis. Particularly sewage systems that might be 
adapted for that environment. He had some thoughts that----
    Dr. Bement. If I may, I would like to call on Dr. Erb to 
answer that question.
    Chairman Inglis. Sure.
    Dr. Erb. Mr. Chairman, we--as I think you know, we have a 
very--you probably remember all of the different waste baskets 
you had to sort trash into.
    Chairman Inglis. Right.
    Dr. Erb. And as a result of that, we actually make money on 
trash. It is so well sorted, that when we bring it back to the 
States, we can actually sell it. Sewage treatment at McMurdo is 
done through a--I think it is a three-stage biochemical waste 
treatment plant. So we are in good shape there. We are well 
ahead of most other countries and way in advance of what the 
Antarctic Treaty requires. At the South Pole, we are interested 
in seeing if we could develop a closed system. Closed systems 
work in the space station, for example. And what we are looking 
at is whether we can scale that kind of system up to a system 
where you have 200 people creating waste.
    Chairman Inglis. Right.
    Dr. Erb. So we don't know if we can do that yet. It is 
something that is on the agenda to continue to look at. Here in 
the room today, one of the young people in our office, Maggie 
Kanopp, has been discussing and attended a meeting in Australia 
last year where she presented what we are doing in McMurdo and 
talked to other countries, particularly the French, who are 
also experimenting with this closed circuit system.
    Chairman Inglis. Yeah. And I think Roscoe mentioned--Roscoe 
Bartlett mentioned composting as a possibility. Is that the 
kind of system--particularly in the field operations.
    Dr. Erb. Yes, in the field operations, that is possible. We 
have done that in some areas, and that is just a matter of 
straightforward scale-up.
    Chairman Inglis. Right. For the record, we have been 
hearing from Dr. Karl Erb, who is Director of the NSF Office of 
Polar Programs. We thank you----
    Dr. Erb. Thank you, sir.
    Chairman Inglis.--for answering that question.
    And we are mostly waiting for Darlene Hooley, if she has an 
opportunity to come back.
    But I wonder if, while I was out handling that vote, I 
wonder if there are other comments that you might want to add 
that you feel deserve a little amplification.
    Dr. Bell, you look like you have something to----
    Dr. Bell. Well, I think the--you know, the interesting 
question is, you know, are there any hurdles out there to keep 
the International Polar Year from being a success.
    Chairman Inglis. Right.
    Dr. Bell. I mean, it has come a tremendous way in the four 
years since the planning really started in earnest, mostly in 
the United States and internationally. And when I stand back, I 
think there seem to be sort of four potential hurdles or things 
that could be improved, and I thought maybe I would share the--
--
    Chairman Inglis. Yes.
    Dr. Bell.--these with you. First is, NSF is doing a 
tremendous job in their leadership in putting forward and 
planning the International Polar Year. But I think it would 
be--the polar year will be more likely to succeed if the 
support from the agencies is deeper and broader. I think there 
could be stronger engagement from more of the agencies.
    I think the second one is, clearly, funding. Again, funding 
at a greater level across the board, beyond NSF. I think it is 
very clear that those two come together: the engagement of the 
agencies and the funding specifically for projects within other 
agencies.
    Chairman Inglis. When you are speaking of ``other 
agencies'', you mean, for example, EPA or somebody like that 
or----
    Dr. Bell. The ones that come to mind that I think would--
could strengthen their engagement would be NOAA and NASA. Those 
are the big players that I think would--a stronger engagement, 
because of the tools they bring to the table, or the potential 
tools they bring to the table, a deeper engagement would 
strengthen the outcome.
    The third would be I think a little bit more coordination 
nationally and internationally. It is something that much of 
this has been done on a shoestring, on both levels, and I 
think, again, science is very different now than it was in 
1950s, or in 1882, when much of it was run by admirals, 
captains. It was run by the military and it was very top-down. 
The nature of science today is much--as you know, is much more 
grass roots. And we are running the balance between how do you 
have tremendous grass roots efforts and how do make sure you 
coordinate it to maximize the output. So I think a little bit 
more coordination.
    And the fourth one is one that Dr. Manahan mentioned was 
the need to continue to foster interdisciplinary research, that 
that is really what is different about this IPY, and it is 
something that our society will benefit from when we break down 
these disciplinary boundaries, and so continuing to look for 
ways to foster that process, because it is hard. It really is 
hard for scientists and agencies to talk across those 
disciplinary boundaries.
    So those would be the four things that I think need a 
little attention or thought.
    Chairman Inglis. Do others want to add something to that?
    Mr. McCaffrey. I would like to just make a follow-up to Dr. 
Bell's comments. Within the international EOC Subcommittee, we 
have been looking at how to try to integrate education, 
outreach, and communication in new ways, because over the 
years, those realms have become very specialized and often the 
public affairs folks at agencies don't necessarily know what 
the education people are doing. And then the informal education 
folks working with museums and science centers don't 
necessarily know what is happening with--in classrooms, for 
instance. So this, I think, is also an opportunity to be 
integrating at that level as well.
    What Robin just mentioned about the grass roots aspect I 
think is particularly true in education. And we--at the Poles 
Together Workshop we held in Boulder last year, there were a 
number of folks that had been students during IGY who, you 
know, were retired or were still excited to be involved with 
planning for the upcoming IPY, and they commented on how 
different it is now than it was then in terms of just this 
incredible enthusiasm at the grass roots level. And so whatever 
we can do to continue to build that community and support that 
community of, for instance, teachers who--that had been to 
Antarctica through NSF programs and so forth, we need to really 
do whatever we can to keep that enthusiasm alive, because 
people get discouraged. And you know, I think NSF has done an 
incredible job of providing leadership, and at the same time, 
there is the reality that 80 percent of the proposals that were 
submitted did not get funded. So there is more we could do to 
support these efforts.
    Chairman Inglis. And Dr. Manahan, what do you think about 
the possibility of using the International Polar Year to 
somehow reduce the political overtones in the climate change 
debate? I mean, is this an opportunity to maybe sort of stick 
to science and sort of turn down the heat on the political side 
of things and turn up the emphasis and the heat on the science? 
Could that be an outcome of the International Polar Year?
    Dr. Manahan. That is a very, very insightful question.
    I think you are absolutely right. I think it has to be made 
clear that the scientific process always involves disagreements 
and debates. And sometimes it is picked up as being that there 
is not a consensus. And I think it is fair to say that there is 
an enormous consensus that the globe is warming. And without 
getting into the debates about causality, just that it is 
warmer. And we have to deal with this. And just that step 
alone, as a sort of a national or an international recognition, 
I think would be extremely important. The debate about the 
cause and all of those issues are secondary, but right now, it 
is warmer, and we have to deal with this. And it is going to 
require a different level of training of people to see its 
impact. It is going to be a different kind of science. America 
has led the world in graduate education for decades and decades 
and decades, and it will continue to do so if we are very 
forceful in coming up with new ways to educate at that graduate 
level, so we will still be this great magnet to attract the 
best and the brightest, you know, from around the world. I 
would like to think that I am one of those who was attracted to 
America for that very reason. And I--and we have a real 
opportunity to hit two things here: one, to educate people 
about the scientific consensus; and two, to excite graduate 
students and younger students to come into the sciences in a 
very interdisciplinary way.
    Chairman Inglis. Does anybody else want to comment on that?
    If not, we are very happy to have been joined by Ms. 
Hooley.
    Mr. McCaffrey. Actually, could I just make another brief 
comment to follow up?
    The Time Magazine article that Dr. Manahan showed, I think 
the notion of being very, very worried is not necessarily very 
effective for young people. Young people want to have the 
tools. They want to have the insight, and they need the 
scientific savvy to be able to understand these very complex 
issues. You know, when we talk about climate change without 
understanding climate, I think we are sometimes getting ahead 
of ourselves. And there are some very, very fundamental issues 
in terms of just understanding seasonality, you know, what 
happens over the course of the year in terms of the water cycle 
and the carbon cycle and how we use energy and so forth that 
could be outcomes from IPY. You know, we are focusing on the 
poles where the seasons are very extreme, but we can also use 
that as an opportunity to just look at the basics of how we 
live our lives and how we can use simple scientific 
observations and data to become more sustainable and so forth.
    Chairman Inglis. Yeah. And I would point out that--I am 
really taking all kinds of license here with the time. I think 
I have had more time to talk here than anybody else today.
    But I point out that one of the strengths of the trip that 
we took to Antarctica was being able to hear from people, very 
knowledgeable people, who presented the facts, as they 
understood them, or the observations that they have taken in a 
non-hysterical way. Sometimes--well, I won't be--I don't want 
to be too critical of Time Magazine's cover, but it sort of 
begins to tend toward hysteria, which causes a reaction among, 
particularly conservatives, who say, ``Wait a minute. Wait a 
minute. Let us not get hysterical here.'' But to hear 
presentations like we heard from Dr. Manahan, very thoughtful 
presentations with observations that were clear, and I am sure 
that there are some people that would doubt some of those 
observations, and there are all kinds of debates about the 
observations, but the weight seems to be there that the 
observations are valid and they are worth considering, and 
therefore, we should be taking some action. And it helps to 
have it presented in that way. And so to have had that 
opportunity was a real eye-opener for me and very helpful to my 
understanding of the issue.
    Dr. Bement, do you want to add something to that?
    Dr. Bement. Yes, I just wanted to comment briefly that 
there has been a revolutionary change that we have an 
opportunity now to use very effectively since the last 
geophysical year in 1957 and 1958. In those days, we could 
inform the public, but we didn't have the capability to involve 
the public. Now we can involve the public. We have the 
Internet. We have I-pods. We have broadband communications. We 
can bring, in real time, polar exploration into the classroom, 
and we can involve the children directly in the activities 
going on, either in Alaska or in Antarctica. That is a dramatic 
shift in the way we can communicate and communicate broadly 
across a whole nation.
    Chairman Inglis. Yeah. And you know, it is interesting. I 
want to get to yield to Ms. Hooley, but since coming back from 
the trip, a number of times I would be passing through our 
kitchen, and I would say to my kids, ``Let us see what is 
happening on the webcam.'' You know. And it is just--I mean, it 
is fascinating just to turn it on, and they would say, ``Oh, 
that is so cool.'' You know. And I have kids that are somewhat 
interested in science, not from their dad, from their mom, but, 
you know--so, but my interest in the--in being there and 
showing them the webcam caused them to get excited about 
Antarctica. So school kids across the country being able to, as 
you say, Dr. Bement, access the webcam and see what the weather 
is looking like right now in Antarctica. Of course, they 
wouldn't be very interesting pictures right now, but once the 
sun comes up, there are some great shots.
    So now, Ms. Hooley.
    Ms. Hooley. Thank you, Mr. Chair.
    For all of you, I just would like to ask, if we didn't have 
the International Polar Year, what are some of the research 
projects or type of projects that wouldn't get done, or would 
they all get done whether we have it or not?
    Anyone want to answer? Go ahead, Dr. Bement.
    Dr. Bement. The one thing that has happened as a result of 
IPY is international collaboration and the ability to work on a 
much larger and higher level of complexity than what would 
normally be possible. For example, we have an International 
Trans-Antarctic Scientific Expedition [ITASE], which I believe 
is involving 19 other nations working collaboratively to 
understand, at least within the near surface of the ice, what 
has happened over the last 200 years since the beginning of the 
industrial revolution in climate change across all of 
Antarctic, not just in one specific region. We could not have 
done that before. We have developed new facilities in 
preparation for IPY that will provide further outreach into 
regions of Antarctic that would ordinarily not be accessible 
for ice drilling and for other activities. We will be improving 
our communications systems on a scale that would not have 
happened otherwise, not only in the Antarctic, but also in 
Alaska at their new global change laboratory.
    So there are a number of things like this that I don't 
believe would have happened otherwise.
    Ms. Hooley. Okay.
    Yes.
    Dr. Manahan. I have a comment that struck me, as you were 
saying, Mr. Chairman, about it would be--it would not be 
interesting to look at Antarctica right now, because it is 
dark. But just remember how many things are going on on planet 
Earth in the dark. And I think this new initiative of NSF, Life 
in the Cold and Dark, is an example of some very new thinking 
about--in stimulating the life sciences to look into this cold, 
dark biosphere. A number that is in my written testimony that I 
didn't mention in my oral testimony is that if you look at 
anywhere where anything can live on planet Earth, some 90-plus 
percent of it has to live in the refrigerator. And so this is--
the most of this planet Earth is cold biosphere. Most of it is 
cold.
    Ms. Hooley. Ninety percent?
    Dr. Manahan. Eighty percent alone is in the deep sea, which 
is at about two to four Centigrade. Oceanographers have known 
this for a while. And the link between the poles through the 
deep sea, it is a huge biosphere. And looking into this dark, 
cold biosphere in the poles is a great type of program that 
will understand the cold biosphere, which ultimately, in a 
cold, dark way that we don't even think about, many that are 
microbiological processes, they are sustaining life on this 
planet. And we need to know what they are doing in the dark.
    Ms. Hooley. Dr. Bell.
    Dr. Bell. When you ask, ``What would not have occurred 
without the International Polar Year?'', Dr. Bement pointed to 
a number of very international programs that wouldn't have 
happened. But to--what has surprised me, and I think will be a 
lasting legacy, is how putting this process on the table has 
opened the doors for meaningful collaboration with places that 
we wouldn't have been able to collaborate before, so that we 
would have been going out, very similar to what was happening 
in the 1880s with territory. We would have been going out and 
doing our individual science, trying to go places, trying to 
accomplish our goals, but in fact what this honeycomb that you 
have seen has produced is a willingness across the world for 
doors to be opened and conversations to be happening so that we 
have a greater number of minds working on these problems. And 
we are actually building a stronger international science 
community. It is--I hadn't actually anticipated this as an 
outcome, but I have found, through my own research, I found the 
doors in China, for example, thrown open where I had not been 
able to make in roads before.
    So to me, that is one of the--it is difficult to point to 
all of the individual projects, but I think it is the--what we 
are going to see is the multiplicative effect. We are going to 
get more off our investment. We are going to learn more, 
because of the greater number of brains that are being applied, 
and a variety of approaches.
    So I think that is one of the precious nuggets that is 
going to come out is sort of the enhancement of the science at 
a level that we wouldn't have seen otherwise.
    Ms. Hooley. Have you seen other countries willing to put in 
additional money for this project where, I mean, they may have 
allocated X amount of dollars but because an International 
Polar Year they are putting in additional dollars for this?
    Dr. Bell. Well, I think that--I mean, certainly, there are 
the nations that have put in specific allocations for 
International Polar Year: China, Canada, and the European Union 
have put in significant new funds for the large scale. I don't 
have any good examples off the top of my head of, you know, 
places where individual projects have gotten significant 
increments, but in terms of the whole umbrella, the--there has 
been additional investment in the polar sciences.
    Ms. Hooley. Dr. Bement.
    Dr. Bement. Well, close to home, Canada has already made a 
commitment for $150 million for International Polar Year, and 
they are going to be one of our important partners in the 
Arctic Exploratory Network, which we are putting together with 
other arctic nations, such as Sweden, Finland, Denmark, 
Greenland, Iceland, and Russia, to look at global climate 
change as part of the search network. And so that will be a 
collaborative activity that would not, again, have happened 
otherwise.
    Ms. Hooley. Yes, Mr. McCaffrey.
    Mr. McCaffrey. In terms of the education, outreach, and 
communication aspects of IPY, and referring, once again, to the 
honeycomb, every single one of these cells on the honeycomb, 
and some of these are made up of multiple projects, a dozen 
projects in some cases, they all have their own education, 
outreach, communications plans and strategies. And then there 
are 54 programs over here on the side that are specifically 
education outreach oriented. And none of this would have 
happened if it weren't for IPY and the collaborative, sort of, 
incubator that this whole process has provided. The process has 
not been easy, and certainly not all nations have required 
people to be involved at the national--at the international 
level, but for those of us who have participated and had the 
patience to stay involved, it has led to some unbelievable 
partnerships that otherwise would never have happened.
    Ms. Hooley. Yes.
    Dr. Falkner. If I may speak, please. First off, I just want 
to say it is really obvious to me we have got to get you to the 
arctic. There is a cam up there that I am part of a party 
putting out, so if you want to see the weather at the North 
Pole, you can tune in there, too.
    The comment I want to make regarding what we might not have 
done without an IPY effort is that back in 1995, the arctic 
science community wrote an open letter that I circulated, I was 
a signatory of this, saying we are seeing remarkable changes. 
They look well outside the scope of a highly variable 
environment, so we are very concerned and we know we need to 
address this. Now this has evolved to this broad interagency 
initiative we are calling SEARCH, but the attempt to get SEARCH 
really going has been more than 10 years in the making. What 
IPY offers us is the chance to jumpstart what we know we need 
to do in order to observe the changes in the arctic, which are 
very dramatic and perhaps, you know, in some sense, more 
dramatic than what you witnessed in Antarctica.
    Ms. Hooley. Dr. Falkner, a question. You talked about if 
you--if IPY is fully implemented as envisioned, that you would 
see permanent observation networks. Do you see any sign that 
IPY will not be implemented as envisioned? I mean, is there the 
money to do it? That is always an issue.
    Dr. Falkner. Certainly, that is true. The level that was 
informally discussed is--among a board of people looking at 
this, is a lot larger than what we have on the table. I 
personally am concerned that, particularly the other agencies, 
which do have as Robin pointed out, some important components 
to contribute, are pointing to what they are doing in science 
and don't necessarily have the means or the commitment to do 
intensified research at the poles. So I think Robin summarized 
nicely the concerns about the issues.
    Ms. Hooley. Okay. Dr. Bement, let me ask you just a quick 
question.
    You are the lead agency. What does that entail? What does 
that mean?
    Dr. Bement. Well, we started planning in cooperation with 
the National Academy of Sciences and Dr. Bell's research board 
three years ago. In the course of coordinating with the 
National Academy of Sciences and also with the International 
Council for Scientific Union, we also had interagency workshops 
and meetings. I hosted one of those at NSF in order to put all 
our plans on the table. And we gathered those plans, and we 
have been working on them since, and you now have an update of 
what is currently being planned and roughly what the funding 
is. So that is sort of a snapshot of where we are today, but 
our planning will continue over the next year.
    Also, in the terms of education and public outreach, we 
have had workshops putting together the information officers of 
all of the participating agencies to coordinate how best we can 
communicate the results of IPY to the public and what kind of 
educational initiatives we should be supporting. That has been 
very helpful in our planning, and it has also led to a common 
website on the Internet, which is available to anyone, which 
will have all of the current outreach and educational 
activities being planned by all of the participating agencies.
    So those are some of the coordination mechanisms we have 
responsibility for.
    Ms. Hooley. I have one last question for all of you.
    We have got your written testimony. We have asked 
questions. Is there something that you think we need to hear or 
know that you just can't wait to get out and we haven't asked 
you the question?
    Yes.
    Dr. Bement. Just to put the hearing in a longer-term 
perspective, the International Geophysical Year and the 
International Polar Year III occurred 50 years ago, and that 
led to a wealth of data and also a wealth of archived 
photographs that is still being mined today. So there has been 
a long-term legacy based on what happened 50 years ago. Our 
outlet in IPY 2007 is to develop the legacy for the next 50 
years, and there will be much more data generated. They will be 
analyzed in terms of modeling and simulation, trying to get a 
deeper understanding and be able to develop predictive tools of 
where our planet is going over the next 50 years. And I think 
that long-range perspective shouldn't be lost sight of.
    Ms. Hooley. Dr. Bell.
    Dr. Bell. I would like to second that in that I have a 
paper in review that is using some data that grew out of an IPY 
project that was never published, so you know--and somewhere 
this is now new different data that no one has ever had a 
chance to look at, but it shows you what a legacy this data 
has, particularly when it is in these places that are so 
difficult to get to. So I feel very strongly that the legacy of 
the data is--scientists love data. It is their gems. It is 
their truth. You know, we may not wear beautiful jewelry, but 
that is what is our tenet. You know, that is on which we build 
our results, so the data and the legacy of the data, besides 
the other important legacy of the people. You know, people like 
Dr. Bement, who--I believe one of the reasons he went into 
science and engineering had to do with the lure of 
International Geophysical Year. So those are the legacies that 
we look at so preciously.
    Dr. Bement. I hate to say I was getting my masters degree 
at the time.
    Dr. Manahan. I, too, would like to comment on this legacy 
thing.
    It is very important that we don't do this quick-burst, one 
or two years and then say, you know, ``We are done now. Let us 
move on.''
    Ms. Hooley. Right.
    Dr. Manahan. I work in a building that I am told there were 
samples collected on big expeditions in the 1930s that aren't 
still finally worked up. It is fairly easy, in environmental 
science, to collect data and samples. It is the workup, as you 
have heard. And so it might be worth even, you know, calling us 
to order, if I may use that phrase, in years to come and say, 
``Well, where are we five years, 10 years?'' There is going to 
be a huge legacy of data that we have to keep an eye on and not 
just, you know, cut off the funding support and say, ``Good. 
You went there. You collected it. It is over.'' Decades and 
decades of information is going to come out of this.
    Ms. Hooley. Okay. Thank you.
    Mr. McCaffrey. Excuse me. I--the legacy, to me, is a huge 
opportunity, and recently, I read an article that Kevin Wood 
and Jim Oberland from NOAA put together about the data from the 
first IPY, and the focus on the arctic that--it is a 
fascinating, sort of data story, if you will, a narrative 
description of what went on during the first IPY in terms of 
the number of stations and how the data were collected. And 
then they actually do a reanalysis of the data, and, in effect, 
they create a baseline data set, which was actually never 
accomplished back in the first IPY, but looking back over 125 
years at this reanalysis not only makes a fascinating 
historical story that I think can help us understand the 
history of science and technology certainly in the United 
States and even internationally, but it also is a showcase for 
how data from many, many years ago that was essentially 
forgotten about can be resurrected and be very relevant to 
today's studies.
    So I think there are many, many opportunities like that 
that we can begin to mine.
    Ms. Hooley. Thank you.
    Dr. Falkner. And I am very much hoping that the IPY serves 
as a showcase for how we communicate science to the public and 
how we engage the public. I think there are a lot of creative 
ideas I am aware of. We don't know specifically which 
directions we are going in yet, but I think there is a 
tremendous potential there.
    Ms. Hooley. Good. Thank you.
    Chairman Inglis. Well, thank you very much to all of you 
for testifying here today.
    Dr. Falkner, I have got to get that webcam address from you 
so that I can look at it. And Dr. Grossman has just pointed out 
that the sun will be rising at the other one here soon, I 
suppose, so I need to go look again at that--at the Antarctica 
cam.
    And I think, Ms. Hooley, that this was an engraved 
invitation that we got from Dr. Bement to go to the North Pole, 
don't you think?
    Ms. Hooley. I absolutely believe that.
    Chairman Inglis. I think that it is one that we should 
accept as soon as we can.
    So I thank you all for testifying. Thank you for the work 
you are doing.
    Ms. Hooley. Thank you.
    Chairman Inglis. We are excited about it and we want to 
help you make it a great success.
    Ms. Hooley. It is really important.
    Chairman Inglis. Hearing adjourned.
    [Whereupon, at 12:00 p.m., the Subcommittee was adjourned.]

                               Appendix:


                   Answers to Post-Hearing Questions

Responses by Arden L. Bement, Jr., Director, National Science 
        Foundation

Questions submitted by Representative Darlene Hooley

Q1.  Has joint planning by the agencies participating in the 
International Polar Year (IPY) produced a coordinated research agenda 
with a corresponding budget? What is the total planned federal budget 
for fiscal year (FY) 2007 in support of IPY activities, by agency?

A1. The National Academies of Science developed broad goals and 
objectives for U.S. IPY activities. NSF and its sister agencies 
participate in meetings devoted to discussing their plans for IPY 
research, education and outreach. For example, several Interagency 
Arctic Research Policy Committee (IARPC) meetings were devoted to 
discussing the IPY plans of the federal agencies, as was a workshop at 
the National Academies of Science.
    One major coordinated program is SEARCH, the Study of Environmental 
ARctic CHange. The IPY focus for this program will be on implementing 
an Arctic Observing Network (AON). In FY 2006, NSF provided $4 million 
toward AON. Subject to Congressional approval, NSF will provide up to 
an additional $6 million toward AON in FY 2007. In this activity, NSF 
is working primarily with NOAA and NASA, but opportunities are also 
being explored with DOE and DOI. Network sites are being established, 
with the U.S. playing a leading role in Alaska, Canada, Russia, and the 
Arctic Ocean.
    NSF will direct $31 million from ongoing programs to IPY, and its 
FY 2007 budget requests an additional $30 million for IPY.
    In recent data calls to other agencies, many indicated that they 
would contribute on-going Arctic and Antarctic programs to IPY. See, 
The International Polar Years 2007-2009--Report on U.S. Federal 
Agencies' Planning, submitted with Dr. Bement's testimony at the 
September 21, 2006 hearing on IPY, and the web site created by NSF as 
part of its work to coordinate IPY activities among the agencies: 
http://www.us-ipy.gov/. This site includes updates on the various 
agencies' programs, as well as information on IPY for a general 
audience, and for scientists and educators interested in obtaining IPY 
funding from the U.S. Government.

Q2.  Did the Administration give any direction through the Office of 
Science and Technology Policy or the Office of Management and Budget 
for agencies' funding targets for IPY activities for FY 2007?

A2. While the Administration is supportive of NSF's IPY activities, NSF 
does not comment on OMB guidance or other predecisional discussions 
with OMB.

Q3.  How will individual research projects be selected and supported? 
Does each agency do its own proposal reviews or are there joint 
reviews? Are there any international projects planned with joint 
reviews?

A3. Merit review is a critical component of NSF's decision-making 
process for funding research and education projects. Through use of 
rigorous, competitive merit review, NSF maintains high standards of 
excellence and accountability. Merit review enables investments in 
projects that couple the best ideas from the most capable researchers 
and educators.
    NSF and NASA referenced each other's solicitations in their own 
solicitations. In addition, all participating agencies are 
communicating about their prospective portfolios, and information about 
proposals is exchanged so that related projects are properly 
coordinated.
    Countries around the world are actively planning their IPY 
activities, and the International Council for Science and the World 
Meteorological Organization are working to provide project integration 
where appropriate. NSF expects that many proposals will be submitted to 
NSF by U.S. scientists and to agencies in other countries by scientific 
collaborators. U.S. program officers will coordinate international 
programs with their foreign colleagues to determine the proposals that 
best satisfy merit and IPY criteria. This coordination activity is 
already beginning to take place between the United States, Canada, and 
the European Union.

Q4.  Dr. McCaffrey raised the concern that, since the National Science 
Foundation (NSF) declined to fund a U.S. IPY coordinating center for 
education, outreach and communications activities, teachers are without 
a point of contact for information on IPY and researchers are without a 
point of contact for sharing their research outcomes with educators and 
the public. Why did NSF not support a coordination center for this 
purpose?

A4. Scientists and educators proposing education and outreach 
activities to NSF need to convince a panel of their peers that they 
have effective outreach plans. NSF is committed to supporting the most 
meritorious proposals, whether for scientific research or for education 
and outreach. Where possible, NSF program officers work to build ties 
between grantees where these would enhance the overall outreach effort 
for the program, and NSF has initiated a series of meetings among 
federal agency outreach officials to coordinate our various outreach 
efforts.
    NSF is highly committed to its mandate to educate the Nation's 
future scientists, engineers, and mathematicians. NSF is planning a new 
IPY solicitation in FY07, and we remain open to the possibility of 
funding a high quality and well-reviewed proposal for an IPY 
coordinating center for education.

                                   

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
